NO:

IN THE
SUPREME COURT OF THE UNITED STATES

OCTAVIUS MCLENDON and HENRY BRYANT,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
PETITION FOR WRIT OF CERTIORARI

RICHARD C. KLUGH, ESQ.
Ingraham Building
25 S.E. 2nd Avenue, Suite 1105
Miami, Florida 33131
Tel. No. (305) 536-1191
Counsel for Petitioners

QUESTION PRESENTED FOR REVIEW
The court of appeals ruled that petitioners—convicted of a 18 U.S.C. § 924(c)
offense on an aiding and abetting theory, see Rosemond v. United States, 572 U.S. 65
(2014) (requiring proof that principal committed § 924(c) offense and defendant
knowingly aided the principal)—could not prevail on their motions for new trial even
though the district court order in petitioners’ case adopted the magistrate judge’s
finding that the principal’s § 924(c) conviction was constitutionally infirm because of
a violation of Brady v. Maryland, 373 U.S. 83 (1963). The court of appeals concluded
that the district court’s later acceptance of a settlement agreement between the
government and the principal, in which the principal abandoned his own motion for
new trial on the § 924(c) count of conviction and agreed to the vacating of other counts
instead, precluded petitioners’ reliance on the Brady violation as a basis for new trial
relief. The question presented is:
Where a Brady violation has rendered constitutionally infirm the conviction of
a defendant who was alleged to be the principal in the commission of an offense, does
the infirmity in the principal’s conviction warrant new trial relief for petitioners who
were convicted, in a joint trial with the principal, of aiding and abetting the principal
and does the availability of relief to petitioners turn on whether the principal
individually requests and receives new trial relief?

i

INTERESTED PARTIES
The sole party to the proceeding other than those named in the caption of the
case is:
Daniel Mack (co-defendant)

ii

TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
INTERESTED PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY AND OTHER PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit, United States
v. Bryant, No. 17-10010 (11th Cir. July 3, 2019) . . . . . . . . . . . . . . . . . . . . . 1a
Decision of the Court of Appeals for the Eleventh Circuit denying petition
for rehearing, United States v. Bryant, No. 17-10010 (11th Cir. Feb. 7,
2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11a
Decision of the Court of Appeals for the Eleventh Circuit (on direct
appeal),
United States v. Mack, No. 12-16602 (11th Cir. July 24,
2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12a
Order denying motion for new trial, adopting report and recommendation
(Henry Bryant), United States District Court (S.D. Fla.) No. 12-20276Cr-FAM (Dec. 16, 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45a
Order denying motion for new trial, adopting report and recommendation
(Octavius McLendon), United States District Court (S.D. Fla.) No.
12-20276-Cr-FAM (Dec. 16, 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46a

iii

Order granting motion for new trial, in part (Daniel Mack), United States
District Court (S.D. Fla.) No. 12-20276-Cr-FAM (Apr. 24, 2017) . . . . . . . . 47a
Magistrate judge’s report and recommendation (Octavius McLendon,
Henry Bryant, and Daniel Mack), United States District Court (S.D. Fla.)
No. 12-20276-Cr-FAM (Oct. 27, 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49a
Judgment imposing sentence (Octavius McLendon), United States
District Court (S.D. Fla.) No. 12-20276-Cr-FAM (Dec. 21, 2012) . . . . . . . 125a
Judgment imposing sentence (Henry Bryant), United States District
Court (S.D. Fla.) No. 12-20276-Cr-FAM (Dec. 21, 2012) . . . . . . . . . . . . . 131a

iv

TABLE OF AUTHORITIES
CASES:
Brady v. Maryland, 373 U.S. 83 (1963) . . . . . . . . . . . . . . . . . . . . . . . . . . i, 3, 4, 6, 7, 8
Feder v. United States, 257 F. 694 (2d Cir. 1919) . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Rosemond v. United States, 572 U.S. 65 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Shuttlesworth v. City of Birmingham, Ala., 373 U.S. 262 (1963) . . . . . . . . . . . . . . . 7
Standefer v. United States, 447 U.S. 10 (1980) . . . . . . . . . . . . . . . . . . . . . 4, 5, 6, 7, 8
Tapia v. Roe, 189 F.3d 1052 (9th Cir. 1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
United States v. Raffone, 693 F.2d 1343 (11th Cir. 1982) . . . . . . . . . . . . . . . . . . . . . 4
Wolfe v. Clarke, 691 F.3d 410 (4th Cir. 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
STATUTORY AND OTHER AUTHORITY:
18 U.S.C. § 924(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 3, 4, 5, 7
18 U.S.C. § 924(c)(1)(A) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed. R. Crim. P. 33(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Sup. Ct. R. 13.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Sup. Ct. R. Part III . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

v

PETITION FOR WRIT OF CERTIORARI
Octavius McLendon and Henry Bryant respectfully petition the Supreme Court
of the United States for a writ of certiorari to review the judgment of the United States
Court of Appeals for the Eleventh Circuit, rendered and entered in case number
17-10010 in that court on July 3, 2019, United States v. Bryant, 780 Fed.Appx. 738
(rehearing denied, Feb. 7, 2020), which affirmed the orders denying new trial by the
United States District Court for the Southern District of Florida.
OPINION BELOW
A copy of the decision of the United States Court of Appeals for the Eleventh
Circuit, which affirmed the orders of the United States District Court for the Southern
District of Florida denying petitioners a new trial, and a copy of the decision of the
court of appeals denying rehearing, are contained in the Appendix (1a-11a) .
STATEMENT OF JURISDICTION
Jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1) and PART III of
the RULES OF THE SUPREME COURT OF THE UNITED STATES. The decision of the court
of appeals was entered on July 3, 2019. Petitioners’ timely petition for rehearing was
denied on February 7, 2020. This petition is timely filed pursuant to SUP. CT. R. 13.1.
The district court had jurisdiction because petitioners were charged with violating
federal criminal laws and a timely motion for new trial based on newly discovered
evidence was filed by petitioners under Fed. R. Crim. P. 33(b). The court of appeals had
jurisdiction pursuant to 28 U.S.C. § 1291, which provides that courts of appeals shall
have jurisdiction for all final decisions of United States district courts.
1

STATUTORY AND OTHER PROVISIONS INVOLVED
Petitioners intend to rely upon the following constitutional provisions, treaties,
statutes, rules, ordinances and regulations:
U.S. Const., amend. V
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except in
cases arising in the land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any person be subject
for the same offence to be twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law; nor shall
private property be taken for public use, without just compensation.
18 U.S.C. § 924(c)(1)(A)(i)
[A]ny person who, during and in relation to any crime of violence or drug
trafficking crime (including a crime of violence or drug trafficking crime
that provides for an enhanced punishment if committed by the use of a
deadly or dangerous weapon or device) for which the person may be
prosecuted in a court of the United States, uses or carries a firearm, or
who, in furtherance of any such crime, possesses a firearm, shall, in
addition to the punishment provided for such crime of violence or drug
trafficking crime – (i) be sentenced to a term of imprisonment of not less
than 5 years.
STATEMENT OF THE CASE
Petitioners and a co-defendant, Daniel Mack, were charged by federal
indictment with conspiracy and attempt to possess cocaine in a prosecution arising
from an undercover sting in which the government paid petitioners to transport
packages purportedly containing cocaine from Miami Beach to Aventura in South
Florida. The indictment also alleged that petitioners aided and abetted co-defendant

2

Mack in the commission of the offense of knowingly carrying and possessing a firearm
during and in relation to a drug trafficking crime, under18 U.S.C. § 924(c)(1)(A).
The evidence showed that petitioners transported packages for the undercover
agents on two occasions and that a local police officer (Mack) followed petitioners in a
police vehicle on those occasions. Because Mack was assumed to be armed and because
the government offered testimony that coded language used in Mack’s presence should
have alerted him to cocaine transportation by petitioners, the government succeeded
in convincing the jury that Mack committed a § 924(c) offense and sustaining that
conviction on direct appeal. App. 20a-21a (citing testimony by FBI agent regarding
code words that would have alerted Mack to a cocaine transaction). Petitioners also
were convicted of the § 924(c) charge, but solely as aiders and abettors of Mack’s
offense. App. 22a-24a.
After petitioners and Mack were sentenced, the government revealed that the
FBI agent who provided the crucial opinion testimony asserting that coded language
used in Mack’s presence referred to cocaine trafficking had been engaged in illegal
activity in other investigations, including helping an informant avoid responsibility for
committing a murder and lying to police about his undercover work. App. 3a, 6a (“As
it turns out, the investigative team aiming ‘to weed out ... corruption’ [in the police
department] included an [FBI] agent with his own integrity issues: Agent Jackson.”;
describing the FBI agent’s misconduct as “egregious”).
Petitioners and Mack filed motions for new trial based on newly discovered
evidence of Brady v. Maryland, 373 U.S. 83 (1963), violations relating to FBI agent
3

Jackson. App. 49a. The motions were consolidated for hearing and decision, and the
assigned magistrate judge, after a two-day evidentiary hearing, concluded that the
Brady violation warranted a new trial for Mack on all counts of the indictment,
including the § 924(c) count of conviction. Id. The magistrate judge recognized that
petitioners had argued that if Mack was denied a fair trial on the § 924(c) count,
petitioners also were denied a fair trial, because at the joint trial of the three
defendants, petitioners were convicted solely on an aiding an abetting theory. App.
122a (“The defendants also argue that if Mack’s conviction was improperly obtained,
Mr. Bryant and McLendon’s § 924(c) conviction was likewise improperly obtained. ...
The government did not address this argument.”) (internal quotation and alteration
marks omitted).
The magistrate judge recommended denying relief to petitioners, however,
because the magistrate judge misinterpreted Standefer v. United States, 447 U.S. 10
(1980) (involving an aider and abettor tried separately, not in a joint trial with the
principal, and involving no claim of constitutional error at either trial) as barring
derivative Brady relief for defendants convicted on an aiding and abetting theory in a
joint trial with a principal who was denied a fair trial. App. 123a (“If this Report and
Recommendation is adopted, Mr. Mack would not be acquitted, he would merely be
receiving a new trial. Moreover, confidence in Mr. Bryant and Mr. McLendon’s
convictions does not hinge on Mr. Mack’s conviction. See United States v. Raffone, 693
F.2d 1343, 1348 (11th Cir. 1982) (noting that “[i]n Standefer v. United States, 447 U.S.
10, 100 S.Ct. 1999, 64 L.Ed. 2d 689 (1980), the Supreme Court ruled that the acquittal
4

of a charged principal does not foreclose the subsequent conviction of an aider and
abettor.”). Accordingly, the Court should deny Mr. Bryant and Mr. McLendon’s motion
for new trial on this ground.”) (emphasis added).
The district court adopted the magistrate judge’s report and recommendation
in its entirety and denied petitioners’ new trial motions, but did not rule on the
government’s objections to the recommendation of relief for Mack. App. 45a-48a.
Instead, some four months after its orders in petitioners’ cases (adopting the report and
denying relief), the district court granted agreed relief to Mack, via a final settlement
of Mack’s case between the government, pursuant to which Mack’s drug convictions
were vacated, but his § 924(c) conviction remained in place. App. 47a. At the time the
district court accepted the Mack settlement agreement, petitioners’ appeals were
already being litigated on appeal in the Eleventh Circuit, on the issue of the district
court’s orders denying their new trial motions.
On appeal, the Eleventh Circuit affirmed the district court’s orders, rejecting
petitioners’ argument “that because the magistrate judge recommended that Mack be
granted a new trial on the § 924(c) charge” and the district court adopted the
magistrate judge’s recommendation in petitioners’ case, petitioners were “entitled to
a new trial on that charge as well.” App. 5a. The Eleventh Circuit held that despite
the fact that the district court orders in petitioners’ case adopted the magistrate judge’s
report, relief could not be granted to petitioners because Mack ultimately did not
receive a new trial on the § 924(c) charge. App. 5a-6a. Even though the denial of relief
to petitioners in the magistrate judge’s report adopted by the district court was
5

premised solely on a clear misapplication of Standefer to the circumstance of a joint
trial where the principal was wrongly convicted—when this Court clearly did not
suggest any such use of Standefer to deny a fair trial to those wrongly convicted as
aiders and abettors—the Eleventh Circuit held that the fortuity of a post-order
settlement by Mack and the government foreclosed relief to petitioners.
REASONS FOR GRANTING THE WRIT
The Eleventh Circuit’s decision, affirming a district court order that misapplied
the Court’s decision in Standefer v. United States, 447 U.S. 10 (1980), to the
circumstance of an aider and abettor convicted in a joint trial with a principal whose
conviction was tainted by government misconduct (a violation of Brady v. Maryland,
373 U.S. 83 (1963)) tainting the reliability of the principal’s conviction, warrants
review. The conclusion reached by the Eleventh Circuit that a settlement of claims by
the principal somehow cures the taint of the conviction of the petitioner aiders and
abettors is so far beyond any permissible reading of Standefer and Brady as to compel
this Court’s intervention.
The Second Circuit long ago explained the necessary logic of shared-taint of
error in the vicarious liability context.

“[W]here, as here, it is impossible that

[defendant A] should be guilty unless [defendant B] is, the crime is in every sense
indivisible,” and the requirement of a new trial for defendant B likewise implicates the
requirement of a new trial for defendant A. Feder v. United States, 257 F. 694, 697 (2d
Cir. 1919). Thus, while convictions are divisible and may be inconsistent, even in a
vicarious liability case, the crime alleged is logically indivisible, such that an error
6

affecting jury findings as to the crime affects the validity of the trial as to both
principal and agent.
In petitioners’ case, only the aiding and abetting theory was pursued by the
government on the § 924(c) count, and the Brady violation affecting the reliability of
the determination of that theory was shown not by an inconsistent verdict, as in
Standefer v. United States, 447 U.S. 10 (1980), but by a consistent verdict that rested
on a trial tainted by a constitutional violation affecting the jury’s evaluation of whether
the principal committed the offense. The trial of petitioners’ aiding and abetting
charge was unreliable where a constitutional violation undermined confidence in the
verdict as to the principal. See Shuttlesworth v. City of Birmingham, Ala., 373 U.S.
262 (1963) (holding that habeas relief was mandated, and the defendants convictions
were required to be set aside, by virtue of the setting aside, as constitutionally invalid,
of convictions of individuals whom the petitioners assertedly incited, aided and
abetted); Wolfe v. Clarke, 691 F.3d 410, 425–26 (4th Cir. 2012) (affirming district
court’s grant of habeas relief as to all of the defendant’s convictions where Brady
violation directly tainted only some the verdicts, where the tainted offenses
significantly affected the evaluation and introduction of evidence on other charges
faced by the defendant; applying domino theory of Brady violation’s effect to grant
habeas relief); see also Tapia v. Roe, 189 F.3d 1052, 1058 (9th Cir. 1999) (denying relief
under Brady where suppressed evidence did not undermine evidence of principal’s
guilt and thus “does nothing to undermine the conspiracy and aiding and abetting
theories under which Tapia was also charged”)
7

The Court’s decision in Standefer did not involve a joint trial infected by
constitutional violations such as petitioners’ case, but instead addressed trials
conducted without constitutional error, resolved by entirely different juries, so that
there was no possible carry over of error from one trial to the other for the petitioner
in Standefer. For the same reason, it is not the ultimate outcome of Mack’s case that
mattered to determining the Brady issue in petitioners’ case, but rather the
constitutional violation in obtaining the joint-trial conviction that should be dispositive.
The Court should clarify the relevant distinctions on consideration of Brady
error in this context by granting certiorari, vacating the judgment below, and
remanding for further proceedings consistent with due process.
CONCLUSION
Based upon the foregoing petition, the Court should grant a writ of certiorari to
the Court of Appeals for the Eleventh Circuit.
Respectfully submitted,
RICHARD C. KLUGH, ESQ.
Ingraham Building
25 S.E. 2nd Avenue, Suite 1105
Miami, Florida 33131
Tel. No. (305) 536-1191
Counsel for Petitioners
Miami, Florida
July 2020

8

APPENDIX

APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit, United States
v. Bryant, No. 17-10010 (11th Cir. July 3, 2019) . . . . . . . . . . . . . . . . . . . . . 1a
Decision of the Court of Appeals for the Eleventh Circuit denying petition
for rehearing, United States v. Bryant, No. 17-10010 (11th Cir. Feb. 7,
2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11a
Decision of the Court of Appeals for the Eleventh Circuit (on direct
appeal),
United States v. Mack, No. 12-16602 (11th Cir. July 24,
2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12a
Order denying motion for new trial, adopting report and recommendation
(Henry Bryant), United States District Court (S.D. Fla.) No. 12-20276Cr-FAM (Dec. 16, 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45a
Order denying motion for new trial, adopting report and recommendation
(Octavius McLendon), United States District Court (S.D. Fla.) No.
12-20276-Cr-FAM (Dec. 16, 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46a
Order granting motion for new trial, in part (Daniel Mack), United States
District Court (S.D. Fla.) No. 12-20276-Cr-FAM (Apr. 24, 2017) . . . . . . . . 47a
Magistrate judge’s report and recommendation (Octavius McLendon,
Henry Bryant, and Daniel Mack), United States District Court (S.D. Fla.)
No. 12-20276-Cr-FAM (Oct. 27, 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49a
Judgment imposing sentence (Octavius McLendon), United States
District Court (S.D. Fla.) No. 12-20276-Cr-FAM (Dec. 21, 2012) . . . . . . . 125a
Judgment imposing sentence (Henry Bryant), United States District
Court (S.D. Fla.) No. 12-20276-Cr-FAM (Dec. 21, 2012) . . . . . . . . . . . . . 131a

780 Fed.Appx. 738
This case was not selected for publication
in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule
36-2.
United States Court of Appeals, Eleventh
Circuit.
UNITED STATES of America, Plaintiff Appellee,
v.
Henry Lee BRYANT and Octavius
McLendon, Defendants - Appellants.
No. 17-10010
|
(July 3, 2019)
Synopsis
Background: Defendants, who were convicted
of multiple drug charges and a gun charge, filed
motions for new trial after government
disclosed that an undercover FBI agent who
investigated defendants and testified against
them at trial was under investigation. The
United States District Court for the Southern
District of Florida, Federico A. Moreno, J.,
adopted magistrate judge's report and
recommendation, 2016 WL 8732411, that the
motions be denied. Defendants appealed.

The Court of Appeals, Baldock, J., held that
state's failure to disclose, that an undercover
FBI agent who investigated defendant and
testified against him was under investigation, to
defense was not a Brady violation.
Affirmed.
Attorneys and Law Firms

Timothy J. Abraham, Robert K. Senior, John C.
Shipley, Assistant U.S. Attorney, Emily M.
Smachetti, U.S. Attorney Service - Southern
District of Florida, Robin W. Waugh, U.S.
Attorney Service - SFL, Miami, FL, Jared
Edward Dwyer, Greenberg Traurig, PA, Miami,
FL, for Plaintiff - Appellee
David A. Howard, David A. Howard, PA,
Miami, FL, for Defendant - Appellant Henry
Lee Bryant
Henry Lee Bryant, Pro Se
Richard Carroll Klugh, Jr., Law Office of
Richard C. Klugh, Miami, FL, for Defendant Appellant Octavius McLendon
Appeals from the United States District Court
for the Southern District of Florida, D.C.
Docket No. 1:12-cr-20276-FAM
Before JORDAN, GRANT, and BALDOCK,*
Circuit Judges.
Opinion
BALDOCK, Circuit Judge:
*739 In October 2012, a jury convicted
Defendants Henry Bryant and Octavius
McLendon each of multiple drug charges and a
gun charge. After trial, the Government
disclosed to Defendants that an undercover FBI
agent who investigated Defendants and testified
against them at trial was under investigation
himself for obstructing an unrelated murder
investigation and maintaining an improper
relationship with a former FBI confidential
source. Based on this new information,
Defendants filed motions for a new trial. After
an evidentiary hearing, a magistrate judge
issued a thorough Report and Recommendation
(R & R) recommending that Defendants’
motions be denied. The district court adopted

1a

the R & R in Defendants’ cases and denied the
motions. Defendants timely appealed.
Exercising jurisdiction under 28 U.S.C. § 1291,
we affirm.
I.
In 2012, the FBI received a tip that a Miami
Beach fire inspector was extorting the owner of
Club Dolce, a nightclub in Miami Beach. The
FBI began investigating this matter, with FBI
Agent Matthew Fowler as the lead agent, and
began running part of its operation out of Club
Dolce with the owner’s permission. An FBI
undercover coordinator determined FBI Agent
Dante Jackson “fit the persona of a nightclub
manager” and referred him to Agent Fowler for
the case. Agent Jackson became the primary
undercover agent, posing as Club Dolce
manager “Kevin Johnson.”

needed police cover for the transport. Although
only Agent Jackson and Officer Tyson
participated in undercover roles, numerous other
FBI agents assisted in this investigation.

Agent Fowler testified that during the code
compliance investigation, “there was always
this underlying theme that ... there’s all this
other corruption going on....” Doc. 257, at
106–07. In light of the potential for additional
corruption, as the code compliance case was
winding down, Agent Fowler and another case
agent began brainstorming different ideas on
how “to weed out ... corruption in Miami
Beach.” Id. at 106. Agent Fowler testified that
at this point the investigation turned into a
“drug investigation.” Id. at 104.

In his undercover capacity, Agent Jackson
presented the drug-trafficking plan to Defendant
Bryant, a Miami Beach fire inspector whom
Agent Jackson met a couple months earlier in
the code compliance investigation. Agent
Jackson explicitly told Defendant Bryant they
initially needed to transport “ten keys” of
“cocaine.” Government Exhibit 53 at Tab C,
Transcript of 12/9/11 Meeting at 20. Defendant
Bryant agreed and recruited others, including
Defendant Octavius McLendon and
Miami-Dade police officer Daniel Mack, to
participate. Eventually, two transports occurred
on December 21, 2011, and January 14, 2012.
Both times, Agent Jackson loaded bricks of
sham cocaine into a duffel bag in the office of
Club Dolce in Defendants’ presence;
Defendants took and transported the bag to the
agreed upon location; a marked police car
followed closely behind Defendants’ car during
the transport; and Defendants returned to the
office to get paid. Neither Bryant nor
McLendon carried a gun during the transports,
although there was evidence Mack, who was the
police escort during at least one of the
transports, carried his gun during the transport.1

In this drug investigation, Agent Fowler
remained the lead case agent, meaning it was
his job to “start[ ] the initial investigation[,] ...
come up with a plan, go over specific targets,
[and] work the investigation to get to a
prosecution.” Id. at 87. Agent Jackson remained
in his undercover role as Club Dolce manager
Kevin Johnson. Another undercover officer,
FBI Task *740 Force Officer KayTee Tyson III,
joined the investigation. Tyson posed as Kevin
Johnson’s drug-trafficking friend “Tony
Woods” or “T” from the Northeast who needed
people to transport drugs in the Miami area and

Defendant Bryant, Defendant McLendon, and
Mack were arrested and charged with
conspiracy to possess with intent to distribute
cocaine (Count 1); attempt to possess with
intent to distribute cocaine on December 21,
2011 (Count 2); attempt to possess with intent
to distribute cocaine on January 14, 2012
(Count 3); and possession of a firearm in
furtherance of drug trafficking (Count 4). After
a four-day jury trial in October 2012, the jury
convicted Defendants on all four counts and
convicted Mack on Counts 1, 3, and 4.
Defendant Bryant, Defendant McLendon, and

2a

Mack received total terms of imprisonment of
264 months, 248 months, and 180 months,
respectively. All three appealed their
convictions, arguing among other things the
evidence was insufficient on all counts. The
Eleventh Circuit affirmed. United States v.
Mack, 572 F. App'x 910 (11th Cir. 2014)
(unpublished).
***
As it turns out, the investigative team aiming
“to weed out ... corruption” included an agent
with his own integrity issues: Agent Jackson.
Unbeknownst to the rest of the team and the
FBI, Agent Jackson maintained an improper
relationship with a former FBI confidential
source and ex-Russian mobster, Mani
Chulpayev. In March 2014, after Defendants’
direct appeal was briefed but before the
Eleventh Circuit ruled on it, the Government
notified Defendants’ attorneys that Agent
Jackson was under investigation for allegations
arising out of his relationship with Chulpayev.
After the appeal concluded, Defendants sought
additional information about the Jackson
investigation. In July 2015, the Government
responded that the Department of Justice Office
of the Inspector General (“OIG”) received a
complaint in March 2013, “which alleged that
Jackson obstructed an ongoing murder
investigation.” Doc. 182-2, at 1. The OIG also
received allegations “that Jackson had
unauthorized *741 contacts with a closed
confidential source, accepted gifts from the
closed source, and engaged in other potential
criminal and administrative violations involving
the closed source.” Id. Agent Jackson was under
investigation for these allegations but, at that
point, “there [had] been no findings of
misconduct or other impropriety.” Id. at 2.
Armed with this information, all Defendants
filed a motion for a new trial pursuant to Brady
v. Maryland, 373 U.S. 83, 83 S.Ct. 1194, 10

L.Ed.2d 215 (1963), and Fed. R. Crim. P. 33.
The magistrate judge held an evidentiary
hearing, and during this hearing, OIG
investigator Susan Howell testified to the
following facts about Chulpayev and Agent
Jackson’s misconduct. Mani Chulpayev was
“involved in a bunch of crimes” in the late
1990s in New York. Doc. 257, at 170. The FBI
arrested him for these crimes around 1998, after
which Chulpayev began cooperating with the
government and became a registered FBI
source. He moved to Atlanta and assisted the
FBI there, until he was arrested for
vehicle-related crimes. When he was released
from prison, he expressed to an FBI agent that
he wanted to cooperate with the government
again. In January 2010, Chulpayev became a
registered FBI source once again, and Agent
Jackson became Chulpayev’s FBI “handler.” In
February 2011, however, Chulpayev stopped
being a registered FBI source because he was
leaving the Atlanta area.
Agent Dante Jackson’s Chulpayev-related
misconduct, which occurred after Chulpayev
was no longer a registered source, falls into two
categories: (1) receiving improper gifts from
Chulpayev and (2) improperly intervening on
Chulpayev’s behalf. At the evidentiary hearing,
the Government did not contest that Agent
Jackson received multiple items of value not
related to his performance of undercover FBI
work, including Miami Heat tickets on four
occasions, a room at the Fontainebleau Hilton
Hotel, use of an Audi A8 for three days, and a
$3500 payment to Agent Jackson’s credit card
covering the majority of a $4256.12 charge
from Bamboo Nightclub. Additionally, the
Government did not contest that Chulpayev
provided Agent Jackson with work-related
items of value, including Heat tickets on one
occasion and the use of luxury vehicles on
twelve occasions. Howell testified that, as a
result of his connections, Chulpayev also
provided Agent Jackson with discounts on

3a

shoes, jewelry, and lunches at an Italian
restaurant. On another occasion, Chulpayev
provided Agent Jackson with $1500 cash as a
part of an investigation, and Chulpayev was
eventually reimbursed. These actions violated
FBI policy.
In addition to receiving gifts from Chulpayev,
Agent Jackson also attempted to intervene on
Chulpayev’s behalf with regard to his serious
legal issues—both of which relate to
Chulpayev’s luxury vehicle “business.” Agent
Jackson’s first intervention on Chulpayev’s
behalf concerns an agreement Chulpayev
entered into with Amanda Smith. Smith acted as
a straw purchaser for Chulpayev and bought
luxury vehicles. Smith then allowed Chulpayev
to lease the cars, and Chulpayev would pay
Smith the monthly car payment plus an extra fee
for Smith. Chulpayev eventually stopped paying
Smith, prompting Smith to hire an attorney.
Agent Jackson contacted Smith’s attorney. At
some point, Smith’s attorney told Agent
Jackson he knew Chulpayev was an FBI source,
he knew Chulpayev was involved with vehicle
fraud, and he would report Chulpayev and
Agent Jackson. According to Smith’s attorney,
Agent Jackson then told him, “If you do that,
I’ll have you arrested for extorting a federal
agent.” These actions, of course, violated FBI
policy.
*742 Jackson intervened a second time on
Chulpayev’s behalf regarding a far more
egregious legal issue, which began at
Chulpayev’s birthday party on June 2, 2012, in
Miami.2 One of Chulpayev’s drug-trafficking
friends, Decensae White, attended the party.
White told Chulpayev that Melvin Vernell III,
an Atlanta-based rapper also known as “Lil’
Phat,” stole marijuana from White. At some
point, White asked Chulpayev if Vernell was in
one of Chulpayev’s cars. As an investor in
Chulpayev’s business, White knew Chulpayev’s
cars had GPS trackers in them. Chulpayev told

White that Vernell was in his car and gave
White either the coordinates to where Vernell
was located or the login information to access
the car’s location. On June 7, as Vernell waited
in a hospital parking garage while his girlfriend
had her baby, Vernell was murdered in a car he
was leasing from Chulpayev. Chulpayev later
testified that when he gave the information to
White, he did not think White would kill
Vernell.
The next day, Chulpayev called Sandy Springs
Police Department to give them information
about White’s potential involvement in the
murder, but the officer did not call Chulpayev
back or was not interested. Chulpayev then
called Agent Jackson and told him that he
thought White and White’s associate Gary
Bradford were involved in Vernell’s murder.
Agent Jackson instructed Vernell to not talk to
anyone about the murder. On June 11, Agent
Jackson called the Sandy Springs Police
Department and told Detective J.T. Williams
that his “source” told him that White and
Bradford might be involved in the murder.
Detective Williams wanted to interview the
source, but Agent Jackson told Detective
Williams that he was very protective of his
source. Agent Jackson also told Detective
Williams narcotics were involved and that it
could become a federal case.3
At some point, Agent Jackson indicated to
Detective Williams that Chulpayev gave White
the coordinates to the hospital where Vernell
was murdered. Detective Williams asserted that
would make Chulpayev a co-conspirator in the
murder. Upon hearing this, Agent Jackson
attempted to recover by saying actually
Chulpayev gave White the coordinates to where
Vernell was staying. In October 2012, Agent
Jackson provided Chulpayev to Detective
Williams for an interview. This interview
eventually led to Chulpayev’s arrest for his
involvement in the murder.4 In January 2013,

4a

Agent Jackson called Detective Williams to
confess that Chulpayev was no longer a
registered FBI source and that he had not been
one for a while. Detective Williams reported
this disclosure up his chain of command, and
the Sandy Springs Police Department eventually
notified the FBI. At the time of the evidentiary
hearing, the OIG’s investigation was still
ongoing, but Jackson was no longer actively
working for the FBI.
***
After the evidentiary hearing and further
briefing on the foregoing information about
Jackson’s misconduct, the magistrate *743
judge issued a thorough R & R addressing
Defendants’ Brady claims and Rule 33 motions.
For the Brady claim, Defendants had the burden
to show:
(1) the government possessed favorable
evidence to the defendant[s]; (2) the
defendant[s] [did] not possess the evidence and
could not obtain the evidence with any
reasonable diligence; (3) the prosecution
suppressed the favorable evidence; and (4) had
the evidence been disclosed to the defendant[s],
there is a reasonable probability that the
outcome would have been different.
United States v. Stein, 846 F.3d 1135, 1145–46
(11th Cir. 2017). The R & R stated Defendants
satisfied their burdens on the first three Brady
elements. As to the fourth materiality element,
the R & R stated neither Defendant Bryant nor
Defendant McLendon satisfied their burden.
The R & R engaged in a similar analysis as to
Defendant Bryant’s and Defendant McLendon’s
Rule 33 claims. The R & R stated Mack,
however, satisfied his burden and was entitled
to a new trial on all counts for which he was
convicted. Lastly, the R & R stated that even
though Defendant Bryant and Defendant
McLendon were convicted of the § 924(c)

charge on an aiding and abetting theory and
Mack was entitled to a new trial on the § 924(c)
as the principal, the court should deny
Defendant Bryant’s and Defendant McLendon’s
motions for a new trial on their § 924(c)
charges.
On December 16, 2016, the district court
adopted the R & R in Defendant Bryant’s and
Defendant McLendon’s cases. The district
court, however, deferred ruling and required
further oral argument in Mack’s case. On April
21, 2017, the Government and Mack entered
into a Joint Resolution Agreement, whereby
Mack’s § 924(c) conviction would stand but the
Government would dismiss the other counts
against Mack. In a written order, the district
court accepted this agreement and explicitly
stated it was not adopting the magistrate judge’s
R & R.
II.
Defendants Bryant and McLendon appeal the
district court’s order adopting the magistrate
judge’s R & R, arguing the district court erred
in two ways. First, Defendants argue that
because the magistrate judge recommended that
Mack be granted a new trial on the § 924(c)
charge, Defendants are entitled to a new trial on
that charge as well. Mack was charged as the
principal of the § 924(c) charge, while
Defendants were charged on an aiding and
abetting theory. Defendants argue “the alleged
‘principal’ has been granted a new trial and so
also should the alleged ‘aiders.’ ” Op. Br. at 38.
Fatal to this claim, however, is the fact that
Mack was not granted a new trial on the §
924(c) charge. The Government and Mack
agreed that Mack’s § 924(c) conviction would
stand, and the district court entered an order to
this effect. Although the district court adopted
the R & R in Defendants’ cases, the district
court never adopted the R & R in Mack’s case.
Instead, the district court’s order accepting the
Joint Resolution Agreement explicitly states it

5a

was not adopting the R & R in Mack’s case.
This first argument, therefore, fails.
Second, Defendants argue the district court
erred in determining the withheld
evidence—information about Agent Jackson’s
improper relationship with Chulpayev—was not
material under Brady. We review this
determination de novo. United States v. Scheer,
168 F.3d 445, 452 (11th Cir. 1999). “The
evidence is material only if there is a reasonable
probability that, had the evidence been
disclosed to the defense, the result of the
proceeding would have been different.” *744
United States v. Bagley, 473 U.S. 667, 682, 105
S.Ct. 3375, 87 L.Ed.2d 481 (1985). “A
reasonable probability does not mean that the
defendant ‘would more likely than not have
received a different verdict with the evidence,’
only that the likelihood of a different result is
great enough to ‘undermine[ ] confidence in the
outcome of the trial.’ ” Smith v. Cain, 565 U.S.
73, 75, 132 S.Ct. 627, 181 L.Ed.2d 571 (2012)
(quoting Kyles v. Whitley, 514 U.S. 419, 434,
115 S.Ct. 1555, 131 L.Ed.2d 490 (1995)).
Notably, the materiality test under Brady is not
a sufficiency of the evidence test. Kyles, 514
U.S. at 434–35, 115 S.Ct. 1555.
At the outset, we note Agent Jackson’s
conduct—while egregious—was not related to
the instant case. Although this fact is not in
itself dispositive, it is highly relevant and worth
emphasizing. No facts regarding Agent
Jackson’s misconduct overlap with the facts
leading to Defendants’ prosecutions. Both
Officer Tyson and OIG Investigator Howell
testified Chulpayev was not involved in this
case. Agent Fowler, the one in charge of the
drug investigation, had not even heard of
Chulpayev prior to OIG’s investigation of
Jackson. The information, therefore, would not
have been admitted as substantive evidence at
Defendants’ trial. The timing of Agent
Jackson’s conduct, however, is relevant to how

its disclosure might have affected the
proceedings. While Agent Jackson did not
receive a majority of the gifts from Chulpayev
until after the trial in this case, a few gifts were
received before and during trial. Specifically,
Agent Jackson received Heat tickets on one
occasion and used Chulpayev’s luxury vehicles
on six occasions prior to Defendants’ trial, and
Jackson used Chulpayev’s 6 series BMW during
Defendants’ trial in which Agent Jackson
testified. Agent Jackson’s interventions on
behalf of Chulpayev, which possibly could
severely undermine his credibility, occurred
after the investigation but before trial.
Therefore, had this information been disclosed
to Defendants, they could have potentially used
the information to impeach Agent Jackson.
Defendants take it a step further and argue that,
not only could this information have been used
as impeachment evidence, but it “could
reasonably be taken to put the whole case in
such a different light as to undermine
confidence in the verdict.” Op. Br. at 39 (citing
Arnold v. McNeil, 622 F. Supp. 2d 1294, 1316
(M.D. Fla. 2009), aff’d and adopted sub nom.
Arnold v. Sec’y, Dep’t of Corr., 595 F.3d 1324
(11th Cir. 2010)). Defendants also argue the
disclosure “would have caused the government
to refrain from calling Jackson as a witness
altogether.” Op. Br. at 50. The disclosure would
have perhaps prevented Jackson from testifying,
but even so, we do not agree that the disclosure
would have “put the whole case in such a
different light as to undermine confidence in the
verdict.” In Arnold, the district court held a jury
verdict was unworthy of confidence when an
investigator, who was the only person able to
confidently identify the defendant, engaged in
egregious misconduct around the same time he
was testifying against the defendant at trial. 622
F. Supp. 2d at 1316–18. The critical distinction
between Arnold and the instant case is that here,
Agent Jackson was not the sole source of vital
information at trial. Almost every interaction

6a

Agent Jackson testified about at trial was also
recorded. In other words, in sharp contrast to the
investigator in Arnold, there is very little for
which the jury had to take Jackson’s word
because they heard the recordings themselves.
The relevant exception is the initial meeting
Agent Jackson had with Defendant Bryant about
the drug-transporting plan, in which Agent
Jackson testified that the recording device
failed. This initial meeting will be discussed
more below.
*745 A.
Keeping in mind that the alleged Brady
material—Agent Jackson’s misconduct—was
unrelated to this case and most of Agent
Jackson’s trial testimony was corroborated by
recordings, we first consider the effect the
disclosure of Agent Jackson’s misconduct
would have on Defendant Bryant’s drug
convictions. Defendant Bryant barely makes
any argument that there is a reasonable
likelihood of a different result, perhaps because
of the overwhelming evidence against him. To
state just one example of the evidence against
Defendant Bryant, the jury heard a recording of
Agent Jackson telling Defendant Bryant “what’s
gonna be moving” is “ten kilos.” Government
Exhibit 53 at Tab C, Transcript of 12/9/11
Meeting at 7–8. They also heard Agent Jackson
tell Defendant Bryant they were “dealing with
ten keys,” which Agent Jackson stated was “not
a incre-, incredible amount of cocaine.” Id. at
20 (emphasis added). Defendant Bryant’s
response was “Okay” and “I understand, I
understand.” Id. Defendant Bryant ended up
transporting “nine” on December 21, 2011, and
then another ten wrapped in similar packaging
on January 14, 2012. These facts were evident
from, not only the recordings, but also Officer
Tyson’s testimony. To the extent Agent
Jackson’s trial testimony corroborated this
evidence, it was cumulative. The likelihood of
a different result, had Agent Jackson’s
misconduct been disclosed, is not nearly great

enough to undermine our confidence in the jury
verdict regarding Defendant Bryant’s drug
convictions.
B.
We now turn to the effect such disclosure would
have had upon Defendant McLendon’s drug
convictions. At trial, McLendon argued he did
not have the requisite intent for the
drug-trafficking crimes because he thought they
were transporting money rather than cocaine.
Even though there was no evidence that the
word “cocaine” was used in McLendon’s
presence, the jury did not accept this defense
and found McLendon guilty. Now, McLendon
essentially argues that without Agent Jackson’s
testimony, there is a reasonable probability the
jury would have believed his defense that he
thought he was transporting money.
Specifically, McLendon argues “Jackson’s
repeated opinions that McLendon was talking
about drugs was the damaging part of the
evidence for the jury.” Op. Br. at 45.
In their opening brief, Defendants point to two
of such occurrences that involve understanding
McLendon’s comments. First, the jury heard a
recording of McLendon expressing that he did
not want to use the SunPass lane during the
transport “[c]ause it takes pictures.”
Government Exhibit 53 at Tab F, Transcript of
12/21/11 Meeting at 9. The Government then
asked Agent Jackson what he understood that
comment to mean. Agent Jackson responded,
“He didn’t want any evidence of the actual drug
transaction.” Doc. 145, at 74 (emphasis added).
He also stated McLendon “didn’t want to get on
the SunPass lane fearful that the cameras on the
SunPass lane would take pictures of the car with
them in it with the cocaine.” Id. Second, the jury
heard a recording of McLendon stating
something about them “not using the same
pattern.” Id. at 81. The Government asked
Agent Jackson what his understanding of the
comment was, and Agent Jackson responded

7a

that McLendon meant “they would change the
officers out for each subsequent deal that we
did.”5 Id. (emphasis added). In parentheticals
*746 in their reply brief, Defendants point to
additional occurrences that involved Agent
Jackson’s understanding of McLendon’s
recorded comments. Specifically, Defendants
note that “Jackson characterizes meeting with
McLendon as ‘the actual drug deal’ ”; “Jackson
opines McLendon meant to say ‘when you’re
carrying 10 kilograms of cocaine, you want the
bag to be as small as possible ...’ ”; and
“Jackson opines it was ‘everybody’s plan’ that
the job involved cocaine.” Rep. Br. at 13–14
(citing Doc. 145, at 72, 95, 107).
Agent Jackson’s comments at trial about
McLendon’s involvement in “the actual drug
transaction” or “each subsequent deal,”
however, were not nearly the only evidence that
established McLendon knew they were
transporting drugs. First, Agent Jackson
explicitly told Bryant they were transporting
“cocaine.” Bryant recruited “his brother”
McLendon to help with the job. McLendon
argues Agent Jackson and Bryant originally
planned to transport money and apparently
Bryant did not tell McLendon of the change of
plans. To support this argument, McLendon
points to one sentence of Jackson’s trial
testimony, in which he described the first
meeting with Bryant where the recording device
failed:
I discussed with Mr. Bryant that I had an
associate in New York who was a
childhood friend that was involved in drug
trafficking. I was laundering his money
through the nightclub, and he had proposed
a deal to me to assist him with laundering
some drug proceeds, and in exchange, I
would be paid for that.
Doc. 145 at 14. Bryant was “fine” with this
proposal. Id. Agent Jackson’s very next

statement about this first meeting, however,
describes the plan:
The initial plan was to transport the drugs
from a point in Miami to another
destination, and he would provide police
officers to assist with escorting the drugs.
The whole thing I presented to him was I
didn’t want the drugs being picked up by
police, so we wanted police escorts to
make sure the drugs made it from Point A
to Point B.
Id. at 15 (emphases added).6 Unfortunately for
McLendon, had Agent Jackson’s misconduct
been disclosed, Agent Jackson might not have
testified at all and there would have been no
money-laundering testimony. Thus, McLendon
would have had even less of a basis for arguing
he thought he was transporting money. Even if
this same testimony was elicited, however, it is
unclear whether Jackson expected Bryant *747
to launder money. What is clear is Agent
Jackson needed to “transport the drugs” and
Bryant “would provide police officers to assist
with escorting the drugs.”7 If any doubt
remained, later recorded conversations make
clear they were transporting “cocaine.” Given
there was a plan to transport “cocaine” and
Bryant recruited McLendon to help execute this
plan, the evidence is strong that McLendon
knew they were attempting to transport cocaine.
Second, McLendon in fact showed up for both
transports, where he watched Agent Jackson
load wrapped “bricks” of sham cocaine into a
duffel bag. McLendon clearly saw and counted
the bricks. He completed the transports and
returned to the office to receive his payment.
While McLendon argues that the packaging of
the sham cocaine was consistent with the
packaging of money, Tyson testified at trial that
he had “never” seen money packaged the way
the sham cocaine was packaged in this case. Id.
at 202–03. He explained: “When you’re

8a

delivering money to anyone, people want to
make sure that what they’re getting there is
money.” Id. at 202. In his experience—which
includes eight years on the FBI’s Safe Streets
Task Force “investigat[ing] large drug
trafficking organizations,” id. at 187–88—one
package like what McLendon and Bryant
transported usually represents one kilogram of
cocaine or heroin. Id. at 203.
Third, during the December 21 transport before
Defendants took the duffel bag, Tyson asked
Defendants, “No deviation, no taste, no test,
neither one of y’all get high right?” Government
Exhibit 53 at Tab G, Transcript of 12/21/11
Meeting at 11. Defendants were “insulted” at
the comment and McLendon responded only
with “Pstt.” Id.; Doc. 145, at 196. Tyson’s
comment simply would not have made sense
had Defendants thought they were transporting
money, as money is not “tasted” or “tested”
even figuratively. Further, Tyson explained the
meaning of this interaction at trial. He testified
that he “didn’t want a person that gets high to
transport my drugs for me, because at that point
they could decide to go in, take some more, test
it for themselves to see what it was, if it was
good, if it wasn’t.” Doc. 145, at 196. In light of
the evidence showing McLendon thought he
was transporting cocaine, Agent Jackson’s
multiple statements at trial about McLendon
thinking he was participating in a “drug
transaction” or “deal” were not crucial enough
to put the whole case in such a different light as
to undermine our confidence in McLendon’s
drug convictions. Therefore, had Agent
Jackson’s misconduct been disclosed, there is
not a reasonable probability that the result of the
proceeding would have been different.

about the effect of the disclosure of Agent
Jackson’s misconduct “on all Counts,”
Defendants write only one sentence in this
section about the gun charges, which refers back
to section A of their brief. Op. Br. at 38, 49–50
(“[F]or both Bryant and McLendon, because the
district court correctly found that Jackson’s
testimony to find Mack’s guilty knowledge was
key to the verdict on the § 924(c) count, a new
trial on the § 924(c) charge is required is [sic] to
all the defendants (as explained in section A,
*748 above).”). Section A of their brief,
however, only makes the argument that as a
matter of law, it is inconsistent for Mack to
receive a new trial as the principal and
McLendon and Bryant to not receive a new trial
as the aiders and abettors. We have already
addressed this argument above. See supra pp.
742–43. Not once do Defendants make the
separate argument that, had Agent Jackson’s
misconduct been disclosed, there is a reasonable
probability that the result of the proceeding in
regard to Defendants’ gun convictions would
have been different or engage in the
fact-specific analysis required to make this
argument. We, therefore, do not address this
issue.
Agent Jackson’s unethical conduct was not
worthy of an FBI agent. For the foregoing
reasons, however, his misconduct was not
material because the likelihood of a different
result in Defendants’ cases had the misconduct
been disclosed is not great enough to undermine
our confidence in the jury’s verdict.
Accordingly, we AFFIRM.
All Citations
780 Fed.Appx. 738

C.
Lastly, we turn to the effect the disclosure of
Agent Jackson’s misconduct would have had on
Defendants’ gun convictions. Although in their
header Defendants indicate their argument is

9a

Footnotes
*

Honorable Bobby R. Baldock, United States Circuit Judge for the Tenth Circuit, sitting by
designation.

1

The parties are aware of the facts surrounding the transports of sham cocaine and the evidence
presented at trial. We will refer to this evidence only as it becomes relevant below. For a full
rendition of the evidence presented at trial, see Doc. 291, at 11–29.

2

Howell testified to the following information based on Sandy Springs Police Department’s
interviews of Chulpayev.

3

White and Bradford were under FBI investigation at this point for drug trafficking. Jackson served
as the case agent on this investigation, and Officer Tyson was undercover for this investigation.

4

After spending two years in jail, Chulpayev won a motion to suppress certain statements he made
regarding Vernell’s murder. State v. Chulpayev, 296 Ga. 764, 770 S.E.2d 808 (2015). He then
pleaded guilty to a lesser charge and was released.

5

Defendants also give the example of when the jury heard a recording of Bryant saying he had “been
in this thing together” (assumedly with McLendon) since they were eight years old. Doc. 145, at 44.
At trial, the Government asked Jackson what he understood by that comment. Describing this
moment, Defendants now state that “Agent Jackson thereby turned ‘this thing’ into cocaine
trafficking....” Op. Br. at 12. Defendants must not understand that we, too, read the record, which
reveals Agent Jackson did not “turn[ ] ‘this thing’ into cocaine trafficking.” Id. Rather, Agent
Jackson testified he understood it to mean, “Just that they were partners. They’ve just been together
since they were eight years old, just partners, family.” Doc. 145, at 44. When pressed further,
Jackson said, “I just understood it to mean they were partners. I mean, they were just in it together.”
Id. Absent from Jackson’s answers is any mention of drugs, let alone “cocaine trafficking.”

6

Defendants state that in this conversation, Jackson never “impl[ied] that he or his Club Dolce were
involved in the Maryland drug trafficking.” Op. Br. at 7. This statement is only correct insofar as
Jackson did not mention the state of Maryland—a fact of no consequence. The statement is
otherwise incorrect, as Jackson did not only imply he was involved in drug trafficking, he stated he
was involved and needed help escorting the drugs.

7

Agent Fowler—the case agent who came up with the plan—testified at the hearing on the motion
for a new trial that the plan all along was to “move the drugs through the club” and that money
laundering was never a part of the plan. Doc. 257, at 137–39.

10a

Case: 17-10010

Date Filed: 02/07/2020

11a

Page: 1 of 1

572 Fed.Appx. 910
This case was not selected for publication
in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule
36-2.
United States Court of Appeals,
Eleventh Circuit.
UNITED STATES of America,
Plaintiff–Appellee,
v.
Daniel MACK, Octavius McLendon, Henry
Lee Bryant, Defendants–Appellants.
No. 12–16602.
|
July 24, 2014.
Synopsis
Background: Defendants were convicted by jury
in the United States District Court for the
Southern District of Florida, No
1:12–CR–20276–FAM–2, of, inter alia,
conspiracy to possess with intent to distribute
five kilograms or more of cocaine and
possession of a firearm in furtherance of a drug
trafficking crime. All three defendants appealed
their convictions, and one defendant appealed
his sentence.

Holdings: The Court of Appeals, Orinda D.
Evans, District Judge, sitting by designation,
held that:
evidence was sufficient to support defendants'
convictions on all counts;
district court did not abuse its discretion by
denying police officer defendant's motion to
sever;

district court did not abuse its discretion by
denying defendant's motion for new trial based
on newly discovered evidence;
district court did not commit plain error by
failing to admit codefendant's post-arrest
statements regarding police officer defendant's
lack of knowledge of drugs to impeach his
inconsistent co-conspirator statements to
undercover agents;
cumulative effect of purported prosecutorial
misconduct, improper government witness
testimony, and erroneous judicial rulings did not
warrant reversal; and
defendant's 264–month total sentence was not
procedurally or substantively unreasonable, and
district judge did not abuse his discretion by
denying defendant's request for downward
variance.
Affirmed.
Attorneys and Law Firms
*911 Lisette Marie Reid, Anne Ruth Schultz,
Timothy J. Abraham, Jared E. Dwyer, Wifredo
A. Ferrer, Kathleen Mary Salyer, Robin W.
Waugh, U.S. Attorney's Office, Miami, FL, for
Plaintiff–Appellee.
Michael Caruso, Federal Public Defender,
Tracy Michele Dreispul, Federal Public
Defender's Office, Sheryl Joyce Lowenthal,
Law Offices of Sheryl Lowenthal, Richard
Carroll Klugh, Jr., Law Offices of *912 Richard
C. Klugh, Miami, FL, for
Defendants–Appellants.
Appeals from the United States District Court
for the Southern District of Florida. D.C.

12a

Docket No. 1:12–cr–20276–FAM–2.
Before MARCUS, Circuit Judge, PROCTOR
and EVANS, District Judges.
*

Opinion
EVANS, District Judge:
Defendants/Appellants (hereinafter
“Defendants”) Daniel Mack (“Mack”), Henry
Lee Bryant (“Bryant”), and Octavius McLendon
(“McLendon”) were convicted of, inter alia,
conspiracy to possess with intent to distribute
five kilograms or more of cocaine and
possession of a firearm in furtherance of a drug
trafficking crime. They appeal, raising
numerous issues related to their convictions.
Bryant also appeals his sentence. We affirm.
I. Background
A. The Evidence
The following is the evidence construed in the
government's favor. United States v. Harris, 20
F.3d 445, 452 (11th Cir.1994) (citation
omitted).
1

In 2011, the Federal Bureau of Investigation
(the “FBI”) initiated an investigation in Miami
Beach, Florida. As part of that investigation,
undercover FBI agent Dante Jackson (“Agent
Jackson”) posed as “Kevin Johnson,” the
general manager of a Miami Beach nightclub
called Dolce UltraLounge (“Dolce”). While
acting as the nightclub manager, Agent Jackson
was introduced to Defendant Bryant, a veteran
Miami Beach fire inspector.
During a meeting at the nightclub office on
December 2, 2011, Agent Jackson told Bryant
that he was helping a drug-trafficker friend from
New York by transporting drugs. Agent Jackson
proposed a plan to move some of the friend's

drugs from the Miami Beach nightclub to the
Aventura Mall in north Miami–Dade County,
and asked Bryant whether he could provide
police protection for the transport. Jackson
specifically insisted that the officers be in
uniform and drive marked police cruisers to
avoid interdiction by other law enforcement.
On December 4, 2011, Bryant told Agent
Jackson that he had “four County guys” and
“two Beach guys” who would escort the drugs.
He added that he would bring in Defendant
McLendon, to whom Bryant referred as his
“brother.” Bryant described McLendon as “the
point man” who would communicate the plans
to the officers.
On December 6, 2011, Agent Jackson called
Bryant and attempted to arrange a meeting with
the officers who had been enlisted by Bryant to
provide the escort. Bryant did not bring his
“guys” to his follow-up meeting with Jackson
that took place on December 9, 2011; however,
he assured Agent Jackson in a recorded
conversation that “[the police officers] gonna
know what's gonna on, cause [Bryant was]
gonna tell them [what the deal was] straight
up.” Bryant also commented that he and
McLendon had been “in this thing together for,
since [they]'ve been eight years old.”
Agent Jackson and Bryant had several
additional conversations in which they
discussed the details of the transportation of
*913 the drugs. During a telephone call on
December 10, 2011, Agent Jackson referred to
the “dope” that they would be transporting, and
Bryant immediately hung up. Later, Bryant
reprimanded Jackson stating he had thought that
Jackson had said “coke.” Bryant instructed
Jackson not to use the word “coke” over the
telephone because their conversations could be
intercepted by law enforcement.

13a

December 21, 2011 was the date of the first
of two drug transportation trips. On that day,
Agent Jackson introduced Bryant to his
drug-trafficking friend from New York, who
was played by Detective KayTee Tyson
(“Det. Tyson”), at a restaurant on South
Beach. At approximately 4:30 p.m. that
afternoon, Bryant, accompanied by
McLendon, arrived at Dolce to collect the
cocaine. Agent Jackson and Det. Tyson
were present in their undercover roles.
2

Bryant and McLendon began discussing the
route that they were going to take.
McLendon stated that they should not use
the SunPass toll lane, and Bryant clarified
that this was because the camera on the toll
lane takes pictures. Det. Tyson then told
Bryant and McLendon that “there's nine in
there,” referencing the quantity of cocaine in
kilograms, and stated that “we need to make
sure that all nine of these get there.”
McLendon nodded his head in agreement.
Det. Tyson added, “cause this money, see
what I'm saying?”
In front of both Bryant and McLendon, Det.
Tyson then marked each of the nine
packaged bricks of sham cocaine with a
marker, and Agent Jackson placed the
packages into a duffel bag. After Bryant and
McLendon counted or partially counted the
nine kilograms of sham cocaine, Det. Tyson
told them that there may be “no deviation, no
taste, no test,” and asked if either of them
“get high?” According to Det. Tyson, they
appeared to be insulted and McLendon made
a sound as though he was upset with the
question.
FBI agents on the ground and in a
surveillance aircraft observed Bryant and
McLendon driving away from the nightclub.
Bryant and McLendon's vehicle drove to

Aventura Mall. Their vehicle was escorted by a
marked police patrol car with the numbers 1929A
painted on its roof. There is no express evidence as
to who was driving that vehicle, but the patrol car
was assigned to Defendant Mack. Mack's vehicle
kept going past the mall and did not reappear.
Bryant was paid $10,500 for the job.
3

On the morning of January 14, 2012, the date of the
second drug transportation trip, the undercover
agents met with Bryant and Defendant Mack at a
restaurant. Mack had been a police officer with the
Miami–Dade police department for sixteen years.
He had been scheduled to work that day, but had
requested the day off.
Before Mack arrived, the undercover agents
attempted to confirm with Bryant that “everybody
was on the same page [about what they were
doing].” Bryant assured Tyson that Mack “[knew]
exactly what [they were] doing” and that “there's no
secrets.”
Mack arrived in his Miami–Dade police patrol car.
He wore his police uniform and badge, but not his
name tag. His firearm was visible, holstered at his
waist. When Mack arrived, Bryant stated, “James,
T.” Jackson interpreted this as Bryant introducing
Mack by the name “James.”
*914 Due to lack of seating at the restaurant, the
group decided to move the meeting to another
restaurant. Det. Tyson and Bryant rode together in
Bryant's vehicle. They were followed by Agent
Jackson. Mack met them at the second restaurant.
At the new restaurant location, they sat together.
During the meeting at that restaurant, which began
at about 9:05 a.m., Agent Jackson and Det. Tyson
did not mention the words “cocaine” or “drugs.”
Det. Tyson emphasized that it was important that
Mack understood what was going on and that he
was “on the same point.” Mack did not ask any
questions while Tyson was speaking. He gave brief
4

14a

affirmative responses when spoken to, such
as, “[t]hat's true,” “[r]ight,” “[y]ou right,”
and “[y]eah.” He asked no questions.
At some point, while they were still in the
restaurant, Mack and Det. Tyson began
discussing the county's plan to reduce the
police force by laying off hundreds of police
officers, to which Tyson replied “[w]e ready
to get rich.” Tyson also commented that
“[n]obody down [in Miami] be working” and
that “we” could be in Miami “all the time,”
and Mack confirmed that “[t]here won't be
[anybody working].” Jackson then added that
Miami would be “wide open.” Mack said
nothing in response to that statement.
As the group left the restaurant, Agent
Jackson said “[h]ey but I appreciate it
man[,]” to which Mack replied “[n]o
problem.” Jackson told Mack that they were
“trying to make it work” because Miami was
“new territory for us.” He also stated that
they had “many t-shirts coming through you
know what I mean, we just want to make
sure everything is right you know what I
mean.” Mack responded, “I don't hate, so
that's why I respect and understand
everything he mentioned.” Jackson then
remarked that “ain't nobody trying to get
locked up.” Mack responded “[y]ou know
how they do us” and gestured as though he
was handcuffed, which Jackson interpreted
to mean “the government against two black
guys.” The meeting broke up at 10:18 a.m.
Less than two hours later, Bryant arrived at
the nightclub with McLendon. There,
McLendon counted ten brick-shaped
packages of cocaine as they were packed
into a duffel bag. There is no evidence that
Mack was present when the packages were
counted and packed. A little after 12:03 p.m.,
Bryant and McLendon transported the 10

kilograms of sham cocaine in their car to Aventura.
Their vehicle, a PT Cruiser, was followed closely
for about eight to ten miles by the same marked
patrol car that was observed escorting the
December 21, 2011 transport. The marked patrol
car kept going behind Bryant and McLendon's
vehicle until it entered a Publix parking lot in
Aventura. FBI agents testified that throughout the
surveillance, there was radio communication
between the marked patrol car and the PT Cruiser.
Bryant, McLendon, and Mack were arrested on
April 11, 2012.
All three Defendants were indicted on four counts:
(1) conspiracy to possess with intent to distribute
five kilograms or more of cocaine, in violation of
21 U.S.C. §§ 841(a)(1), 841(b)(1)(A), and 846
(Count One); (2) attempt to possess with intent to
distribute cocaine on December 21, 2011, in
violation of 21 U.S.C. §§ 841(a)(1),
841(b)(1)(A)(ii), 846, and 18 U.S.C. § 2 (Count
Two); (3) attempt to possess with intent to
distribute cocaine on January 14, 2012, in violation
of 21 U.S.C. §§ 841(a)(1), 841(b)(1)(A)(ii), 846,
and 18 U.S.C. § 2 *915 (Count Three); and (4)
possession of a firearm in furtherance of a drug
trafficking crime, 18 U.S.C. §§ 924(c)(1)(A) and 2
(Count Four).

B. Procedural History
On September 13, 2012, the government filed a
motion in limine to exclude testimony at trial
concerning Bryant's and Mack's statements at the
time of their arrest. According to the government's
pretrial motion, Bryant and Mack each stated to the
arresting officers that Mack was led to believe he
was escorting money, not cocaine. The motion does
not detail the content of the post-arrest statements,
and the government did not attach any copies of
said statements. Although there is nothing in the
record for us to determine what precisely the
statements were, there does not appear to be any

15a

dispute that statements of this nature were
made.
Mack did not file a pretrial motion for
severance. On the Friday preceding the trial,
which began on Tuesday, October 2, 2012,
Bryant made additional statements to the
prosecutors, asserting that he had led Mack
to believe that the transportation involved
money, not drugs. Those statements were not
recorded or otherwise made a part of the
record. At the outset of trial, the court
granted the government's motion in limine to
bar Mack's and Bryant's statements to the
arresting officers. The court also ruled that
exculpatory statements are inadmissible
hearsay. Mack then orally moved to sever
the trials. The court inquired whether Bryant
was going to testify in the joint trial, but
Bryant's counsel stated he could not confirm
that he would. The district judge denied the
motion as premature, and stated that if
Bryant did not testify in the joint trial, Mack
could move to sever at that time. Defense
counsel did not offer information that Bryant
would testify on Mack's behalf at a separate
trial. Neither did the court inquire whether
this would be the case.
The government's case concluded on
Thursday, October 4, 2012. All three
Defendants made motions for judgments of
acquittal pursuant to Rule 29 on the ground
that there was insufficient evidence to prove
that they knew what was being transported
was cocaine and to prove that any firearms
were possessed or carried in connection with
the drug transportation. No renewed
severance request was made by Mack. The
court questioned the prosecutor closely
concerning the sufficiency of evidence as to
Defendant Mack. She outlined the
government's evidence. At a couple of points
the court interjected, expressing some

skepticism about whether there was enough
evidence to support the government's case against
Mack. At the conclusion of that colloquy, the court
denied Mack's motion for judgment of acquittal but
stated that “it's a close question.” The court
specifically stated, “I assume at the end of the
defense case, it will be raised again.” The court
then inquired of Mack's counsel “Mr. Rouviere,
what are you going to do in front of the jury?”
Mack's counsel stated that “... in light of the court's
deep analysis of the judgment of acquittal, I would
like a couple of minutes to discuss it with my
client.” The court stated: “Oh, I'm not telling you
what I'm going to do.” After hearing from counsel
for the two other Defendants, who stated that they
would not be presenting any evidence, the court
inquired again of Mack's counsel who stated his
client would not be testifying. Then the court
affirmed with Mack individually that he understood
that no witnesses would be called on his behalf and
that he had made a decision not to testify in his own
behalf.
At that point the jury was brought in and counsel
for all Defendants announced *916 that they rested.
After the jury retired from the courtroom, the
following colloquy occurred:
THE COURT: All right. You're renewing your
motions for judgment of acquittal pursuant to Rule
29, right, Mr. Stonick?
MR. STONICK: Correct, Judge, and I'd also restate
and renew all previous objections for appellate
purposes, if necessary.
THE COURT: Mr. Rouviere.
MR. ROUVIERE: Yes, Judge. I'm renewing my
Rule 29 motion and maintaining all prior
objections.
THE COURT: Mr. Walker.

16a

MR. WALKER: And also, same Rule 29 and
maintaining all the prior objections that I
made during the course of the trial.
The court denied Bryant's and McClendon's
motions. It announced it would take Mack's
motion under advisement, and suggested to
Mack's counsel that he file a brief over the
long weekend. We do not construe Mack's
reference to “maintaining all prior
objections” as a renewed request for
severance.
The court recessed until Tuesday, October 9,
2012. After closing arguments on October 9,
2012, the district court orally denied Mack's
Rule 29 motion for judgment of acquittal.
On October 10, 2012, a jury found Bryant
and McLendon guilty of all four counts.
Mack was found guilty of Counts One,
Three, and Four, but not guilty of Count Two
(the attempt charge related to the December
21, 2011 drug transportation). On October
17, 2012, the district court issued a written
order once again denying all Defendants'
renewed motions for judgment of acquittal
on the ground that the evidence was
sufficient to support a jury finding.
On October 17, 2012, Mack filed a renewed
motion for judgment of acquittal, or
alternative motion for new trial. That motion
specifically mentioned the district court's
failure to sever Mack's case for trial as a
reason to grant a new trial. On the same date,
Mack filed a motion for leave to file an
affidavit that he anticipated receiving from
Bryant, in which Bryant was expected to
affirm that he would have provided
exculpatory statements for Mack in a
separate trial. The court denied both motions
in an order entered on October 24, 2012.

On November 12, 2012, Mack filed a second
renewed motion for a new trial or in the alternative,
motion to alter, amend, or correct order denying
motion for a new trial and judgment of acquittal.
That motion was also based on the court's denial of
severance. An affidavit of Bryant dated November
5, 2012 was attached to the motion. It stated that
Bryant had not told Mack that the transaction
involved drugs.
On December 18, 2012, McLendon filed a motion
adopting Mack's motion for new trial. McLendon
subsequently submitted an affidavit of Bryant dated
November 15, 2012 concerning McLendon's lack of
knowledge that cocaine would be involved in the
transaction. Mack's second renewed motion was
denied in an order entered on November 15, 2012,
and McLendon's motion was denied during the
December 19, 2012 sentencing proceedings.
On December 19, 2012, McLendon and Mack were
sentenced to 188 and 120 months' imprisonment,
respectively, on each of the drug counts they were
convicted of, all terms to be served concurrently,
followed by 60–months' imprisonment for Count
Four, to be served consecutively. The court also
imposed a five-year supervised *917 release term
on all of the counts, to be served concurrently.
On the same date, after his request for a downward
variance based on sentencing factor manipulation
was denied, Bryant was sentenced to 204 months'
imprisonment for Counts One, Two, and Three, and
to a consecutive 60–month term on Count Four,
followed by ten years of supervised release on all
counts, to be served concurrently.
II. Issues on Appeal
Defendants challenge the denial of their motions for
a judgment of acquittal. Mack appeals the district
court's denial of his oral motion made on the first
day of trial and of his written post trial motion
pertaining to severance. Both Mack and McLendon

17a

attack the district court's denial of their
respective motions for new trial. All
Defendants challenge the district court's
failure to admit Bryant's post-arrest
statements for impeachment purposes. They
further contend that the cumulative effect of
purported prosecutorial misconduct,
improper government witness testimony, and
erroneous judicial rulings warrant a reversal
in this case. Only Bryant appeals his
sentence.
III. Sufficiency of the Evidence
A. Standard of Review
All Defendants assert that their convictions
were not supported by sufficient evidence.
We review de novo the question whether
sufficient evidence supports a jury verdict.
United States v. Calderon, 127 F.3d 1314,
1324 (11th Cir.1997) (citing Harris, 20 F.3d
at 452). On review of a guilty verdict, “the
evidence is viewed in the light most
favorable to the government, with all
reasonable inferences and credibility choices
made in the government's favor.” Id. The
verdict must be upheld “if there is substantial
evidence to support it, that is ‘unless no trier
of fact could have found guilt beyond a
reasonable doubt.’ ” Id. (quoting United
States v. Battle, 892 F.2d 992, 998 (11th
Cir.1990)).
We first address the district court's denial of
Defendants' Rule 29 motion for acquittal
with respect to the conspiracy and attempt
charges (Counts One through Three). We
then turn to the sufficiency of the evidence
on the 18 U.S.C. § 924(c) charge (Count
Four). We find that the evidence presented to
the jury was sufficient to support Defendants'
convictions on all counts.

B. The Conspiracy and Attempt Charges
The conspiracy charge requires the government to
prove beyond a reasonable doubt that: “(1) a
conspiracy existed; (2) [Defendants] knew the
essential objectives of the conspiracy; and (3)
[Defendants] knowingly and voluntarily
participated in the conspiracy.” Calderon, 127 F.3d
at 1326 (quoting Harris, 20 F.3d at 452 (internal
quotation marks omitted)). To find Defendants
guilty of attempt, the jury had to find beyond a
reasonable doubt (1) that they acted with the
culpability required for the commission of the
crime, and (2) that they took a substantial step
toward to the commission of the crime.United
States v. Ohayon, 483 F.3d 1281, 1285 (11th
Cir.2007). At issue for both the conspiracy and the
attempt charges (hereinafter “the drug charges”) is
the sufficiency of the evidence that Defendants
knew that the transaction involved drugs.
1. Bryant's Knowledge
The record is rife with evidence of Bryant's
knowledge that the contents of the cargo consisted
of drugs. On December 9, 2011, Agent Jackson told
Bryant “it's ten keys ..., I mean that's what gonna be
moving.” Bryant responded, *918 “okay.” Jackson
repeated himself, to be clear that Bryant
understood, “[j]ust so you know. Uh, its ten kilo's.”
Bryant again said, “okay.” Bryant acknowledged
that moving the drugs was “a huge risk” and that
the police he had recruited to do the job “usually
get paid four, five gran' a piece.”
Later in the conversation, Agent Jackson stated,
“it's not a incre-, incredible amount of cocaine, I
mean so it ain't a ton. Know what I mean?” Bryant
replied, “I understand, I understand.” Jackson also
said that “cocaine prices isn't what it used to be....”
Bryant hung up when Jackson, on one occasion,
referred to the “coke” during a telephone
conversation with him, and later chided Jackson for
using that term on the telephone. Bryant suggested
that Agent Jackson could use many other terms to
refer to cocaine. There can be no doubt that Bryant

18a

knew exactly what he had agreed to
transport. Thus, his conviction on the drug
charges must be upheld.
5

2. McLendon's Knowledge
The evidence is ample with respect to
McLendon's knowledge that the offense
involved drugs. Bryant stated to Agent
Jackson that McLendon would serve as his
“point man” to the police officers on the
transaction and that he and McLendon have
been “in this thing” since they were children.
In addition, McLendon's knowledge of the
drugs is supported by independent evidence.
McLendon was present at the nightclub
office on December 21, 2011 when Det.
Tyson marked each of the nine brick-shaped
items, counted them, and placed them in a
duffel bag. Det. Tyson then handed the bag
to McLendon and told him that “there's nine
in there” and that “[they] need[ed] to make
sure all nine of these get there.”
McLendon contends that he was not told
what was contained in the “opaque,
brick-shaped, shrink-wrapped items that
were placed in a duffel bag by the
undercover agents and given to him and
Bryant to transport.” But Det. Tyson
instructed both Bryant and McLendon that
there can be “no deviation, no test, no taste”
and asked “neither one of y'all get high
right?”
McLendon points out that Det. Tyson
himself told McLendon and Bryant that they
were transporting money, not drugs, by
making the statement “cause this money,
*919 see what I'm saying?” However, that
statement was made immediately after Tyson
had counted the nine brick-like objects and
after he had handed the bag to McLendon,

cautioning him that they needed to make sure the
cargo reaches its destination intact. Thus, this
statement is consistent with Tyson's testimony that
he sought to communicate to McLendon and Bryant
that the nine kilograms of cocaine were worth a lot
of money to him. In sum, the evidence in the record
fully sustains McLendon's conviction on the drug
charges.
3. Mack's Knowledge
Mack asserts that there was no evidence from
which a reasonable jury could find, beyond a
reasonable doubt, that he knew the conspiracy
involved drugs, instead of money. He points out
that he was not involved in any of the negotiations
or preparations for the offense. He was not present
when the drugs were loaded into the vehicle driven
by Bryant and McLendon, and he drove away
before they were unloaded. He never saw the sham
cocaine or the bag in which it was carried. He adds
that, on the morning of the second drug
transportation trip, the undercover agents were still
trying to confirm that he knew that he was escorting
drugs.
Even though the evidence of Mack's knowledge of
the drugs is not overwhelming, it is sufficient to
support his conviction on the drug charges. Mack
appeared at the January 14, 2012 meeting in full
uniform; he was wearing his badge but not his name
tag. His weapon was visible and was holstered on
his person. Approximately two hours later, FBI
agents observed his marked police car following
closely the vehicle driven by Bryant and
McLendon. We have held that “repeated presence
at the scene of the drug trafficking ... can give rise
to a permissible inference of participation in the
conspiracy.” Calderon, 127 F.3d at 1326 (citations
omitted). Although “mere presence,” standing
alone, is insufficient to support a conviction for a
drug-related offense, it is “a material and probative
factor” that may be considered by the jury in
reaching the verdict. Id. (internal quotation marks

19a

and citations omitted); United States v.
Baptista–Rodriguez, 17 F.3d 1354, 1374
(11th Cir.1994).
Mack argues that the “permissible inference”
does not apply in his case because he was
never present around the drugs and his
presence at the scene was not recurring.
Contrary to Mack's contentions, a
co-conspirator's presence around the drugs
involved in the offense is not the only way to
trigger the permissible inference. Rather, the
inference of participation in the conspiracy
can arise from a co-conspirator's presence at
meetings related to the conspiracy. See
Baptista–Rodriguez, 17 F.3d at 1374 (the
defendant challenging the sufficiency of his
conviction was present at two “key
meetings” involving the conspiracy). In the
present case, Mack's presence extends not
only to his participation in the January 14,
2012 meeting, but to his subsequent escort of
the drugs later that day.

had “this many t-shirts coming through you know
what I mean, we just want to make sure everything
is right you know what I mean.” Mack stated that
he understood and respected that.
Although Mack did not say much during the
meeting, “[a]n illegal agreement may be inferred
from the conspirators' conduct and other
circumstantial evidence.” Baptista–Rodriguez, 17
F.3d at 1374 (citations omitted) (concluding that the
evidence was sufficient to support the defendant's
conviction, despite the absence of evidence
showing that he verbally assented to the scheme);
cf. United States v. Kelly, 749 F.2d 1541, 1548–49
(11th Cir.1985) (reversing a defendant's conviction
of drug-related conspiracy because the defendant's
proven involvement in the conspiracy was limited
to his presence at another conspirator's house, at
which the defendant could have been present as a
social guest, particularly where “[n]o evidence
exist[ed] that the affairs of the ... schemes were
discussed with [the defendant]”).

6

Moreover, the record reflects additional
proved circumstances that support the
inference of Mack's guilty knowledge. See
United States v. Hernandez, 141 F.3d 1042,
1053 (11th Cir.1998) (“ ‘a conspiracy
conviction will be upheld ... when the
circumstances surrounding a person's
presence at the scene of conspiratorial
activity are so obvious that knowledge of its
character can fairly be attributed to him’ ”)
*920 (quoting Calderon, 127 F.3d at 1326).
We find the conversation between Mack and
Agent Jackson to be significant in that
regard. The undercover agents told Mack
that, as a result of the police officer layoffs,
they would be able to do more business in
Miami and would “get rich” because Miami
would be “wide open.” Agent Jackson then
confided in Mack that Miami was “new
territory” for him and Tyson, and that they

Mack contends that there is no direct evidence of
his knowledge that “t-shirts” is one of the many
code words for drugs. However, Agent Jackson,
who is an agent on the drug squad, testified that
“t-shirts” was a very common word for cocaine
“not just [in] Atlanta, ... but everywhere”; it was
also a term he had used with Bryant in reference to
the drugs involved in this case. In light of Mack's
16–year experience on the Miami–Dade police
force, the jury could reasonably have inferred that
Mack knew exactly what Jackson was referring to
and that he knew that the indubitably criminal
activity in which he was about to participate
involved drugs.
Finally, Bryant made numerous statements to the
undercover agents assuring them that Mack knew
everything. These statements likely bolstered the
government's case against Mack on the drug
charges. However, they are not necessary to sustain
a guilty verdict. Even absent these statements, the
7

20a

cumulative effect of the circumstantial
evidence discussed above is sufficient to
show Mack's knowledge of the drugs.

‘during and in relation to ... uses or carries' prong,
or under the ‘in furtherance of ... possesses'
prong.)” Id.

*921 Accordingly, taken in the light most
favorable to the verdict, we cannot say that
the record reveals a lack of substantial
evidence from which a factfinder could find
guilt beyond a reasonable doubt. Calderon,
127 F.3d at 1324. Thus, we affirm Bryant's,
McLendon's, and Mack's convictions on the
drug charges.

All Defendants were charged with carrying a
firearm during and in relation to a drug trafficking
crime and with possessing a firearm in furtherance
of a drug trafficking crime, in violation of 18
U.S.C. §§ 924(c) and 2. The district judge
instructed the jury on aiding and abetting under 18
U.S.C. § 2 for the section 924(c) charge. The jury
found Mack guilty of carrying a firearm during and
in relation to the drug trafficking crime, in violation
of 18 U.S.C. § 924(c). Bryant and McLendon were
found guilty of possessing a firearm in furtherance
of the drug trafficking crime, in violation of 18
U.S.C. §§ 924(c) and 2.

8

9

C. The “Firearms Charge”
18 U.S.C. § 924(c)(1)(A) provides in part:
any person who, during and in relation to
any crime of violence or drug trafficking
crime ... for which the person may be
prosecuted in a court of the United States,
uses or carries a firearm, or who, in
furtherance of any such crime, possesses a
firearm, shall, in addition to the punishment
provided for such crime of violence or drug
trafficking crime ... be sentenced to a term of
imprisonment of [a minimum of 5 years].
18 U.S.C. § 924(c)(1)(A)(i) (emphasis
added). Accordingly, to prove the firearms
charge, the government must show that the
defendant (1) knowingly used or carried a
firearm during and in relation to any drug
trafficking crime for which he could be
prosecuted in a court of the United States, or
(2) possessed a firearm in furtherance of
such a crime. United States v. Woodard, 531
F.3d 1352, 1362 (11th Cir.2008); United
States v. Haile, 685 F.3d 1211, 1217 (11th
Cir.2012), cert. denied, ––– U.S. ––––, 133
S.Ct. 1723, 185 L.Ed.2d 785 (2013) and cert.
denied, ––– U.S. ––––, 133 S.Ct. 1724, 185
L.Ed.2d 785 (2013) (stating that “the
enhanced penalties [under the statute] are
triggered in one of two ways: under the

1. Sufficiency of the Evidence as to Mack
Mack argues that there is no evidence that he
carried a firearm during and in relation to the drug
trafficking crime. In order to show that a person
carried a firearm “in relation to” a crime, the
firearm must have “facilitate[d], or [had] the
potential of facilitating, the drug trafficking
offense”; “its presence or involvement cannot be
the result of accident or coincidence.” United States
v. Novaton, 271 F.3d 968, 1013 (11th Cir.2001) and
United States v. Timmons, 283 F.3d 1246, 1251
(11th Cir.2002) (both citing Smith v. United States,
508 U.S. 223, 237–38, 113 S.Ct. 2050, 2058–59,
124 L.Ed.2d 138 (1993)). “The phrase ‘in relation
to’ is expansive.” Novaton, 271 F.3d at 1013; see
also Timmons, 283 F.3d at 1251–52 (noting that the
“during and in relation to” requirement “was
intended to be a limiting phrase to ‘prevent the
misuse of the statute [from] *922 penaliz[ing] those
whose conduct does not create the risks of harm
[—i.e., combining drugs and guns—] at which the
statute aims' ”) (quoting Muscarello v. United
States, 524 U.S. 125, 132, 118 S.Ct. 1911, 1916,
141 L.Ed.2d 111 (1998)).

21a

We conclude there was sufficient evidence to
support Mack's conviction on the firearm
charge. It is undisputed that Mack was
carrying his firearm approximately two
hours before the actual drug transportation.
He knew of the illegal nature of the
conspiracy, and he understood that his police
officer status was a necessary condition to
his participation in the deal. In light of this
evidence, it was reasonable for the jury to
conclude that Mack carried a firearm in
relation to the drug trafficking conspiracy.
Mack argues that the firearm had no role in
the offense, and that, even if he carried a
firearm, it was solely an incident of his
wearing his police uniform. Our holding in
Novaton defeats this argument. In that case,
we found that a police officer, who admitted
to carrying his service firearm during the
events at issue, “furthered the drug
trafficking conspiracy by providing
protection for and escorting co-conspirators
to and from the Novaton residence while [the
co-conspirators] were transporting drugs or
drug proceeds.” Novaton, 271 F.3d at 1013.
Similarly, Mack's carrying his service
firearm was necessary to facilitate the drug
transportation in the present case, regardless
of whether its purpose was to avoid
interdiction from law enforcement or also to
provide security for the cargo from potential
thieves. Even if Mack carried the firearm
merely as a necessary accessory to his police
uniform, he did so with the recognition that
his carrying his “police-issued service
firearm,” id., combined with his full uniform
and his marked police cruiser, would signal
to other law enforcement officers that he was
one of them—just another police officer on
legitimate business. At the very least, the
presence of the firearm had the potential for
facilitating the conspiracy. See id. (finding
that the defendant's police-issued service

firearm “facilitated, or had the potential for
facilitating” the conspiracy). Accordingly, the jury
verdict finding Mack guilty of carrying a firearm
during and in relation to the drug trafficking crime,
in violation of 18 U.S.C. § 924(c), must be upheld.
10

11

*923 2. Sufficiency of the Evidence as to Bryant
and McLendon
Bryant contends that there is no evidence that either
he or his co-defendants possessed or carried a
firearm. We have already concluded that a
reasonable jury could find that Mack carried a
firearm on January 14, 2012. Accordingly, Bryant's
culpability on the firearm charge turns on proof of
his aiding and abetting in Mack's firearm offense
under 18 U.S.C. § 2.
12

18 U.S.C. § 2(a) provides that “[w]hoever ... aids,
abets, counsels, commands, induces or procures [a
crime's] commission, is punishable as a principal.”
18 U.S.C. § 2(a). To prove aiding and abetting in a
section 924(c) case in this circuit, the government
must show that (1) the substantive offense was
committed; (2) that the defendant associated
himself with the underlying criminal venture; and
(3) that he committed some act that furthered the
crime. See Bazemore v. United States, 138 F.3d
947, 949 (11th Cir.1998) (citing United States v.
Hamblin, 911 F.2d 551, 557 (11th Cir.1990)). In
addition, the defendant must have known that a
firearm was being used or carried by a
co-conspirator. Id.; see also Rutledge v. United
States, 138 F.3d 1358, 1359 (11th Cir.1998).
13

The United States Supreme Court recently clarified
the showing of intent required for conviction of an
aiding and abetting violation under section 924(c).
Rosemond v. United States, ––– U.S. ––––, 134
S.Ct. 1240, 188 L.Ed.2d 248 (Mar. 5, 2014).
Rosemond involved a “drug deal gone bad,” after
either the defendant (Rosemond) or one of his
confederates (it was unclear who) fired a gun at the
putative drug buyers. Id. at 1243. Rosemond was

22a

charged with violating 18 U.S.C. § 924(c) by
using or carrying a firearm in connection
with a drug trafficking offense, or, in the
alternative, aiding and abetting that crime
under 18 U.S.C. § 2. Id. At trial, the district
judge rejected Rosemond's proposed
instructions that a guilty verdict required the
jury to find that the defendant “intentionally
[facilitated or encouraged the firearm's use],
as opposed to [merely] the predicate drug
offense.” Id. at 1244. Instead, the jury was
instructed that Rosemond was guilty of
aiding and abetting a section 924(c) offense
if “(1) [he] knew his cohort used a firearm in
the drug trafficking crime, and (2) [he]
knowingly and actively participated in the
drug trafficking crime.” Id. (internal
quotation marks and citation omitted). He
was convicted by the jury, and the United
States *924 Court of Appeals for the Tenth
Circuit affirmed. Id. at 1244–45.
The United States Supreme Court reversed
Rosemond's § 924(c) conviction. Id. at 1252.
Writing for the majority, Justice Kagan first
concluded that the district court correctly
instructed the jury that Rosemond could be
convicted of aiding and abetting, even if he
facilitated only the drug element, not the gun
element, of the section 924(c) offense. Id. at
1247–48. Justice Kagan then clarified the
proof necessary for the intent element of
aiding and abetting a section 924(c)
violation—i.e., the defendant's knowledge
that a co-conspirator will carry a gun. Id. at
1249. “[The d]efendant's knowledge of a
firearm must be advance knowledge”—that
is, knowledge at a time when the accomplice
“can attempt to alter [the] plan, ... withdraw
from the enterprise[, or] go ahead with his
role in the venture.” Id. An accomplice's
knowledge of “a confederate's design to
carry a gun” is not “advance” if it does not
afford him “a realistic opportunity to quit the

crime.” Id. Accordingly, Justice Kagan concluded
that the district court's jury instructions were
erroneous because they did not direct the jury to
determine when Rosemond obtained the requisite
knowledge and to decide whether Rosemond knew
about the gun in sufficient time to withdraw from
the crime. Id. at 1251–52.
We are now called upon to determine the effect of
Rosemond on the analytical framework employed in
cases alleging aiding and abetting a section 924(c)
offense. The literal meaning of the requirement that
the defendant's knowledge of the firearm be
“advance” is obvious. In addition, Rosemond 's
holding that “the affirmative” act or “facilitation”
requirement for aiding and abetting a section 924(c)
violation is met by the defendant's participation in
the drug deal itself and that no act directed to the
use of the firearm is required makes clear that the
government is not required to show that the
defendant “committed some act related to the gun”
(as opposed to the substantive offense). See
Rosemond, 134 S.Ct. at 1247–48.
Applying the familiar framework, as modified by
Rosemond, to the present case, we have no trouble
concluding that the evidence against Bryant and
McLendon was sufficient to sustain a guilty verdict
for their aiding and abetting in Mack's section
924(c) offense. First, the substantive offense was
committed by Mack carrying a firearm during and
in relation to the drug trafficking crime. Next, it is
evident that Bryant knowingly associated himself
with the drug trafficking conspiracy. And, we have
already concluded that the evidence showing
McLendon's knowledge of the drug transport was
sufficient to sustain his guilty verdict. Third, there
is ample evidence of various “affirmative acts,” by
both Bryant and McLendon which furthered the
drug conspiracy. Id. at 1247–48. Bryant organized
the transportation of large quantities of narcotics
and enlisted police officers to assist him.
McLendon was the “point man” to the police
officers, and he actively participated in the scheme
14

23a

by collecting and dropping off the drugs on
two occasions.
Finally, Bryant knew well in advance that a
firearm would be carried; in fact, he
recruited Mack to participate in the offense
based on Agent Jackson's explicit request for
uniformed policemen. Mack *925 arrived at
the January 14, 2012 meeting in full
uniform; his service weapon was holstered at
his waist. The breakfast ended approximately
two hours before Bryant, accompanied by
McLendon, picked up the drugs. It is
obvious that Bryant had advance knowledge
“that enable[d] him to make the relevant
legal (and indeed, moral) choice.”
Rosemond, 134 S.Ct. at 1249.
Unlike Bryant, McLendon was not present at
the January 14, 2012 meeting, and could not
have observed Mack's openly displayed
firearm. Nevertheless, according to the
testimony of agents conducting the
surveillance, Mack's marked patrol car
trailed the vehicle in which Bryant and
McLendon were riding, and was either
directly behind or a few cars behind it from
the moment that vehicle left Miami Beach
and drove north to the drop-off location.
Furthermore, there was telephone
communication between the patrol car and
Bryant and McLendon's vehicle throughout
the duration of the escort. Accordingly, a
reasonable jury could have concluded that
McLendon, to whom Bryant referred as his
“point man” to the police officers and who
was in a vehicle that was loaded with the
drugs, believed that the police cruiser
following closely over the course of eight or
ten miles was driven by an armed police
officer.
The question, under the Rosemond test, is
whether McLendon's knowledge that Mack

was carrying a firearm, was “advance,” such that it
gave McLendon sufficient time to walk away from
the crime. This inquiry implicates the practical
difficulties of delineating the exact contours of
Rosemond 's “advance knowledge” directive.
As to McLendon, we answer the question in the
affirmative. After the conclusion of the morning
meeting (which McLendon did not attend), Bryant
and McLendon jointly collected the drugs that were
to be moved. Moreover, McLendon knew that they
were transporting drugs that afternoon, that the
drugs would be escorted by a police officer (as was
the case during the first transportation on December
21, 2011), and that the participation of a uniformed
(and likely armed) officer was essential to the
success of the drug conspiracy. McLendon had a
realistic opportunity to either not enter the vehicle
at all, or to exit it before it embarked upon its route.
He made a conscious choice to proceed. His
knowledge of the gun was sufficiently advance.
Compare these circumstances with the illustration
in Rosemond involving a defendant in a section
924(c) prosecution who “agrees to participate in a
drug sale on the express condition that no one
brings a gun to the place of exchange” and whose
knowledge is not sufficiently “advance” for
purposes of conviction if one of his confederates
arrives at the meeting carrying a concealed gun in
his jacket. Rosemond, 134 S.Ct. at 1251. As a
result, Bryant's and McLendon's guilty verdicts for
aiding and abetting in Mack's firearm offense under
section 924(c) are affirmed.
IV. Mack's Motion to Sever
A. Standard of Review
Mack argues that because Bryant's testimony would
have contradicted the government's case and
exonerated Mack, the district court's refusal to
sever the trials was an abuse of discretion which
deprived Mack of a fair trial. We review the denial
of a motion for severance for abuse of discretion.

24a

United States v. Kennard, 472 F.3d 851,
858–59 (11th Cir.2006). “Appellate courts
are reluctant to second-guess trial court
refusals to grant a severance.” United States
v. Pepe, 747 F.2d 632, 650–51 (11th
Cir.1984) (citations omitted).

THE COURT: Do you understand what I said?
MR. ROUVIERE: I do understand, Your Honor,
but that raises—
THE COURT: Then just abide by it.

*926 B. Discussion
Bryant's “exculpatory statements” concern
Mack's alleged lack of knowledge of the
contents of the cargo escorted by Mack.
They consist of (1) Bryant's statements to the
arresting officers, and (2) the additional
statements he made to the prosecutors before
trial, in which he asserted that Mack was told
he was following cash, not drugs.
15

At the outset of trial, the court ruled that
post-arrest statements “that include
inculpatory statements about other
defendants” could not be used in opening
statements or otherwise mentioned by
counsel. The district judge cautioned counsel
that failure to abide by the Bruton rule
would have dire consequences for counsel,
including contempt sanctions and jail time.
The judge emphasized, on several occasions,
the importance of counsel's compliance with
his ruling. Mack points to the following
colloquy between the district court and
counsel for Mack:
16

THE COURT: ... So there will be no mention
by a defense lawyer of any statement that
inculpates another defendant. You, of course,
can talk about your own client and what he
did.
Any question about that? Unless you want
free room and board, that's the way it's going
to be.
MR. ROUVIERE: Your Honor, may I
address the Court?

MR. ROUVIERE: But Judge, it raises another issue
that needs to be raised.
THE COURT: I don't want to deal with another
issue. I want to deal with these issues first.
MR. ROUVIERE: Well, it is with this issue, Judge.
THE COURT: What didn't you understand about
how I ruled?
MR. ROUVIERE: Exculpatory statements made—
THE COURT: I haven't gotten to that yet.
MR. ROUVIERE: Okay. Well, Judge, it may lead
to a motion to sever, because some things happened
over the weekend.
THE COURT:.... Exculpatory statements cannot
come in because they're hearsay. A defendant's own
exculpatory statements made after arrest cannot
come in, because it's rank hearsay.
[...]
But you cannot bring in a defendant's inculpatory
statement that includes guilt of another defendant,
and you cannot bring in a defendant's exculpatory
statement.
Any problems with that? Any misunderstanding?
Because I'm serious about this. Not only would
there be a mistrial, the reason there will be a
mistrial is because the lawyer is going to have a lot
of time of consultation with a client if the client is

25a

in jail. If the client is not in jail, we're going
to have the reverse. The client is going to
have to seek permission to see the lawyer in
jail. *927 So don't violate this when I've
been giving you a warning. Please don't do
it.
[...]
THE COURT: What are you going to say
that you think is questionable that may
impinge upon your liberty?
MR. STONICK: Nothing, Judge.
THE COURT: Okay. No, if there is, ask me
now because I mean it.

MR. ROUVIERE: Well, Your Honor—
THE COURT: That's the first thing you need to
explain.
MR. ROUVIERE: Well, Your Honor, I sent an
email. I knew that a statement was made post arrest.
However—
THE COURT: What statement? It can't come in.
Even in a separate trial, it can't come in.
MR. ROUVIERE: Well, Judge, only if I can call
the other defendant as a witness in a separate trial.
Because at this time, he has a Fifth Amendment
right to remain silent.

MR. ROUVIERE: Judge, I do have a
question.

THE COURT: And he also has a Fifth Amendment
right afterwards. MR. ROUVIERE: Not if his case
is over, Judge.

THE COURT: Okay.

[...]

MR. ROUVIERE: A statement from one
c o d e f e n d a n t e x c u l pating anothe r
codefendant—

THE COURT: What if he's found guilty?

THE COURT: Can't come in, cannot come
in. It's hearsay.

THE COURT: He can also say, I ain't testifying,
I'm going to take an appeal, or I'm not going to
testify.

MR. ROUVIERE: Your Honor, then at this
point in time I would—
[...]
MR. ROUVIERE: Your Honor, at this time
on behalf of Daniel Mack, I would make a
motion to sever Daniel Mack from this trial,
and I need to explain to the Court on the
record why.

MR. ROUVIERE: He can still testify, Judge.

[...] (discussing the duration of a defendant's appeal
and the filing of a petition for writ of certiorari to
the United States Supreme Court)
MR. ROUVIERE: Judge, however, apparently on
Friday evening, there was a meeting between the
Government, the agents, Mr. Bryant wherein in that
statement, he made a statement—
THE COURT: In what statement?

THE COURT: Well, why didn't you do it
before?

[...]

26a

MR. ROUVIERE: Mr. Bryant made a
statement to the Government and the agents
that, in fact, my client was told that what was
in the car at the time was cash.

The defendant has indicated that he's going to
testify. And then if he doesn't bring it up, you can
cross-examine him and even lead him if you
want....

THE COURT: Who told him?

[...]

MR. ROUVIERE: Mr. Bryant.

THE COURT: Do you have a severance motion?

THE COURT: So Mr. Bryant says that he
told Mr. Mack, ...

MR. ROUVIERE: An oral one, Judge. My system
has been down.

THE COURT: He's following cash. Okay.

THE COURT: It doesn't have to be in writing
unless you knew before.

MR. ROUVIERE: Yes, sir. And that was
made in a post arrest statement. However,
now it's been made in a secondary meeting
with the Government and I believe Judge
under Rule—
THE COURT: Well, is Mr. Bryant going to
testify in this trial?
MR. ROUVIERE: I don't know if Mr.
Bryant is going to testify.
THE COURT: Have you asked his lawyer?
*928 MR. ROUVIERE: They weren't able to
tell me yes or no at this point.

What would be the possible grounds? Defendant
says he's going to testify. You question him. If he
doesn't testify, then you can make it at that point,
but as of now, it's denied as premature.
As noted above, Mack's alternative motion for new
trial based on the denial of severance and his
motion for leave to file an affidavit that he expected
to receive from Bryant were filed on October 17,
2012, a week after the conclusion of the trial. Mack
submitted Bryant's November 5, 2012 affidavit to
the district court on November 12, 2012, in
conjunction with Mack's second renewed motion
for a new trial or in the alternative, motion to alter,
amend, or correct order denying motion for a new
trial and judgment of acquittal.
17

THE COURT: Well, how about if I ask him?
Okay. Mr. Stonick, is your client going to
testify?
MR. STONICK: Judge, at this point we
reserve our right to testify or not. I cannot
indicate if my client will testify.
THE COURT: There you go. So then you
can ask him all you want about that. Just
don't mention it until he testifies. Resolved.
Motion for severance denied.

In this circuit, the rule about joint trials is that
“defendants who are indicted together are usually
tried together.” United States v. Browne, 505 F.3d
1229, 1268 (11th Cir.2007) (citing, inter alia, Zafiro
v. United States, 506 U.S. 534, 537–38, 113 S.Ct.
933, 937, 122 L.Ed.2d 317 (1993)). “That rule is
even more pronounced in conspiracy cases where
the refrain is that ‘defendants charged with a
common conspiracy should be tried together.’ ”
United States v. Lopez, 649 F.3d 1222, 1234 (11th
Cir.2011) (citations omitted).

27a

A severance should be granted if “there is a
serious risk that a joint trial would
compromise a specific trial right of one of
the defendants.” Zafiro, 506 U.S. at 539, 113
S.Ct. at 938. “[A] defendant might suffer
prejudice if essential exculpatory evidence
that would be available to a defendant tried
alone were unavailable in a joint trial.” Id.
(citing Tifford v. Wainwright, 588 F.2d 954
(5th Cir.1979)); see also *929 United States
v. Cobb, 185 F.3d 1193, 1197 (11th
Cir.1999) (“To justify severance, the
defendant must ‘demonstrate that a joint trial
will result in specific and compelling
prejudice to the conduct of his defense.’ ”)
(citation omitted). A defendant's burden of
demonstrating “compelling prejudice”
stemming from the denial of a motion to
sever is a heavy one. Pepe, 747 F.2d at 651.
As part of that “heavy burden,” a movant
seeking severance in reliance on the
exculpatory testimony of a co-defendant
must show: (1) a bona fide need for the
testimony; (2) the substance of the desired
testimony; (3) the exculpatory nature and the
effect of the desired testimony; and (4) that
the co-defendant would indeed have testified
at a separate trial. Novaton, 271 F.3d at 989
(quotation marks and citation omitted). After
the defendant makes that showing, the
district court must still weigh the
significance of the testimony against
considerations of judicial economy. Id.
Whether severance is proper in light of
concerns of judicial administration requires
the court to assess (1) the significance of the
testimony in relation to the defenses, (2) the
extent of the prejudice caused by the absence
of the testimony, (3) the effect of severance
on judicial economy and the administration
of justice, and (4) the timeliness of the
motion. United States v. DiBernardo, 880
F.2d 1216, 1228 (11th Cir.1989) (quotation

marks and citation omitted).
We consider Mack's challenge to the district court's
denial of his oral motion made at the opening of the
trial in light of the district judge's knowledge of the
facts at the time he ruled on the motion. Byrd v.
Wainwright, 428 F.2d 1017, 1018 (5th Cir.1970).
With that in mind, we turn to the four elements set
forth in this circuit's framework for analyzing a
motion to sever, and conclude that the first three
requirements are met here.
18

First, it cannot seriously be doubted that Mack had
a bona fide need for Bryant's testimony and that
Bryant's proposed testimony would have had an
exculpatory effect. Indeed, Mack needed that
testimony to contradict the numerous statements
confirming Mack's knowledge of the details of the
offense which Bryant made to the undercover
officers and which were presented to the jury.
As to the substance of Bryant's testimony, we note
that, at the time of the motion, a movant is required
to make a concrete showing of what the
co-defendant would say if he took the stand in a
separate trial. See Pepe, 747 F.2d at 652 (affirming
the district court's denial of the defendants'
severance motions because, inter alia, the
defendants did not “proffer what [the
co-conspirator's] testimony would be [if they were
tried separately].”) We will assume, for purposes of
assessing the specificity of Bryant's proffered
testimony only, that Bryant's proposed testimony
was reflected in his post-trial affidavit. The
government characterizes the statements contained
in that affidavit as “conclusory and selfserving” and
as “lacking strong credibility.” As we explained in
Novaton, the conclusory nature of an affidavit
consists of “bare exculpatory denials [of the
charges in the indictment], devoid of any specific
exonerative facts.” Novaton, 271 F.3d at 990
(internal quotation marks and citation omitted)
(rejecting as “conclusory” the co-conspirator's
affidavit that stated only that the police officer who

28a

provided protection for the drugs in that case
“did not conspire with me, or to *930 my
knowledge with anyone else, to possess with
intent to distribute cocaine”). Id. By contrast,
Bryant's affidavit specifically states that
“during the events that have lead to this case,
I never discussed with Daniel Mack anything
about dealing in narcotics or escorting
narcotics,” that “Daniel Mack, at all times,
was lead [sic] to believe, by me, that the item
in the car he was escorting was money and
money only,” and that Bryant would have
testified to that effect in a separate trial.
Therefore, the substance of Bryant's
proposed testimony is not unduly
conclusory.
There are, however, legitimate concerns with
respect to the credibility of Bryant's
affidavit. That is not because, as the
government suggests, the affidavit is utterly
devoid of statements contrary to Bryant's
penal interest. See Pepe, 747 F.2d at 651
(rejecting an affidavit by a co-defendant that,
in addition to being conclusory, was “of
dubious credibility because it was in no way
contrary to [the co-defendant's] own [penal]
interests”); see also Novaton, 271 F.3d at
990–91 (same). Rather, two other facts
substantially undermine the credibility of the
statements contained in Bryant's affidavit:
(1) he did not submit the affidavit until the
trial was over; and (2) he submitted a similar
affidavit in favor of McLendon, even though
Bryant's statements to the arresting officers
and to the prosecutors concerned only
Mack's knowledge.
19

Notwithstanding our observations, we need
not decide whether the “dubious credibility”
of Bryant's affidavit is outcome
determinative with respect to Mack's motion
to sever. This is so because Mack has not
shown that he established a likelihood

Bryant would have testified in a separate trial.
A movant “must establish ... that the designated
co-defendant will in fact testify at a separate trial.”
United States v. Morrow, 537 F.2d 120, 135 (5th
Cir.1976). “Movant ... need only demonstrate a
‘likelihood’ of future testimony by his
co-defendant....” Id. n. 9 (citations omitted); see
also Cobb, 185 F.3d at 1199 (“Our concern with
whether a co-defendant will testify for the
defendant in a separate trial is limited to
determining whether the co-defendant is likely to
testify, not whether he is certain to do so.”)
(emphasis in original) (citations omitted). “The
court is not required to sever where the possibility
of the codefendant's testifying is merely colorable”;
the possibility of such testimony must be “more
than a gleam of possibility in the defendant's eye.”
Byrd, 428 F.2d at 1022.
It is clear from the transcript of the October 2, 2012
jury trial proceedings that Mack's counsel did not
advise the district court judge that Bryant would
testify for Mack in a separate trial. Instead, counsel
engaged in a theoretical debate with the district
court over whether a defendant, whose trial was
over, could testify for a co- *931 defendant in a
separate trial. Counsel then brought Bryant's
statement to the prosecutors to the court's attention.
At no time did counsel state or even imply that
Bryant would, or might, testify for Mack at a
separate trial. Cf. Cobb, 185 F.3d at 1199–1200
(reversing the district court's denial of the
defendant's motion for severance because the
co-conspirator's counsel stated that he was willing
to testify on the defendant's behalf in a separate
trial, even though his own conviction was awaiting
appeal). While the statements (or lack thereof) of
Mack's counsel at the outset of the jury trial
reflected a “merely colorable” possibility that
Bryant may testify in a separate trial, they fall short
of establishing a likelihood of such testimony.
20

Apparently relying on Cobb, 185 F.3d 1193, Mack

29a

faults the district court for not inquiring sua
sponte whether Bryant would testify for
Mack in a separate trial. In Cobb, we
considered the district court's inquiry
whether the coconspirator would be willing
to testify on the defendant's behalf only to
examine the district court's interpretation of
the co-conspirator's offer to testify “as
conditioned on [the co-conspirator's] case
being tried first.” Id. at 1198. Nothing in
Cobb supports Mack's sweeping presumption
that any part of the burden in a motion to
sever, that is specifically allotted to the
movant, see Novaton, 271 F.3d at 989,
should be shifted to the district judge.
Similarly, Mack's reliance on certain
language contained in Byrd is misguided.
See Byrd, 428 F.2d at 1019 n. 1 (remarking
that there may be error if, “in a sufficiently
extreme case of prejudice, [the trial judge
fails] on his own motion to reopen the
question of severance, where, after denial,
the circumstances have sufficiently
changed”). In the present case, the
circumstances concerning the likelihood of
Bryant's testimony in a new trial did not
change conclusively until November 12,
2012—the date on which Mack filed his
second renewed motion for a new trial, along
with Bryant's affidavit. This was a full month
after the conclusion of the joint trial. Cf. id.
at 1019 (discussing events that occurred at
the trial).
The district court did ask whether Bryant
was going to testify in the joint trial. The
judge noted that if Bryant did testify, his
statements could be addressed during
cross-examination, and that if he did not take
the stand, Mack could make his motion to
sever at that time. Mack did not renew his
motion to sever during the trial. His
alternative motion for new trial based on the
denial of severance was filed a week after

the jury returned a guilty verdict. Cf. Cobb, 185
F.3d at 1197 (where the district court denied the
defendant's motion on the morning of the trial and
the defendant renewed it at the close of the
government's case). Importantly, Mack did not even
file his motion for leave to file an affidavit until a
week after the conclusion of the trial. And, he did
not produce Bryant's affidavit until a month after he
*932 had filed the motion for leave. Cf. Pepe, 747
F.2d at 650 (where the district court noted that there
was “some likelihood” that the co-defendants
would testify for the defendant based on the
co-defendants' affidavits from their grand jury
testimony); and Byrd, 428 F.2d at 1022 (noting that
“[t]he unsupported possibility that (exculpatory
testimony of a co-defendant) might be forthcoming
does not make the denial of a motion for severance
erroneous”) (internal quotation marks and citation
omitted); see also United States v. Neal, 27 F.3d
1035, 1047 (5th Cir.1994) (holding that the
defendants demonstrated that a co-defendant would
have testified on their behalf in a separate trial
when that co-defendant submitted an affidavit in
favor of the defendants and “extensively testified in
camera” that one of the defendants did not
participate in the controlled substance conspiracy).
Because Mack has not made the requisite showing
that severance in the present case was proper, we
need not address the judicial economy
considerations. We feel compelled to point out,
however, that, were we to examine those factors,
we would have grave doubts whether Mack's
motion to sever was timely. Even though Bryant's
statements to the prosecutors were made on the
Friday before the trial, his motion was based, in
part, on his statements to the arresting officers, of
which counsel for Mack knew well in advance of
trial. Counsel conceded that “[he] knew a statement
[that Mack was told by Bryant that he was
following cash] was made post arrest.” The district
judge inquired whether counsel for Mack had filed
a severance motion and invited him to explain why
he had not done so. After the judge stated that “[the

30a

motion] doesn't have to be in writing unless
you knew before,” he considered, and
ultimately denied, counsel's oral motion.
Mack correctly points out that the district
court did not deny his motion on timeliness
grounds, although he easily could have done
so, in light of counsel's advance knowledge
of the statements to the arresting officers.
See Cobb, 185 F.3d at 1200 (noting that the
district court would likely have been
justified in finding that the severance motion
was untimely because the defendant
amended his initial motion, which was filed
well before trial, with his intention to seek
the coconspirator's exculpatory statement on
the morning of trial). Although we held in
Cobb that a district court's failure to deny a
motion for severance on untimeliness
grounds requires us to review the district
court's decision on the merits, id., the
circumstances in the present case are
distinguishable. The district court apparently
assumed that counsel had just learned of the
grounds underlying the motion (i.e., Bryant's
statements to the prosecutors). Thus, he did
not question counsel's failure to file a motion
to sever based on Bryant's statements to the
arresting officers, and counsel did not bring
this omission to the court's attention.
Our comments on the timeliness of Mack's
motion only buttress our conclusion that this
is not “one of those rare cases,” in which the
defendant raises “a compelling argument that
he suffered ‘prejudice resulting in the denial
of a fair trial flow[ing] from the failure to
grant the motion’ for severance.” Cobb, 185
F.3d at 1197–98 (concluding that the
defendant presented such an argument where
the sole evidence against him consisted of
another defendant's testimony). Accordingly,
we hold that district court did not abuse its
discretion by denying Mack's motion to

sever.
V. Mack's and McLendon's Motions for New
Trial
As noted, one week after the trial, Mack renewed
his motion for judgment of acquittal, *933 or
alternative motion for new trial based on the denial
of severance. After that motion was denied, Mack
filed a second renewed motion for a new trial, or in
the alternative, motion to alter, amend, or correct
order denying motion for a new trial and judgment
of acquittal. McLendon also filed a motion,
adopting Mack's motion to overturn the jury verdict
and to grant a new trial. In support of their
respective motions, both Mack and McLendon
presented the aforementioned affidavits from
Bryant. Mack and McLendon challenge the district
court's denial of their respective motions for new
trial.
21

A. Standard of Review
This court reviews the denial of a motion for new
trial for abuse of discretion. United States v.
Campa, 459 F.3d 1121, 1151 (11th Cir.2006).
B. Discussion
To succeed on a motion for a new trial based on
newly discovered evidence, the movant must
establish that (1) the evidence was discovered after
trial, (2) the failure of the defendant to discover the
evidence was not due to a lack of due diligence, (3)
the evidence is not merely cumulative or
impeaching, (4) the evidence is material to issues
before the court, and (5) the evidence is such that a
new trial would probably produce a different result.
United States v. Gates, 10 F.3d 765, 767 (11th
Cir.1993), modified on reh'g in part, 20 F.3d 1550
(11th Cir.1994) (citation omitted). “The failure to
satisfy any one of these elements is fatal to a
motion for a new trial.” United States v. Lee, 68
F.3d 1267, 1274 (11th Cir.1995) (citation omitted).
The subject evidence in the instant case was not

31a

discovered after trial. The defense knew of
the substance of Bryant's exculpatory
statements as early as the government's
pretrial motion in limine and Mack's oral
motion to sever made on October 2, 2012,
the first day of the trial. See DiBernardo, 880
F.2d at 1225 (reiterating that newly-available
exculpatory testimony of a co-defendant is
not synonymous with newly discovered
evidence sufficient to grant a Rule 33 motion
where the defendants benefitting from the
exculpatory testimony were well aware of
the proposed testimony prior to trial); cf.
Gates, 10 F.3d at 767–68 (concluding that
the “newly discovered” evidence
requirement was met when the defendant did
not discover until six months after the trial
that his co-conspirator would exculpate him,
and where there was no evidence in the
record that the defendant “knew or had
access to knowledge that [the co-conspirator]
would exculpate him”).
The defense argues that DiBernardo is
distinguishable because it involved a pretrial
affidavit. 880 F.2d at 1219. But both Mack
and McLendon knew of the substance of
Bryant's exculpatory testimony prior to the
inception of the trial. Mack's counsel argued
at the sentencing proceedings on December
19, 2012 that he made the oral motion to
sever on the first day of trial because “we
had believed that Mr. Bryant would testify as
he did when he was arrested and as he also
did in the meeting with the Government the
Friday night before the trial....” Similarly,
during the same proceedings, McLendon's
counsel stated that he joined in Mack's oral
motion to sever “when we were doing our
pretrial arguments for the reason that clearly
Mr. Bryant could have been a witness *934
[ ... and] because I was under the impression
that he might be able to get an exculpatory
[affidavit].” Furthermore, in his motion for

leave filed only a week after the joint trial was over,
Mack stated that he anticipated obtaining an
affidavit from Bryant regarding Mack's lack of
knowledge of the drugs. This timing further
buttresses Mack's and McLendon's knowledge of
the proposed testimony before the trial was over.
Thus, the exculpatory statements in Bryant's
affidavits do not qualify as “newly discovered”
evidence for purposes of Rule 33.
In addition to Mack's and McLendon's failure to
show that the evidence was discovered after the
trial, we are not persuaded that Bryant's proposed
testimony would probably produce a different
outcome in McLendon's case. Gates, 10 F.3d at
767. A jury might not be receptive to Bryant's
proffered testimony, which is inconsistent with the
multiple statements he gave to the undercover
agents. As already noted, the credibility of Bryant's
proposed testimony is further called into question
by his failure to refer to both Mack and McLendon
in, at least some of, his post-arrest statements. See
id. at 768 (cautioning that “post-trial exculpatory
statements given by a convicted co-defendant must
be viewed with care” because “a jury might find
[the co-defendant] to be not a credible witness”).
22

23

Because Mack and McLendon have not shown that
Bryant's statements were “newly discovered
evidence” and that they would probably lead to a
different outcome, at least in McLendon's case, we
do not address the other elements required to
establish entitlement to a new trial.
VI. The District Court's Failure to Admit Bryant's
Exculpatory Statements
Mack asserts that Bryant's post-arrest statements
regarding Mack's lack of knowledge of the drugs
were admissible, under Federal Rule of Evidence
806, to impeach Bryant's inconsistent
co-conspirator statements to the undercover agents.
The problem for Mack and McLendon is that they
never presented this argument to the district court.
24

32a

A. Standard of Review
A district court's evidentiary rulings are
generally reviewed for abuse of discretion.
United States v. Baker, 432 F.3d 1189, 1202
(11th Cir.2005). Absent contemporaneous
objection to evidentiary matter, “we do not
apply the customary abuse of discretion
standard”; rather, we limit our review to “a
search for ‘plain error.’ ” Calderon, 127 F.3d
at 1334; see also United States v. Sorondo,
845 F.2d 945, 949 (11th Cir.1988) (“the
plain error rule must apply when, as here, a
party states an inaccurate objection just as
when a party states no objection at all”).
“Plain error occurs where (1) there is an
error; (2) that is plain or obvious; (3)
affecting the defendant's substantial rights in
that it was prejudicial and not harmless; and
(4) that seriously affects the fairness,
integrity, or public reputation of the judicial
*935 proceedings.” United States v. Johnson,
694 F.3d 1192, 1195 (11th Cir.2012)
(internal quotation marks and citation
omitted).

B. Discussion
Federal Rule of Evidence 806 states:
When a hearsay statement—or a
statement described in Rule
801(d)(2)(C), (D), or (E)—has been
admitted in evidence, the declarant's
credibility may be attacked, and then
supported, by any evidence that would
be admissible for those purposes if the
declarant had testified as a witness. The
court may admit evidence of the
declarant's inconsistent statement or
conduct, regardless of when it occurred
or whether the declarant had an
opportunity to explain or deny it. If the

party against whom the statement was
admitted calls the declarant as a witness, the
party may examine the declarant on the
statement as if on cross-examination.
Fed.R.Evid. 806.
The record shows that numerous out-of-court
statements made by Bryant to the undercover
agents were entered into evidence and used by the
government to establish Mack's guilty knowledge.
We have no difficulty concluding that Bryant's
post-arrest statements—that he told Mack that they
were transporting money and that he had never
discussed narcotics with Mack—were inconsistent,
as required by Rule 806, with the recorded
statements (which were played for the jury), in
which Bryant said that Mack “knows exactly what
we're doing” and which were used to convict Mack
of the drug charges. See United States v. Grant, 256
F.3d 1146, 1153–55 (11th Cir.2001).
25

It bears repeating that the discussion at the opening
of the trial concerning Bryant's remarks to the
arresting agents and the prosecutor was general and
hypothetical in nature. There was no formal proffer
of evidence or offer of a stipulation. Thus, Bryant's
counsel had no opportunity to object. We are not at
all confident that Bryant's counsel would not have
objected to any mention of his (Bryant's) prior
statement to the jury because the statements are at
least mildly inculpatory as to Bryant—he was
telling the agents and the prosecutor that he had
never told Mack that drugs would be involved in
the deal; only cash would be involved. The question
which must be asked is: how would Bryant know
what was going to be involved in the deal unless he
was himself culpable? Finally, we note that there
was no formal tender of evidence for the district
court to rule on. Mack has failed to demonstrate
plain error by the district court.
VII. Defendants' Cumulative *936 Error

33a

Argument
Defendants contend that a number of
instances of prosecutorial misconduct,
combined with improper government witness
testimony and erroneous judicial rulings,
amount to a cumulative error, impairing their
fair trial and due process rights under the
Fifth and Sixth Amendments to the United
States Constitution and warranting reversal
of the jury verdict.

948 F.2d 1196, 1206 (11th Cir.1991)). “[R]emarks
prejudicially affect the substantial rights of the
defendant when they ‘so infect[ ] the trial with
unfairness as to make the resulting conviction a
denial of due process.’ ” Eyster, 948 F.2d at 1206
(citation omitted).

A. Standard of Review
The question whether cumulative errors have
deprived the defendant of a fair trial is
reviewed de novo. United States v. Dohan,
508 F.3d 989, 993 (11th Cir.2007) (citation
omitted). “In addressing a claim of
cumulative error, we must examine the trial
as a whole to determine whether the
[defendant] was afforded a fundamentally
fair trial.” Calderon, 127 F.3d at 1333
(citation omitted).

(1) In its closing argument, the government
commented on the lack of evidence that Mack and
McLendon believed they were transporting money
(as opposed to cocaine), and that Mack was just
trying to help a friend move money.

26

B. Discussion
In order to establish cumulative error
warranting reversal, each incident must
constitute error in itself. United States v.
Waldon, 363 F.3d 1103, 1110 (11th
Cir.2004) (“If there are no errors or a single
error, there can be no cumulative error.”)
(internal quotation marks and citation
omitted). We consider (1) whether each
complained of incident constitutes error; and
(2) if so, whether the cumulative effect of all
errors mandates a reversal.
1. Prosecutorial Misconduct
“ ‘To find prosecutorial misconduct, a
two-pronged test must be met: (1) the
remarks must be improper, and (2) the
remarks must prejudicially affect the
substantial rights of the defendant.’ ” United
States v. Epps, 613 F.3d 1093, 1100 (11th
Cir.2010) (quoting United States v. Eyster,

Defendants contend that the prosecutorial
misconduct in this case consists of, inter alia, the
following burden-shifting statements:

(2) In its rebuttal closing argument, the government
denigrated defense counsel and characterized Mack
and McLendon's defense of “lack of knowledge” as
a “red herring.”
(3) At the very conclusion of its rebuttal, the
prosecutor stated:
Finally, ladies and gentlemen, all three defense
counsel dealt with this instruction here. And they
said: Proof beyond a reasonable doubt is proof so
convincing that you would be willing to rely and
act on it without hesitation in the most important of
your own affairs.
[...]
I think an important affair in life would be the
choice to transport drugs. That's life changing. You
could go to jail for a very long, very short time,
who knows. But it could maybe take you away
from your family. But it could also bring you
riches. That's one of the most important of your
own affairs. Am I going to act legally or am I going
to act illegally? ...
*937 (followed by McLendon's counsel objecting

34a

and the court overruling the objection). The
prosecutor continued by stating:

and reasonable doubt is not speculation. It's not
conjecture.

The most important of your own affairs was
the choice to bring a co-conspirator and not
a witness.

(emphasis added).

[...]
The most important affairs of your life,
ladies and gentlemen, were those choices
that Henry Bryant made. Those actions,
ladies and gentlemen, coupled with all of the
other recordings prove beyond a reasonable
doubt that all three of these men are guilty.
McLendon again objected to these
comments, and his objection was again
overruled.
During closing arguments, “prosecutors must
refrain from making burden-shifting
arguments which suggest that the defendant
has an obligation to produce any evidence or
to prove innocence.” United States v. Simon,
964 F.2d 1082, 1086 (11th Cir.1992)
(citation omitted). However, “prejudice from
the comments of a prosecutor which may
result in a shifting of the burden of proof can
be cured by a court's instruction regarding
the burden of proof.” Id. (citations omitted).
There is no error as to the first and second
“burden-shifting” statements. The
government prefaced its statement that no
evidence was presented concerning Mack's
and McLendon's knowledge that the
transport involved money by stating:
The defendant has no burden whatsoever. He
doesn't have to produce any such evidence,
but there's no evidence in this case that
Daniel Mack thought they were transporting
money. That's speculation. That's conjecture,

However, in the third instance, the district court
improperly overruled the objection by McLendon's
counsel because the prosecution asked the jury to
equate their own situation to Defendants' respective
situations. However, the court properly instructed
the jury on the burden of proof, and nothing in the
record indicates that the jury disregarded the court's
instructions. See Simon, 964 F.2d at 1087 (“a
prejudicial remark may be rendered harmless by
curative instructions to the jury”) (internal
quotation marks and citations omitted).
Accordingly, there is no reason to think that the
remarks prejudicially affected the substantial rights
of Defendants.
2. Improper Government Witness Testimony
We turn next to Defendants' enumeration of
incidents involving improper government witness
testimony.
(1) Agent Jackson “vouched” for the government
during his testimony about the “disappearance” of
the sham cocaine when he stated: “I don't know
where it's at.... I'm sure the FBI has it in custody.
We don't let kilograms of cocaine walk ... I'm sure
it could be provided.”
Defense counsel did not object at the time of the
“improper vouching.” In addition, defense counsel
asked Agent Jackson about the whereabouts of the
sham cocaine six times (in one form or another),
even after Jackson had already told counsel that he
himself did not know where the sham drugs were
and that counsel would have to direct that question
to the case agent. This is not the kind of “improper
vouching taint[ing] the trial” that we have held may
constitute a reversible error. See Eyster, 948 F.2d at
1207–08 (reversing based on the prosecutor's

35a

improper vouching for the credibility of a
government witness).
*938 (2) Det. Tyson testified that “you
would never see money packaged in that
manner,” even though he acknowledged that
his prior investigatory experience is in drug
trafficking, not money laundering. The court
overruled defense counsel's objection on the
basis of Tyson's experience in other
undercover drug deals. The court then
pointed out that the defense could
cross-examine Tyson as to his experience in
money laundering operations. We find no
error.

The final purportedly erroneous judicial ruling
concerns the cross-examination of Agent Jackson
concerning Taurus Barron. Barron was an
unindicted police officer who was involved in
escorting the transportation of sham cocaine during
the same period as Defendants. Defendants argue
that the district court restricted Jackson's
cross-examination concerning Barron's purported
statements to other law enforcement officers that
Barron was told he was escorting money, not drugs.

A careful review of the transcript shows no
improper criticism of the defense counsel by
the agent or by the court. Defense counsel
objected to Tyson's statement as being “not
responsive to the question.” When the court
attempted to clarify what the question was,
defense counsel withdrew the question.
There is no error.

We conclude that the district court did not
improperly restrict Agent Jackson's
cross-examination concerning statements made by
Barron. The transcript shows that defense counsel
asked Jackson whether he knew that Barron
asserted that he was told the transportation involved
cash. The government objected on the grounds of
hearsay. The court asked defense counsel whose
statements counsel wanted to introduce. Counsel
stated that he was talking about “the statement of
the other police officers,” and Jackson confirmed
that he was present at the time the statement was
made. The court then inquired of the prosecutor
whether she had introduced a “statement of that
agent,” to which she responded that she had only
introduced statements made by Jackson and Tyson.
After confirming with defense counsel that the
statements he was attempting to introduce were not
Jackson's or Tyson's, but were in fact Barron's, the
court sustained the hearsay objection. We find no
abuse of discretion.

3. Erroneous Judicial Rulings
Two of the three judicial rulings challenged
by Defendants concern the district court's
exclusion of Bryant's post-arrest statements
and the denial of Mack's motions to sever
and for new trial and of McLendon's motion
for new trial. We have previously found no
abuse of discretion as to those two rulings as
discussed in Parts IV, V, and VI.

Defense counsel then proceeded to question
Jackson about Jackson's knowledge concerning
whether Barron had ever been charged in the case.
Jackson stated that he did not know because he did
not conduct surveillance during the operation and
was not involved in any arrests in the case. The
government objected to that line of questioning
because any additional answer *939 Jackson could
have given would have been hearsay. The court
properly sustained the objection.

(3) Det. Tyson criticized defense counsel in
front of the jury when counsel questioned
him about his statement to McLendon and
Bryant that “this [is] money.” Counsel finds
the following statement by Tyson to be
objectionable: “[s]ee, what we have, ladies
and gentlemen, the attorney is trying to say
that—.”

27

36a

instead of arresting him after the first one.
In sum, most of the purported errors
enumerated by McLendon are not errors at
all. The cumulative effect of the sole
remaining error involving the prosecutor
asking the jury to put themselves in
Defendants' positions does not come close to
requiring a reversal.
28

VIII. Bryant's Sentence
A. Standard of Review
We review the reasonableness of a sentence
under an abuse of discretion standard. United
States v. Kuhlman, 711 F.3d 1321, 1326
(11th Cir.2013). The abuse of discretion
standard “allows a range of choice for the
district court, so long as that choice does not
constitute a clear error of judgment.” Id.
(internal quotation marks and citation
omitted).
B. Discussion
Bryant first argues that his 264–month total
sentence is procedurally unreasonable
because the court denied his motion for a
downward departure below the applicable
248– to 295–month range based on the
government's sentencing factor
manipulation. He further argues that his total
sentence is substantively unreasonable
because it is excessive.
The sole basis of Bryant's procedural
unreasonableness claim is that the
government engaged in sentencing factor
manipulation when it conducted the
reverse-sting operation in an outrageous and
reprehensible manner. Bryant submits that
the government's conduct was outrageous
because of the large amount of sham cocaine
that was used and the fact that the agents
allowed Bryant to complete a second run

We have never vacated a sentence based on alleged
sentencing factor manipulation. See United States
v. Docampo, 573 F.3d 1091, 1097–98 (11th
Cir.2009) (reiterating that courts in this circuit have
yet to “recognize[ ] a defense of sentencing factor
manipulation or [to] permit[ ] its application”)
(citations omitted); see also United States v.
Ciszkowski, 492 F.3d 1264, 1271 (11th Cir.2007)
(listing examples of conduct held not to constitute
sentencing factor manipulation).
Bryant acknowledges that the authority in this
circuit weighs heavily against his *940 position.
Moreover, he concedes that the government's
conduct in this case does not amount to sentencing
manipulation under this circuit's precedent. See
United States v. Sanchez, 138 F.3d 1410, 1414
(11th Cir.1998) (the government's decision as to the
drug quantity in a sting operation does not amount
to sentencing manipulation); Ciszkowski, 492 F.3d
at 1271 (the government did not engage in
sentencing manipulation when it provided a
defendant with a silencer-equipped firearm in a
sting operation involving murder-for-hire, although
the gun triggered a mandatory 30–year minimum
sentence where the gun or the silencer was not
completely unrelated to the criminal act).
Nevertheless, Bryant argues that we should
reconsider our position and “set limits on how far
the government may go to create crimes and
prosecute people.” Bryant cites no authority, nor
can he, in support of that argument, and he fails to
explain why his case warrants such a shift.
Accordingly, his “procedural” challenge to his
sentence is rejected.
Bryant's 264–month total sentence is also
substantively reasonable. It is near the low end of
the applicable 248– to 295–month total range, as
well as the low end of the underlying Sentencing
Guidelines sentence. Thus, this court would
ordinarily expect the sentence to be reasonable. See

37a

United States v. Hunt, 526 F.3d 739, 746
(11th Cir.2008) (a sentence falling within the
Guidelines range is not automatically
presumed to be reasonable; however, such a
sentence ordinarily is expected to be
reasonable). In addition, Bryant's sentence is
well below the statutory maximum penalty
of life imprisonment—another indication
that it is reasonable. United States v.
Gonzalez, 550 F.3d 1319, 1324 (11th
Cir.2008).
Finally, the record shows that the district
court considered the section 3553(a) factors
and the facts of the case, and declined to
vary below the Guidelines range, stating:
[a]fter having heard from all parties and
having adopted the guidelines ... I don't think
a sentence below the guideline is appropriate
at all. So my question here is, where within
the guidelines between 188 and 235 months
[on Counts 1–3] I should sentence the
defendant. I'm not going to go below the
guidelines to 180 months, because I don't
think it would be appropriate in the exercise
of my discretion.

is excessive is insufficient to demonstrate an abuse
of discretion by the court. Accordingly, the district
judge did not abuse his discretion by denying
Bryant's request for a downward variance, and
Bryant's sentence is affirmed.
IX. Conclusion
We affirm the district court's denial of Defendants'
Rule 29 motions, and affirm Defendants'
convictions. We also affirm the district court's
denial of Mack's motion to sever and of Mack's and
McLendon's motions for new trial. We hold that the
district court's refusal to admit Bryant's post-arrest
statements for impeachment purposes does not
constitute plain error. *941 We further find no
cumulative error warranting reversal. Finally, we
affirm the district court's denial of Bryant's request
for a downward variance and affirm Bryant's
sentence.
All Citations
572 Fed.Appx. 910

But by the same token, the top of the
guidelines with the other 60 months would
be 24 years and 7 months, I think that's too
much under the facts of this case, and it
doesn't really serve the interest of society
under 3553(a).
The seriousness of Bryant's criminal conduct
supports that decision: he organized the
transportation of large quantities of serious
narcotics, and enlisted police officers to
assist him. Moreover, he did so as an active
public servant whose job was to protect the
public, not to foster criminal elements within
it. In light of the foregoing, Bryant's bare
assertion that his guidelines-range sentence

38a

Footnotes
*

The Honorable R. David Proctor, United States District Judge for the Northern District of
Alabama, and Orinda D. Evans, United States District Judge for the Northern District of
Georgia, sitting by designation.

1

Much of the evidence was recorded, and the recordings were played for the jury.

2

That meeting was video recorded.

3

The government and Defendant Mack stipulated that vehicle number 1929A was assigned to
Mack.

4

That meeting was recorded.

5

Bryant also contends that the “outrageous government conduct” warrants an acquittal. That
argument was not presented to the district court. Issues raised for the first time on appeal are
reviewed only for plain error. See United States v. Kelly, 888 F.2d 732, 739 n. 12 (11th
Cir.1989) (a defendant's claim of outrageous government conduct that was not raised at trial
is reviewable only for plain error).
An acquittal on grounds that the government engaged in outrageous conduct requires a
showing by the defendant that, based on the totality of the circumstances, the government's
conduct and over-involvement violated that “fundamental fairness, shocking to the universal
sense of justice” mandated by the Due Process Clause of the Fifth Amendment to the United
States Constitution. Wilcox v. Ford, 813 F.2d 1140, 1147 (11th Cir.1987) (quoting United
States v. Russell, 411 U.S. 423, 432, 93 S.Ct. 1637, 1647, 36 L.Ed.2d 366 (1973) (internal
quotation marks omitted)). The defense can be raised only in the “rarest and most outrageous
circumstances.” United States v. Tobias, 662 F.2d 381, 387 (5th Cir. Unit B 1981), cert.
denied 457 U.S. 1108, 102 S.Ct. 2908, 73 L.Ed.2d 1317 (1982).
According to Bryant, the government's conduct was outrageous because this “egregious
reverse sting” involved two drug transportation trips instead of one. We disagree. The second
run enabled agents to meet and collect evidence against Mack, one of the police officers who
assisted Bryant and who was charged as a co-conspirator. Thus, the government's decision in
conducting two runs, instead of one, was not “fundamentally unfair.”

6

Mack was found not guilty of the attempt offense charged in Count Two, which stemmed from
the December 21, 2011 drug transport.

39a

7

These statements include: “They gonna know what's going on because I'm gonna tell them
straight out”; “My guys are all on board”; “He knows exactly what we're doing; there's no
secrets”; “They ain't talking cheap”; “[H]e knows about it”; “These guys, they know exactly
what's going on, ‘cause I, I'm straight forward with all of them”; and “They do know.” Agent
Jackson did testify, however, that while they were waiting for Mack on the morning of
January 14, 2012, Bryant stated that the less the officers knew, the better off they were.

8

Mack contends that this case is indistinguishable from United States v. Martinez, 83 F.3d 371
(11th Cir.1996), in which we reversed the convictions on, inter alia, drug charges of one of
the defendants (Gomez). Id. at 377. Gomez claimed that he was told that he was going to a
house to steal money, as opposed to cocaine. Id. at 374.
We find Martinez distinguishable. There, the entirety of the evidence showing Gomez's
knowledge of the drugs consisted of a co-defendant's statement to the undercover agents that
he (the co-defendant) “had men ready to steal the cocaine [from a house].” Id. In contrast,
here, even if Bryant had led Mack to believe that he was escorting money, Mack's subsequent
conversation with the undercover agents, coupled with his 16 years of experience as a police
officer in Miami–Dade County, amounts to sufficient evidence to support Mack's conviction.

9

Mack does not argue that the evidence was insufficient as to whether he took a substantial step
toward the commission of the crime. The evidence presented to the jury concerning Mack's
knowledge of the drugs also supports Mack's conviction on the attempted possession count.

10

Mack attempts to distinguish Novaton, in which there was evidence that the officer was
responsible for directly protecting the drugs and drug proceeds. See 271 F.3d at 982. Mack
asserts that his whole role was limited to driving his police car. Mack's argument misses the
mark. It is clear that the evidence of the involvement of the police officer in Novaton exceeded
the threshold of proof required to show that the firearm was carried “in relation to” the
offense. In the present case, Agent Jackson told Bryant that Jackson wanted uniformed
officers in marked police vehicles “in case there was officers that would interdict the loads.”
Mack's appearance (in full uniform and armed) and his conduct (escorting the drugs according
to plan) clearly had the potential for facilitating the offense.

11

Mack contends that we should analyze the “during” and “in relation to” elements of section
924(c) separately. He argues that there is no evidence that he carried the firearm while he was
actually escorting the drugs. Our analysis in Novaton and in Timmons focused exclusively on
the “in relation to” requirement because in both of those cases, there was no question that the
firearm was carried during the drug trafficking offense. See Novaton, 271 F.3d at 1013 (the
defendant admitted that he carried his firearm “during the events involved in this case”);
Timmons, 283 F.3d at 1251 (“[t]here is little question that ... [the defendant carried the firearm
“during” the drug trafficking offense] as the gun was sold along with the drugs”). Even though
Mack denies carrying his firearm during the actual transportation, it is undisputed that he
carried his weapon during the January 14, 2012 meeting; thus, he was armed “during the
events involved in this case.” See Novaton, 271 F.3d at 1013.

40a

12

Although there is some evidence in the record suggesting that Bryant may have carried a
firearm on January 14, 2012, we affirm the district court's denial of Bryant's Rule 29 motion
on an aiding and abetting theory.

13

In Rutledge we phrased the third element of aiding and abetting as a requirement to show that
the defendant “committed some act related to the gun,” as opposed to some act which
facilitated the crime. 138 F.3d at 1359; cf., e.g., United States v. Pareja, 876 F.2d 1567, 1570
(11th Cir.1989). We derived this requirement from cases discussing the need to link the
defendant to the gun. Bazemore, 138 F.3d at 949 (explaining that “section 924(c) does not
permit ‘guilt by association.’ ”) (citation omitted). In Bazemore, we effectively subsumed the
proof necessary to show that the defendant facilitated the carrying of a firearm in the evidence
required to establish the defendant's knowledge of the firearm. Id. at 950 (“[O]nce knowledge
on the part of the aider and abettor is established, it does not take much to satisfy the
facilitation element.”) (internal quotation marks and citation omitted). We have held that the
“facilitation element” can be met by the defendant “knowingly benefit[ting] from the
protection afforded by the firearm.” Id.

14

While Mack was specifically convicted of carrying a firearm during and in relation to the drug
trafficking crime, McLendon and Bryant were convicted of possessing a firearm in furtherance
of the crime (on an aiding-and-abetting theory). These verdicts are not necessarily
inconsistent. Based on the particular facts in this case the evidence of Mack's conduct supports
both types of firearm offense convictions.

15

Mack also made post-arrest statements averring that he thought he was following cash, not
drugs. Mack's statements to the arresting officers are not at issue here.

16

The Bruton rule bars the admission of incriminating statements made by nontestifying
co-defendants at a joint trial. See United States v. Thayer, 204 F.3d 1352, 1355 (11th
Cir.2000) (explaining the Bruton rule) (citing Bruton v. United States, 391 U.S. 123, 135–36,
88 S.Ct. 1620, 20 L.Ed.2d 476 (1968)).

41a

17

In his affidavit, Bryant averred as follows:
1. My name is Henry Bryant and I am a co-defendant in the above styled case and this
affidavit is based upon my own personal knowledge.
2. At all times between December 1, 2011 to April 4, 2012, during the events that have lead
to this case, I never discussed with Daniel Mack anything about dealing in narcotics or
escorting narcotics.
3. Daniel Mack, at all times, was lead [sic] to believe, by me, that the item in the car he was
escorting was money and money only.
4. If I was not a co-defendant and my trial had taken place first and had been called to testify
at a separate trial for Daniel Mack, I would have testified on behalf of Daniel Mack that he
was never advised or told by me that the items he was to escort were narcotics.
5. I presented myself to the AUSA's Waugh and Dwyer Friday, September 28, 2012 before
trial and expressed to them that at no time did I ever have any conversation about narcotics
with Daniel Mack.
6. Upon my arrest in this case, I advised the agents who interviewed me that I had told Daniel
Mack that he was escorting cash for a Miami Beach night club owner.

18

In Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir.1981) (en banc), we adopted as
binding all decisions of the former Fifth Circuit issued on or before September 30, 1981.

19

As to McLendon, Bryant's affidavit states that, during the events at issue, Bryant did not
discuss with McLendon anything about drugs. Bryant also avers that he led McLendon to
believe he was transporting money, and that he would have testified to that effect in a separate
trial. From this point on, the contents of Bryant's affidavit as to McLendon begin to differ
from those submitted in support of Mack's motion. Specifically, Bryant affirms that he told
his attorney “numerous times” that he never discussed transporting drugs with McLendon. He
further states that, upon his arrest, he advised the agents that he had “told [his] alleged
CoDefendants [ (without mentioning McLendon's name) ] that they believed it was cash for
a Miami Beach Night Club owner.” In contrast, in the affidavit that he submitted for Mack,
Bryant specifically states that he made the exculpatory statements to the arresting officers and
the prosecutors concerning Mack's knowledge (emphasis added).

42a

20

Mack's contentions that the mere existence of Bryant's statements to the arresting officers and
to the prosecutors establish a likelihood of future testimony in a separate trial are unsupported
by any authority. In addition, United States v. Martinez, 486 F.2d 15 (5th Cir.1973) upon
which Mack relies is inapposite. There, our predecessor court quoted an observation made by
the United States Court of Appeals for the Fourth Circuit that “ ‘a severance is obligatory
where one defendant's case rests heavily on the exculpatory testimony of his co-defendant,
willing to give such testimony but for the fear that by taking the stand in the joint trial he
would jeopardize his own defense.” ’ Martinez, 486 F.2d at 23 (quoting United States v.
Shuford, 454 F.2d 772, 776 (4th Cir.1971)) (emphasis added). In the present case, at the time
of the motion, it was by no means clear that Bryant was willing to testify in the joint trial; in
fact, Bryant's counsel stated that he could not indicate if his client would testify.

21

McLendon did not join in Mack's oral motion to sever that was made at the outset of trial.

22

We make no determination in this regard in Mack's case.

23

In his affidavit in support of McLendon's motion for new trial, Bryant does not state, as he did
with respect to Mack, that he told the prosecutors that he had never discussed drugs with
McLendon.

24

In his brief, McLendon also challenges the exclusion of Bryant's exculpatory statements as
to Mack, and adopts the arguments made by Mack on that issue. McLendon argues that the
exculpatory statements would have established Mack's innocence, which in turn would have
vitiated the grounds for McLendon's conviction of the firearm charge.

25

We agree with Mack that Grant, 256 F.3d 1146, which involved a drug trafficking conspiracy,
squarely resolves the inconsistency issue here. In Grant, we considered a challenge to the
district court's refusal to admit a co-conspirator's exculpatory affidavit introduced by the
defendant (Wilson) for impeachment purposes. The district court had found that the statements
in the affidavit were not sufficiently inconsistent with the co-conspirators inculpatory
statements admitted through the testimony of a Customs Service agent. Id. at 1153. We
disagreed, and concluded that the government had used Wilson's co-conspirator statements
to establish the existence of a conspiracy, and the statements in Wilson's affidavit were
“inconsistent with the existence of any conspiracy at all, and for that reason were inconsistent
with his co-conspirator statements.” Id. at 1154–55.
Similarly here, the prosecution used Bryant's statements admitted through the agents to
demonstrate that Mack knew the conspiracy involved drugs. Bryant's post-arrest statements
directly contradict Bryant's statements to the undercover agents concerning Mack's knowledge
of the drugs.

26

This argument, raised by McLendon, was also adopted by Mack and Bryant.

43a

27

Despite defense counsel's use of the plural form, it does appear that defense counsel was
referring to Barron's statement concerning his knowledge, not that of other police officers.

28

This conclusion applies to the following additional incidents briefly mentioned by Defendants.
First, Defendants highlight the prosecutor's comment in opening statement: “[I]f anyone
watches t.v., you see cocaine. It's packaged in a brick form, kilogram square form, wrapped
in tape.” Although this comment was not proper, there was no objection, and no harm was
done.
Second, Defendants point to Agent Jackson's testimony as to defendant Bryant's “belief” and
“knowledge” concerning the drugs. As Defendants point out, however, the district court did
sustain the motion to strike as well as the ensuing objection by Bryant's counsel, and the
government discontinued the line of questioning concerning Bryant's “belief” and
“knowledge.”
Third, the government elicited testimony from Det. Tyson about the value of cocaine without
establishing any foundation for Tyson's knowledge. Defense counsel did not object to Tyson's
statement, and we find no error. See United States v. Costa, 691 F.2d 1358, 1361 (11th
Cir.1982) (testimony from an experienced D.E.A. agent regarding the street value of cocaine
is not prejudicial error, even in light of the failure to qualify the agent as an expert).
Finally, Defendants object to the prosecutor's attempt to clarify to whom Bryant was referring
when he told Jackson “[w]e've been in this thing together for—since we've been eight years
old.” Defense counsel's objection was overruled. A close review of the transcript reveals that
the prosecutor's question concerned Agent Jackson's understanding of Bryant's statement.
Thus, the district court did not err in overruling defense counsel's objection.

44a

Case 1:12-cr-20276-FAM Document 300 Entered on FLSD Docket 12/16/2016 Page 1 of 1

45a

Case 1:12-cr-20276-FAM Document 301 Entered on FLSD Docket 12/16/2016 Page 1 of 1

46a

Case 1:12-cr-20276-FAM Document 324 Entered on FLSD Docket 04/25/2017 Page 1 of 2

47a

Case 1:12-cr-20276-FAM Document 324 Entered on FLSD Docket 04/25/2017 Page 2 of 2

48a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 1 of 76

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 12-cr-20276-MORENO/O'SULLIVAN
UNITED STATES OF AMERICA,
Plaintiff,
v.
HENRY LEE BRYANT,
DANIEL MACK and
OCTAVIUS MCLENDON
Defendants.
/
REPORT AND RECOMMENDATION
THIS MATTER is before the Court on Defendant Henry Lee Bryant’s Rule 33
Motion for New Trial Based on Newly Discovered Evidence with Incorporated
Memorandum of Law, and Motions for Full Discovery, for an Evidentiary Hearing, and to
Adopt the Corresponding Motions Filed or to Be Filed by and on Behalf of
Codefendants Mack & McLendon (DE# 181, 10/8/15) (hereinafter “Bryant’s Motion for
New Trial”), Defendant Daniel Mack’s Motion for New Trial Pursuant to Fed. R. Crim. P.
Rule 33 and Brady v. Maryland, 373 U.S. 83 (1963), and Request for Hearing (DE#
182, 10/8/15) (hereinafter “Mack’s Motion for New Trial”) and Defendant McLendon’s
Motion for New Trial and an Evidentiary Hearing and Supporting Memorandum of Law
(DE# 187, 10/13/15) (hereinafter “McLendon’s Motion for New Trial”).1
Having reviewed the parties’ filings and having conducted an evidentiary hearing
on May 31, 2016 and June 2, 2016, the undersigned RESPECTFULLY
RECOMMENDS that Bryant's Motion for New Trial (DE# 181, 10/8/15) and McLendon’s
Motion for New Trial (DE# 187, 10/13/15) be DENIED and that Mack’s Motion for New
Trial be GRANTED for the reasons set forth below.

1

The defendants adopt the arguments raised in each other’s filings.

49a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 2 of 76

BACKGROUND
A.

The Defendants’ Convictions
Henry Lee Bryant, Daniel Mack and Octavius McLendon were charged with

conspiracy to possess with intent to distribute cocaine in violation of Title 21, United
States Code, Section 846 (Count 1); two counts of attempting to possess with intent to
distribute cocaine in violation of Title 21, United States Code, Section 846 (Counts 2
and 3) and possession of a firearm during and in relation to a drug trafficking crime in
violation of Title 21, United States Code, Section 924(a)(1)(A) and 2 (Count 4). See
Superseding Indictment (DE# 38, 6/29/12). The trial in this case began on October 2,
2012 and continued through October 10, 2012. During the trial, the government
presented the testimony of FBI Special Agent Dante Jackson (hereinafter “Agent
Jackson”) and Baltimore Police Detective KayTee Tyson, among other witnesses.
On October 10, 2012, the jury returned guilty verdicts against Mr. Bryant and Mr.
McLendon on all charges. See Judgments in a Criminal Case (DE# 121, 123,
12/21/12). Mr. Mack was convicted of all charges except one count of attempting to
possess with intent to distribute cocaine. See Judgment in a Criminal Case (DE# 122,
12/21/12).2
B.

The Appeal
The defendants appealed their convictions. Mr. Bryant also appealed his

sentence. On July 24, 2014, the Eleventh Circuit affirmed the defendants’ convictions

2

“Mack was specifically convicted of carrying a firearm during and in relation to
the drug trafficking crime, McLendon and Bryant were convicted of possessing a firearm
in furtherance of the crime (on an aiding-and-abetting theory).” United States v. Mack,
572 F. App'x 910, 924 n.14 (11th Cir. 2014).
2

50a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 3 of 76

and Mr. Bryant’s sentence. See United States v. Mack, 572 F. App’x 910 (11th Cir.
2014). The Eleventh Circuit found that there was sufficient evidence to support the
defendants’ convictions for the drug charges and the firearm charges.3
In addressing the drug charges, the Eleventh Circuit considered “the sufficiency
of the evidence that Defendants knew that the transaction involved drugs.” Id. at 917.
With respect to Mr. Bryant, the Eleventh Circuit stated that:
The record is rife with evidence of Bryant’s knowledge that the
contents of the cargo consisted of drugs. On December 9, 2011,
Agent Jackson told Bryant “it’s ten keys . . ., I mean that’s what gonna be
moving.” Bryant responded, “okay.” Jackson repeated himself, to be clear
that Bryant understood, “[j]ust so you know. Uh, its ten kilo’s.” Bryant
again said, “okay.” Bryant acknowledged that moving the drugs was “a
huge risk” and that the police he had recruited to do the job “usually get
paid four, five gran’ a piece.”
Later in the conversation, Agent Jackson stated, “it’s not a incre-,
incredible amount of cocaine, I mean so it ain’t a ton. Know what I
mean?” Bryant replied, “I understand, I understand.” Jackson also said
that “cocaine prices isn't what it used to be . . . .” Bryant hung up when
Jackson, on one occasion, referred to the “coke” during a telephone
conversation with him, and later chided Jackson for using that term on the
telephone. Bryant suggested that Agent Jackson could use many other
terms to refer to cocaine. There can be no doubt that Bryant knew
exactly what he had agreed to transport. Thus, his conviction on the
drug charges must be upheld.
Id. at 917-18 (emphasis added; footnote omitted).4
As to Mr. McLendon, the Eleventh Circuit stated that:
The evidence is ample with respect to McLendon’s knowledge that
3

The Eleventh Circuit reviewed the evidence in the light most favorable to the
government. Mack, 572 F. App’x at 917.
4

The Eleventh Circuit’s opinion states that Mr. Bryant hung up the phone when
Agent Jackson used the word “coke.” However, the transcript of the December 10, 2011
conversation shows that Agent Jackson used the word “dope.” See Government’s
Exhibit 53, Tab D at 2.
3

51a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 4 of 76

the offense involved drugs. Bryant stated to Agent Jackson that
McLendon would serve as his “point man” to the police officers on the
transaction and that he and McLendon have been “in this thing” since they
were children.
In addition, McLendon's knowledge of the drugs is supported by
independent evidence. McLendon was present at the nightclub office on
December 21, 2011 when Det. Tyson marked each of the nine
brick-shaped items, counted them, and placed them in a duffel bag. Det.
Tyson then handed the bag to McLendon and told him that “there’s nine in
there” and that “[they] need[ed] to make sure all nine of these get there.”
McLendon contends that he was not told what was contained in the
“opaque, brick-shaped, shrink-wrapped items that were placed in a duffel
bag by the undercover agents and given to him and Bryant to transport.”
But Det. Tyson instructed both Bryant and McLendon that there can
be “no deviation, no test, no taste” and asked “neither one of y'all
get high right?”
McLendon points out that Det. Tyson himself told McLendon and Bryant
that they were transporting money, not drugs, by making the statement
“cause this money, see what I'm saying?” However, that statement was
made immediately after Tyson had counted the nine brick-like objects and
after he had handed the bag to McLendon, cautioning him that they
needed to make sure the cargo reaches its destination intact. Thus, this
statement is consistent with Tyson’s testimony that he sought to
communicate to McLendon and Bryant that the nine kilograms of cocaine
were worth a lot of money to him. In sum, the evidence in the record
fully sustains McLendon's conviction on the drug charges.
Mack, 572 F. App’x at 918-19 (emphasis added).
Finally, with respect to Mr. Mack, the Eleventh Circuit acknowledged that “the
evidence of Mack’s knowledge of the drugs [wa]s not overwhelming.” Mack, 572 F.
App’x at 919. Nonetheless, the Eleventh Circuit determined that there was sufficient
evidence to support Mr. Mack’s conviction on the drug charges. Id. Specifically, the
Eleventh Circuit noted that Mr. Mack arrived at a meeting on January 14, 2012 wearing
his full police uniform, but no name tag, and had a visible weapon in its holster. Id.
Approximately two hours later, FBI agents observed Mr. Mack’s marked police vehicle
4

52a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 5 of 76

closely following the vehicle Mr. Bryant and Mr. McLendon were using to transport the
sham cocaine. Id. The Eleventh Circuit noted that it “ha[s] held that [a defendant’s]
‘repeated presence at the scene of the drug trafficking . . . can give rise to a permissible
inference of participation in the conspiracy’” and that “[a]lthough ‘mere presence,’
standing alone, is insufficient to support a conviction for a drug-related offense, it is ‘a
material and probative factor’ that may be considered by the jury in reaching the
verdict.” Id. (citing United States v. Calderon, 127 F.3d 1314, 1326 (11th Cir. 1997) and
United States v. Baptista-Rodriguez, 17 F.3d 1354, 1374 (11th Cir. 1994)). The
Eleventh Circuit stated that “Mack’s presence extend[ed] not only to his participation in
the January 14, 2012 meeting, but to his subsequent escort of the drugs later that day.”
Mack, 572 F. App'x at 919. The Eleventh Circuit further stated that “the record
reflect[ed] additional proved circumstances that support the inference of Mack’s guilty
knowledge” and cited a conversation between Mr. Mack and Agent Jackson during the
January 14, 2012 meeting:
The undercover agents told Mack that, as a result of the police officer
layoffs, they would be able to do more business in Miami and would “get
rich” because Miami would be “wide open.” Agent Jackson then confided
in Mack that Miami was “new territory” for him and Tyson, and that they
had “this many t-shirts coming through you know what I mean, we just
want to make sure everything is right you know what I mean.” Mack stated
that he understood and respected that.
Id. at 920. The Eleventh Circuit noted “[a]lthough Mack did not say much during the
meeting, ‘[a]n illegal agreement may be inferred from the conspirators' conduct and
other circumstantial evidence.’” Id. (quoting Baptista-Rodriguez, 17 F.3d at 1374).
The Eleventh Circuit rejected Mr. Mack’s “conten[tion] that there [wa]s no direct
evidence of his knowledge that ‘t-shirts’ [wa]s one of the many code words for drugs,”
5

53a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 6 of 76

noting that “Agent Jackson, who [wa]s an agent on the drug squad, testified that
‘t-shirts’ was a very common word for cocaine ‘not just [in] Atlanta, . . . but everywhere’;
it was also a term [Agent Jackson] had used with Bryant in reference to the drugs
involved in this case.” Id. at 920. The Eleventh Circuit reasoned that:
In light of Mack’s 16-year experience on the Miami-Dade police force, the
jury could reasonably have inferred that Mack knew exactly what Jackson
was referring to and that he knew that the indubitably criminal activity in
which he was about to participate involved drugs.
Finally, Bryant made numerous statements to the undercover agents
assuring them that Mack knew everything. These statements likely
bolstered the government’s case against Mack on the drug charges.
However, they are not necessary to sustain a guilty verdict. Even absent
these statements, the cumulative effect of the circumstantial evidence
discussed above is sufficient to show Mack’s knowledge of the drugs.
Accordingly, taken in the light most favorable to the verdict, we cannot say
that the record reveals a lack of substantial evidence from which a
factfinder could find guilt beyond a reasonable doubt.
Id. at 920-21 (footnotes omitted).
The Eleventh Circuit also determined that there was sufficient evidence to
support the firearm charge (Count 4). “The jury found Mack guilty of carrying a firearm
during and in relation to the drug trafficking crime, in violation of 18 U.S.C. § 924(c)”
and “Bryant and McLendon were found guilty of possessing a firearm in furtherance of
the drug trafficking crime, in violation of 18 U.S.C. §§ 924(c) and 2.” Mack, 572 F. App’x
at 921. With respect to Mr. Mack, the Eleventh Circuit noted that:
It [wa]s undisputed that Mack was carrying his firearm approximately two
hours before the actual drug transportation. He knew of the illegal nature
of the conspiracy, and he understood that his police officer status was a
necessary condition to his participation in the deal. In light of this
evidence, it was reasonable for the jury to conclude that Mack carried a
firearm in relation to the drug trafficking conspiracy.
Id. at 922. As to Mr. Bryant and Mr. McLendon, the Eleventh Circuit concluded that
6

54a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 7 of 76

there was sufficient evidence to support their guilty verdicts for aiding and abetting in
Mr. Mack’s section 924(c) firearm offense. Id. at 924-25.
During the pendency of the appeal, the government disclosed to the defendants
that Agent Jackson was under investigation for allegations arising out of his relationship
with a former FBI confidential source. The former source was later identified as Mani
Chulpayev. There is no record evidence that the case agent was aware of Agent
Jackson’s misconduct5 prior to trial. The parties have stipulated that the two Assistant
United States Attorneys who prosecuted the case were also unaware of Agent
Jackson’s misconduct prior to trial.
C.

The Instant Motions for New Trial
On October 8, 2015, Mr. Bryant and Mr. Mack filed motions for new trial. See

Bryant’s Motion for New Trial (DE# 181, 10/8/15); Mack’s Motion for New Trial (DE#
182, 10/8/15). On October 13, 2016, Mr. McLendon also filed a motion for new trial.
See McLendon’s Motion for New Trial (DE# 187, 10/13/15).
On November 2, 2015, the government filed an omnibus response to the
defendants’ motions for new trial. See United States’ Omnibus Response to New Trial
Motions Filed by Defendants Bryant [D.E. 181], Mack [D.E. 182], and McLendon [D.E.

5

To the undersigned’s knowledge the DOJ-OIG’s investigation of Agent Jackson
is still ongoing and Agent Jackson has not yet been charged with any crime or policy
violation. Nonetheless, and for purposes of the instant motion, the government does not
dispute some of the misconduct by Agent Jackson. See Government’s Supplemental
Memorandum (DE# 281 at 2-3, 7/25/15) (stating that “[w]hile Jackson has been neither
charged nor convicted with doing [these alleged acts], a comprehensive review of the
DOJ-OIG’s investigation objectively revealed policy violations which the government did
not contest for purposes of the evidentiary hearing.”).
7

55a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 8 of 76

187] (DE# 191, 11/2/15) (hereinafter “Government’s Omnibus Response”).6 The
defendants filed replies to the Government’s Omnibus Response on November 16,
2015. See Defendant Henry Lee Bryant’s Reply to the Government’s Omnibus
Response to the Motions for New Trial (DE# 195, 11/16/15) (hereinafter “Bryant’s
Reply”); Defendant Mack’s Reply to United States’ Omnibus Response to New Trial
Motions [DE191] (DE# 194, 11/16/15) (hereinafter “Mack’s Reply”); Defendant
McLendon’s Reply to Response to Motion for New Trial, Discovery, and Evidentiary
Hearing (DE# 196, 11/15/16) (hereinafter “McLendon’s Reply”). On January 11, 2016,
the government filed a Notice of Filing Supplemental Authority (DE# 202, 1/11/2016).
On May 31, 2016 and June 2, 2016, the Court held an evidentiary hearing. The
defendants called Baltimore Police Detective KayTee Tyson (hereinafter “Detective
Tyson”), FBI Special Agent Matthew Fowler (hereinafter “Case Agent Fowler”) and
Department of Justice Office of Inspector General Special Agent Susan Howell
(hereinafter “Agent Howell”) as witnesses. See Transcripts (DE# 257, 6/7/16; DE# 268,
6/22/16).7
Following the evidentiary hearing, the Court allowed the parties to file
supplemental briefs. On June 30, 2016, Mr. Mack filed a Memorandum of Law in
Support of Defendant Daniel Mack’s Motion for New Trial and Motion to Vacate (DE#
272, 6/30/15) (hereinafter “Mack’s Supplemental Memorandum”). Mr. McLendon filed

6

On December 3, 2015, the government filed a notice correcting a sentence in
its omnibus response. See Notice of Filing (DE# 197, 12/3/15).
7

Mr. McLendon sought to call Agent Jackson as a witness at the evidentiary
hearing. Following a status hearing on June 16, 2016, the parties stipulated to certain
facts on the record and Mr. McLendon withdrew his request for Agent Jackson’s
testimony. See Order (DE# 261, 6/16/16).
8

56a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 9 of 76

his post-hearing memorandum on July 1, 2016. See Defendant McLendon’s
Supplemental Memorandum of Law (DE# 276, 7/1/16) (hereinafter “McLendon’s
Supplemental Memorandum”). On July 2, 2016, Mr. Bryant filed his supplemental
memorandum. See Defendant Bryant’s Supplemental Memorandum in Support of his
Rule 33 Motion for a New Trial (DE# 277, 7/2/16) (hereinafter “Bryant’s Supplemental
Memorandum”).
The government filed its supplemental memorandum on July 25, 2015. See
United States’ Supplemental Memorandum of Law in Opposition to Defendant’s
Motions for New Trial (DE# 281, 7/25/15) (hereinafter “Government’s Supplemental
Memorandum”). Mr. Mack and Mr. McLendon filed their supplemental replies on
September 6, 2016. See Defendant Mack’s Reply to United States’ Supplemental
Memorandum of Law (DE# 289, 9/6/16) (hereinafter “Mack’s Supplemental Reply”);
Defendant McLendon’s Reply to Government’s Response to Defendants’ Supplemental
Memoranda of Law (DE# 290, 9/6/16) (hereinafter “McLendon’s Supplemental Reply”).
Mr. Bryant did not file a supplemental reply. This matter is ripe for adjudication.
FACTS
A.

The Criminal Investigation
Haim Turgman was the owner of Club Dolce, a Miami Beach nightclub. In the

summer of 2011, Mr. Turgman complained to the FBI about numerous Miami Beach
code enforcement inspectors who were demanding payment in exchange for
overlooking code violations. Based on Mr. Turgman’s assertions, the FBI began an
investigation into the allegations of extortion by these code enforcement inspectors. As
part of its investigation, the FBI took over the operation of Club Dolce. The FBI used an
9

57a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 10 of 76

undercover employee, Agent Jackson, to pose as the manager of the nightclub and
make bribe payments to the corrupt code enforcement inspectors. Mr. Bryant, a fire
inspector, was one of the code enforcement inspectors who had been extorting money
from Club Dolce.8
At some point, the FBI changed the focus of its investigation from an extortion
investigation to a narcotics investigation. The decision to change the focus of the
investigation was made by Case Agent Fowler and other Miami agents. It was not made
by Agent Jackson.
The FBI’s investigation included telephone records, recorded telephone calls,
audio and visual recordings of meetings at Agent Jackson’s office in Club Dolce,9
meetings at restaurants and surveillance of the transport of sham cocaine on two
occasions. The substance of these meetings is discussed below in the summary of the
evidence presented at trial. The FBI’s investigation concluded in late January 2012.
There is no record evidence that Mani Chulpayev was involved in the
investigation or prosecution of Mr. Bryant, Mr. McLendon and Mr. Mack. Additionally,
there is no record evidence of Agent Jackson’s misconduct prior to the conclusion of
the investigation in late January 2012.10

8

Mr. Bryant pled guilty to conspiracy to commit extortion under color of official
right, in violation of Title 18, United States Code, Section 1951(a) and was sentenced to
a 27-month term of imprisonment to run concurrently with the term of imprisonment
imposed in the instant case. See United States v. Bryant, Case No. 12-cr-20279-RNS.
9

The audio/visual equipment failed to record a meeting on December 2, 2011
between Agent Jackson and Mr. Bryant.
10

The focus of the DOJ-OIG’s investigation into Agent Jackson’s misconduct
was from January 2012 through April 2013.
10

58a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 11 of 76

B.

The Evidence Presented at Trial
On December 2, 2011, Agent Jackson had a meeting with Mr. Bryant at Club

Dolce. The audio/visual equipment failed to record that meeting.
On December 4, 2011, Agent Jackson had a follow up meeting with Mr. Bryant at
Club Dolce. The December 4, 2011 meeting was audio/visually recorded.11 During this
meeting Mr. Bryant reported that he had recruited police officers to provide assistance,
stating: “I got four and they said that they could give whoever I need. They all county
guys. Plus, I got two Beach guys.” Trial Transcript (DE# 145 at 17-18, 1/14/13).
On December 9, 2011, Agent Jackson and Mr. Bryant met at Club Dolce. During
this meeting, Mr. Bryant told Agent Jackson that he had two police officers who would
provide security for the transportation of drugs. See Government’s Exhibit 53 at Tab C,
Transcript of 12/9/11 Meeting at 5-6.12 Mr. Bryant stated that his “brother,” meaning Mr.
McLendon, would be involved. Id. at 5-6, 10-11. Specifically, Mr. Bryant stated that Mr.
McLendon was “gonna ride with me. He’s gonna be pickin’ up the bag, with me.” Id. at
10. Mr. Bryant further stated that Mr. McLendon was “being sort of the escort guy for”
Mr. Bryant because he and Mr. McLendon had “worked it out many times before and
that[ was] the easiest way.” Id. at 11.

11

The video of the December 4, 2011 meeting was played at trial, but not at the
evidentiary hearing. See Government’s Supplemental Memorandum (DE# 281 at 9,
7/25/15); Trial Transcript (DE# 145 at 16-17, 1/14/13).
12

The defendants maintain that they believed they were transporting money, not
drugs. During the December 9, 2011 meeting with Mr. Bryant, Agent Jackson referred
to the drugs as “keys,” “kilos” and twice used the word “cocaine.” See Government’s
Exhibit 53 at Tab C, Transcript of 12/9/11 Meeting at 7-8, 20, 21-22. Thus it is clear, at
least with respect to Mr. Bryant, that Mr. Bryant knew he was being paid to transport
drugs. The extent of Mr. McLendon and Mr. Mack’s knowledge of the drugs is
discussed below.
11

59a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 12 of 76

During this meeting, Agent Jackson used the words “keys” and “kilos” to refer to
the drugs being transported:
[Agent Jackson]: Exactly, I wanted, that’s kind of why I wanted to meet
your guys, and make sure every, cause we’ve done this before in Vegas,
and we had some sh*t pop off because what we found out was, the guy
we were payin’ wasn’t payin’ his guys properly. And then [SC]13
[Henry Bryant]: Well see, that, we had already discussed, my guys had
already discussed that part [SC]
[Agent Jackson]: Well, what, what, how, what’s the going, what’s the going
rate here? I mean, what are they, kind of, what are they, what, what kind
of numbers are they throwin’ out to you, and we can kind of figure out
what’s what. Cause right now it’s ten keys [PH], I mean that’s what’s
gonna be moving.
[Henry Bryant]: Okay.
[Agent Jackson]: Just so you know. Uh, it’s ten kilo’s.
[Henry Bryant]: Okay.
[Agent Jackson]: Uh, that’s what’s gonna be movin.’
[Henry Bryant]: Okay.
Government’s Exhibit 53 at Tab C, Transcript of 12/9/11 Meeting at 7-8 (emphasis and
footnote added). Agent Jackson also referred to the drugs as cocaine:
[Agent Jackson]: Now, now, let me, right now we’re only dealing with ten
keys [PH].
[Henry Bryant]: Okay.
[Agent Jackson]: So um, it’s not a incre-, incredible amount of cocaine, I
mean so it ain’t a ton. Know what I mean?
[Henry Bryant]: I understand, I understand.

13

The abbreviation “[SC]” stands for “Simultaneous Conversation.” See, e.g.,
Government’s Exhibit 53 at Tab D, Transcript of 12/10/11 Phone Call.
12

60a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 13 of 76

Id. at 20. (emphasis added).
In explaining why he was offering to pay the officers $3,500 each, Agent Jackson
cited a downturn in cocaine prices:
[Agent Jackson]: So, and, and the amount of money on cocaine prices
isn’t what it used to be as far as you know, [SC]
[Henry Bryant]: Yeah.
[Agent Jackson] . . . making up the difference and all that, so. My guys
gotta be . . you know what I’m sayin?’ Cause, I got to pay you, I got to pay
the two runners, you know, before it’s over with, you know, we twelve,
twelve out [of] the whole and we only makin’ cer- a certain amount of
profit. You know what I mean? So, I’m not tryin,’ tryin,’ to short change you
or anythin’ but I want you to, you to get taken’ and I want those two guys,
you orchestrated the whole thing, you know what I mean?
[Henry Bryant]: Right.
Government’s Exhibit 53 at Tab C, Transcript of 12/9/11 Meeting at 21-22 (emphasis
added). Mr. Bryant told Agent Jackson that his “brother” (Mr. McLendon) would receive
half of what Mr. Bryant was paid and stated:
because that’s why I told him, I said listen your takin’ just as much with
your ass on the line as I am . . . And I said, you got just as much to lose
as I do . . . I said, but you know, like I said, we’ve been in this thing
together for, since we’ve been eight years old.
Id. at 22. Agent Jackson offered Mr. Bryant $4,000 to split with Mr. McLendon. Id. at 23.
On December 10, 2011, Agent Jackson called Mr. Bryant. See Government’s
Exhibit 53 at Tab D, Transcript of 12/10/11 Phone Call at 2. During this phone call,
Agent Jackson used the word “dope” and Mr. Bryant abruptly hung up on him.
On December 15, 2011, Mr. Bryant met with Agent Jackson at Club Dolce and
expressed concern that their conversations could be overheard by law enforcement:
[Henry Bryant]: Okay. The reason why I’m asking you stupid questions
because I’m trying to figure out okay most of the time when we have
13

61a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 14 of 76

conversation[s], you know, when when you’re in this type of field you don’t
have straight out conversations.
[Agent Jackson]: Mhm.
[Henry Bryant]: The reason why that is is because everybody knows that
you can be almost bugged anywhere and the problem with that is is that if
you picked up, if you picked up a bug you know any little word that you
say can be conscruted [sic] as conspiracy, can be conscruted [sic] as ok
well this is one of the players with regard to major, minor whatever the
case may be and then that’s when you pick up tails. You know.
[Agent Jackson]: Mhm.
[Henry Bryant]: That’s why you got a dial tone.
Government’s Exhibit 53 at Tab E, Transcript of 12/15/11 Meeting at 3.
Mr. Bryant explained that the reason he hung up on Agent Jackson was because
of the word Agent Jackson had used:
[Henry Bryant]: Well, well the, the word the word that you caused to trigger
the hang up on was the Coca Cola word.
[Agent Jackson]: Oh okay.
[Henry Bryant]: And you said it outright and I’m like what the f**k?
[Agent Jackson]: I said that, outright?
[Henry Bryant]: Yeah and I was like what the f**k is he thinking?
[Agent Jackson]: Cause usually I say t-shirts or
[Henry Bryant]: No, you, no
[Agent Jackson]: I said it, said it straight out?
[Henry Bryant]: Straight out and that’s why you got the dial tone.
Government’s Exhibit 53 at Tab E, Transcript of 12/15/11 Meeting at 4. During this
exchange, Agent Jackson told Mr. Bryant that he usually used the word “t-shirts.” Id.
Agent Jackson was the only person who testified at trial that the word “t-shirts” was a
14

62a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 15 of 76

code word for cocaine.
Detective KayTee Tyson was brought into the investigation as an undercover
agent.14 He played the role of a drug dealer from the Northeast who was the owner of
the drugs that would be transported from Club Dolce. On December 21, 2011, Agent
Jackson met Mr. Bryant at a restaurant in Miami Beach. During this meeting, Agent
Jackson introduced Detective Tyson to Mr. Bryant.
Later that day, Mr. Bryant arrived at Agent Jackson’s office in Club Dolce with
Mr. McLendon. The purpose of this meeting was for Mr. Bryant and Mr. McLendon to
pick up the sham cocaine which they would be delivering to a parked car in the
Aventura Mall parking lot. During this meeting, Mr. McLendon expressed concern about
using a route which would require them to pass through a SunPass tollbooth:
[Mr. McLendon]: This right there is uh what you call that sh*t? Sunpass.
[Agent Jackson]: Right.
[Mr. McLendon]: Don’t want that.
[Henry Bryant]: Cause it takes pictures.
[Mr. McLendon]: So, the best way is Collins [Avenue].
Government’s Exhibit 53 at Tab F, Transcript of 12/21/11 Meeting at 9.
During this meeting, the following exchange took place:
[Detective Tyson]: We need to make sure that all nine of these get there.
[Henry Bryant]: Don’t worry about that. Do what you do.
[Detective Tyson]: Yeah I know you[’re] saying don’t worry about that but I
got to be worried about that.
14

Detective Tyson worked with Agent Jackson on a total of five cases and
considers Agent Jackson a friend.
15

63a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 16 of 76

[Henry Bryant]: (SC) I understand but . . . you gonna be right behind me
so don’t worry . . . about it . . .
[Detective Tyson]: Cause this money see what am saying . . .
[Henry Bryant]: I understand, I understand, I understand. (Pause) I have
no problem with that . .
Government’s Exhibit 53 at Tab G, Transcript of 12/21/11 Meeting at 10 (emphasis
added). At trial Detective Tyson explained that when he stated “[w]e need to make sure
that all nine of these get there,” he was talking about that nine kilograms of cocaine.
See Trial Transcript (DE# 145 at 194, 1/14/13). He explained his “this money” comment
as follows:
What I'm implying that this is money, meaning that these nine kilograms of
cocaine is worth a lot of money to me. So I need to make sure that when
I'm giving them to you, that they need to get there. No ifs, ands, or buts
about it. If you're telling me that you can do it, you need to be able to go
through with it.
Id. Detective Tyson testified that nine kilograms of cocaine was worth approximately
$300,000. Id.
Detective Tyson proceeded to mark the nine “bricks”15 of sham cocaine with a
15

At trial, Detective Tyson testified that this was the manner in which cocaine
was packaged:
Q. When, if ever, have you seen money packaged in this manner?
A. You would never see money packaged in that manner.
Q. Why?
A. For one, it's money. When you're delivering money to anyone, people
want to make sure that what they're getting there is money. So if I'm
delivering you some money, I'm not wrapping it up, covering and
concealing it, because whoever I'm giving it to, the first thing they're going
to say is, is this really what -16

64a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 17 of 76

marker and handed each one to Agent Jackson to place in a duffel bag resting on top
of a desk.16 This handoff took place in Mr. Bryant and Mr. McLendon’s presence. See

***
THE WITNESS: You really want to count what you're getting. You just
don't want someone to hand you something wrapped up in a shape of
cocaine or the shape of something that you don't know what it is.
So because if you give that to them, then what's to say that what's in that
package is actually money?
***
Q. I'm showing you a part of Government's Exhibit Number 19.
When, if ever, have you seen money packaged that like?
A. Never.
Q. What is packaged like that in your training and experience?
A. Cocaine and heroin.
Q. What does that represent?
A. A kilogram.
Q. Why is it packaged in kilograms?
A. When you're doing a large amount, typically the person is trying to
make as much money off of it as they can. So the average drug dealer,
the first thing they try to do is try to make it to a kilo. If they can make it to
a kilo, they know that they can take that money and flip it and make
another or buy other kilos off of it.
So in order -- it wouldn't be worth my time to come all the way down here
to Miami to be moving anything less than a kilo.
Trial Transcript (DE# 145 at 201-203, 1/14/13). Detective Tyson also testified that
based on his experience, you would not leave large sums of money in a parked car in a
mall parking lot in the drug business. Id. at 203-204.
16

At trial, Detective Tyson explained why he marked the bricks:
17

65a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 18 of 76

Government’s Exhibit 9 at Clip 2 (Video Clip).
Detective Tyson told Mr. Bryant and Mr. McLendon that the bricks needed to
arrive at their destination exactly as they were packaged: “How they how they are now, I
need to get a phone call later that’s how they need to be when they pick em up.”
Government’s Exhibit 53 at Tab G, Transcript of 12/21/11 Meeting at 11. Mr. Bryant and
Mr. McLendon then moved towards the desk where the duffel bag was resting so they
could get a closer look at the bricks inside the duffel bag. Mr. McLendon stated, “Come
in here for a second, I want you all to see how they is so I know exactly. We were here,
we’re here to do our job that’s it.” Government’s Exhibit 53 at Tab G, Transcript of
12/21/11 Meeting at 11; Government’s Exhibit 9 at Clip 2, (Video Clip).
Detective Tyson again emphasized to Mr. Bryant and Mr. McLendon that he
wanted the bricks to arrive exactly as they were packaged:
[Detective Tyson]: So how they are now that’s how they got to be.
[Octavius McLendon]: That’s how they will be[.]
[Detective Tyson]: No deviation, no taste, neither one of y’all get high
right?
[Octavius McLendon]: Pstt.
[Detective Tyson]: Alright just saying you, I gotta ask that question.
Government’s Exhibit 53 at Tab G, Transcript of 12/21/11 Meeting at 11 (emphasis
With the marker what I was trying to do with the kilos were put initials on
them, just to imply that, look, I'm putting this mark on them, putting this
mark on them, so when they get to where they're going to, that's how they
better arrive. So if this marker is gone off of there, then I know that
something happened to the kilos because that's not how I gave them to
you.
Trial Transcript (DE# 145 at 194, 1/14/13).
18

66a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 19 of 76

added). Agent Jackson then handed the duffel bag to Mr. Bryant. See Government’s
Exhibit 9 at Clip 2, (Video Clip). Mr. Bryant and Mr. McLendon left Agent Jackson’s
office with the duffel bag.
At trial Detective Tyson explained why he asked Mr. Bryant and Mr. McLendon if
either of them “get high:”
That question was for, to make sure that -- I didn't want a person that gets
high to transport my drugs for me, because at that point they could decide
to go in, take some more, test it for themselves to see what it was, if it was
good, if it wasn't.
So I wanted to make sure that, look, I'm telling you already not to go into
them. So I'm making sure now, you don't get high, so it won't be no
discrepancy with or any problems with getting to the point they need to get to.
Trial Transcript (DE# 145 at 196, 1/14/13). Detective Tyson testified that Mr. Bryant and
Mr. McLendon “were like insulted” by that question. Id.
At approximately 7:38 PM on December 21, 2011, Mr. Bryant and Mr. McLendon
returned to Agent Jackson’s office at Club Dolce. See Government’s Exhibit 9 at Clip 3,
(Video Clip). Detective Tyson tossed to Mr. Bryant bundles of cash totaling $10,500. Id.;
see also Trial Testimony (DE# 145 at 198, 1/14/13). Mr. Bryant and Mr. Tyson counted
the money in Agent Jackson’s office. See Government’s Exhibit 9 at Clip 3, (Video
Clip).
The police car that assisted Mr. Bryant and Mr. McLendon in making the
December 21, 2011 delivery was assigned vehicle number 1929A. This was the same
vehicle number that was assigned to Mr. Mack’s police car. See Government’s Exhibit
33, Trial Transcript (DE# 145 at 184, 1/14/13). Mr. Bryant and Mr. Mack exchanged text
messages and met up on December 21, 2011. See Government’s Exhibit 35d, Metro

19

67a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 20 of 76

PCS Subscriber Information.17
On the morning of January 14, 2012, Agent Jackson, Detective Tyson and Mr.
Bryant were outside a restaurant. This was the first time that Agent Jackson and
Detective Tyson would be meeting Mr. Mack. While they were waiting for Mr. Mack to
arrive, the following exchange took place between Agent Jackson and Mr. Bryant:
[Agent Jackson]: So, what’s the, what’s the story? So we can get this thing
moving?
[Henry Bryant]: Well, I’m ready to go. He’ll be here in two minutes.
[Agent Jackson]: Alright, so what you was talking about? Cause we can
talk now, you know. On the phone you was saying something about.
[Henry Bryant]: What, what I’m saying is, is that, he knows exactly
what we’re doing. So, so there’s no secrets to him.
[Agent Jackson]: Okay.
[Henry Bryant]: You know, the only thing about it is, is that, his thing
of it is that, the, the less he knows, the better off he is.
[Agent Jackson]: Right, right, right.
Government’s Exhibit 53 at Tab I, Transcript of 1/14/12 Meeting at 5 (emphasis added).
Agent Jackson expressed concern about whether Mr. Mack knew what was going on
and Mr. Bryant assured Agent Jackson that Mr. Mack was aware:
[Henry Bryant]: So, he’s only a minute away, oh I was gonna say, what the
f*ck I do with my phone.
[Agent Jackson]: Yeah cause you had me a little worried when you was,
like . . .
[Henry Bryant]: No, no, no, no. But, . . .
17

The jury did not find Mr. Mack guilty of attempting to possess with intent to
distribute cocaine with respect to the December 21, 2011 delivery. See Verdict (DE# 86
at 2, 10/11/12).
20

68a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 21 of 76

[Agent Jackson]: . . . you was like, . . .
[Henry Bryant]: . . . I’m not gonna sit there and talk in front of LEOs
[Agent Jackson]: you know no, no, no. You was like, he do, but he don’t
know. That’s all I was . . .
[Henry Bryant]: No, no, no, no, he, he knows about it.
[Agent Jackson]: Oh.
[Henry Bryant]: But, like I said, the less . . .
Government’s Exhibit 53 at Tab I, Transcript of 1/14/12 Meeting at 7-8 (emphasis
added).
Mr. Mack arrived in his police car (vehicle number 1929A). He wore his full police
uniform but no name tag. See Trial Transcript (DE# 145 at 206, 1/14/13). Mr. Bryant
introduced Mr. Mack using the pseudonym “James.” Id. Mr. Mack was wearing his
sidearm. Id.
The restaurant was crowded that morning and so they moved their meeting to
another restaurant. See Trial Transcript (DE# 145 at 207, 1/14/13). Detective Tyson
and Mr. Bryant rode together to the second restaurant. Id. at 207-208. During the car
ride, Mr. Bryant expressed concern to Detective Tyson about the December 10, 2011
phone call when Agent Jackson used the word “dope.” Government’s Exhibit 53 at Tab
J, Transcript of 1/14/12 Meeting at 9-10. Mr. Bryant also relayed to Detective Tyson his
past experience: “Well, what, what I’m saying is, these guys, these guys used to move,
we talkin’ about kiloton . . . . You know what I’m saying? And, I’ve been doing this since
I’ve been a f*cking shorty.” Id. at 10 (emphasis added). Detective Tyson explained to
the jury that Mr. Bryant meant, he’d moved a lot of cocaine and that he’d been doing

21

69a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 22 of 76

this for a long time. See Trial Transcript (DE# 145 at 214, 1/14/13). During the car ride,
Mr. Bryant also relayed to Detective Tyson, Mr. McLendon’s role:
You understand what I’m saying? And that’s the reason why he’s so
important. The other part of that is, the reason why he’s so important is, is
because we’re carrying, we’re carrying not only weight, we’re carrying
weapons as well. . . . And I don’t make that no secret. I tell ’em
everywhere I go, just like my, my guys carry weapons. I got my weapons on me.”
Government’s Exhibit 53 at Tab J, Transcript of 1/14/12 Meeting at 12. Mr. Bryant also
gave assurances to Detective Tyson that Mr. Mack knew what was going on:
[Detective Tyson]: Well, like I said, let's just you saying everybody
knows, everybody knows because, you know, I can't take that risk
that you say…
[Henry Bryant]: I understand. I understand.
[Detective Tyson]: If this dude know but he don't know that he get
there and like well, yo, I ain't down for that. And, then, he rolls out,
then we jammed. I ain't…
[Henry Bryant]: No, no.
[Detective Tyson]: … I can't deal with you no more if that was that.
[Henry Bryant]: Right. No. That's not, ha, but that's why I brought my
guys to meet you.
[Detective Tyson]: Okay. Alright.
[Henry Bryant]: You understand what I'm saying? 'Cause normally,
my guys don't show faces at all. None of them.
[Detective Tyson]: Right, right.
[Henry Bryant]: And this guy here has more to lose than anybody
else, 'cause he's a sergeant.18

18

Mr. Mack states that he was not a sergeant. See Mack’s Supplemental Reply
(DE# 289 at 17 n.5, 9/6/16).
22

70a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 23 of 76

[Detective Tyson]: Okay.
[Henry Bryant]: You understand? 'Cause he's got his guys up underneath
him. That's why I brought him, instead of the little guy. Because
whatever I say to him, goes, period.
[Detective Tyson]: Right.
[Henry Bryant]: And he makes it happen. Just like last time he made it
happen.
[Detective Tyson]: Okay.
[Henry Bryant]: But, I, I said that, you know,
[Detective Tyson]: And that's, that's, you know, I mean, that's, the part of
cause that's for you to work out.
[Henry Bryant]: Right.
[Detective Tyson]: I just wanted make sure that they know.
[Henry Bryant]: They do know. And, like I said…
[Detective Tyson]: That's what I'm saying.
[Henry Bryant]: … that's the reason why I'm telling you that they know
and then you can talk to them to make sure he knows. 'Cause I don't
have a problem with that.
[Detective Tyson]: Alright, well tell …
[Henry Bryant]: But, but, I wanted to make,
[Detective Tyson]: On my own, they need to know exactly what it is
because if you, if you got somebody that's coming that don't know
and at the end, and at the end of the day, the Friday like I ain't come, I
can't do. Everything is done. Now I'm, now I'm jammed up because
now I'm looking at you sideways.
[Henry Bryant]: Right.
[Detective Tyson]: Because, oh, we bring somebody don't know.
[Henry Bryant]: Right.
23

71a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 24 of 76

[Detective Tyson]: It's all supposed to be worked out. I can't risk
somebody not knowing and trying to show up then turn around and
say, no, I can't do it. Then, now, they know who I am.
[Henry Bryant]: Right. Well, that's …
[Detective Tyson]: I can't, I can't have them know who I am.
[Henry Bryant]: … that was …
[Detective Tyson]: That was the whole, that was the whole thing where I
like, yo,
[Henry Bryant]: …that was…
[Detective Tyson]: … I told him, say, yo, I need to know who these
people are to make sure they on board for real.
Id. at 16-17 (emphasis and footnote added).
Agent Jackson, Detective Tyson, Mr. Bryant and Mr. Mack sat at a table at the
second restaurant. At trial, Detective Tyson described the purpose of the meeting as
follows:
Q. Now, what was the purpose of this meeting?
A. The purpose of this meeting was for Henry [Bryant] to introduce other
members of his team, specifically law enforcement that will be escorting
the drugs from our club to the drop car.
Q. Why is it important for the drug dealers to meet the law
enforcement?
A. Well, for us in this situation, in this role, it was important for me to
meet him, well, because once I know that this guy knows exactly
what he's doing, so if we get caught, he's just in trouble as we are,
but we needed that law enforcement's presence, so that if we would get
pulled over or the car was to get pulled over, that they could intervene.
You know, say they are doing something or they're doing some kind of
investigation just to throw the regular cops off from stopping our vehicle.
Q. And so based on your experience, when, if ever, would someone who's
24

72a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 25 of 76

transporting cocaine on behalf of someone else invite a cop to a meeting
with the people he's transporting cocaine for?
A. Never, really.
Q. What would it indicate to you?
A. That this cop, he's dirty.
Trial Transcript (DE# 145 at 209, 1/14/13) (emphasis added).
During this meeting, Detective Tyson reiterated the importance of everyone
having the same knowledge of the transaction:
[Agent Jackson]: Yeah, so we appreciate you getting with us.
[Daniel Mack]: Not a problem.
[Agent Jackson]: You know, what I'm saying, with things like they are
you know, we gotta make sure, everybody good you know what I
mean. So, you don't want you don't want no mistakes when you
know things like this in order you know what I mean? Everybody
gotta be move as one, you know what I mean.
[Daniel Mack]: That's true.
[Agent Jackson]: So, that's one of the main thing, we just wanted…
[Detective Tyson]: The thing, the thing is, that's my, that's my man that's
my man of my man, alright? Can't have them go down without me, cause
I'm the overseer. I'm a use the (UI) make sure the thing is straight. The
reason why I was stressing you know cause we gotta to make sure
everybody is on the same, on the same point, on the same tuning.
Because, if somebody get there and all of sudden decide to change
their mind, I'm f*cked. Ain't nothing going down. I ain't dealing with Yo,
I'm cutting everybody off.
[Daniel Mack]: Right.
[Detective Tyson]: 'Cause I can't risk that I'm coming down here, this
suppose to be set up and everybody on point till somebody get there
and they feeling a little shaky, like, well, I don't wanna do this now,
whatever. Well, then, they say, they gonna roll out, they roll out, I'm done
and that's it. I can't deal with Yo, I ain't, I can't have him call (UI). I can't
25

73a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 26 of 76

have him contact you no more because now, they know who I am. If we
know all we all know each other. If that person decides to go somewhere
else, that's like, yo, he, he plan on robbing me. He plan on taking
something from me.
[Daniel Mack]: You right.
[Detective Tyson]: So, I can't get down like that. So, if you got somebody
that ain't, that ain't gonna keep it hundred trying to roll the honey with, ain't
nobody, ain't nothing going down. It ain't doing nothing. Ain't nothing ain't
nobody making no moves. Ain't nobody making no money. It ain't nothin'
happenin'. That's, that's just the bottom line. I, I, no, I ain't try to come off
as more hard but, I got business I gotta do. You know what I mean?
[Daniel Mack]: I don't think it's hard, I think is firm. So, I'm not worried
about that.
[Agent Jackson]: Yeah.
[Detective Tyson]: So that's, that's, that's the bottom line. If, if somebody
ain't right, ain't nothing going down. Walk away nice to meet y'all. If y'all
see me come through, don't give me no ticket.
(Laughter)
[Detective Tyson]: That's it, that's it, you know, no hard…
[Daniel Mack]: You got my one spot and you ain't gonna be riding in it.
(Laughter)
[Detective Tyson]: No, ain't no hard feelings.
Government’s Exhibit 53 at Tab K, Transcript of 1/14/12 Meeting at 23-24 (emphasis
added).
Detective Tyson and Mr. Mack also discussed police officers in Miami being laid
off. See Government’s Exhibit 53 at Tab K, Transcript of 1/14/12 Meeting at 37-39. Mr.
Mack told Detective Tyson and Agent Jackson that the police department was “slated to
lose a hundred and fifty-four people at the end of the month” and that they were already
down 600. Id. at 39. Detective Tyson stated, “[w]e ready to get rich,” in response to the
26

74a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 27 of 76

news that there were a significant number of police layoffs. Id. at 39. Detective further
stated, “Nobody down here be working. We can, be here all the time.” Id. Agent
Jackson stated “It’s gonna be wide open.” Id.
At trial, Detective Tyson explained his remarks as “[m]eaning that I was going
back home to tell my boss that, look, all the drugs, whatever we need to move through
here, we good to go. Police getting laid off down here.” Trial Transcript (DE# 145 at
220, 1/14/13).
Detective Jackson walked out of the restaurant with Mr. Mack and the following
conversation took place:
[Agent Jackson]: You know what I’m saying, trying to make it work and
you know, if you don’t like the way something going or you know, let us
know cause this new territory for us you know.
[Daniel Mack]: Okay.
[Agent Jackson]: So, you know, we got this many, this many t-shirts
coming through you know what I mean, we just want to make sure
everything is right you know what I mean.
[Daniel Mack]: I don’t hate, so that’s why I respect and understand
everything that he mentioned.
[Agent Jackson]: Right, cause ain’t nobody trying to get locked up you
know what I mean, you hear me.
[Daniel Mack]: You know how they do us.
[Agent Jackson]: . . . You hear me[.]
[Daniel Mack]: . . . They do (UI)
[Agent Jackson]: Hey, hey, hey, it ain’t gonna be no question, you know
what I mean, they gonna do us bad, you know what I mean, like “you got
how many on you?”
[Daniel Mack]: You right. Be safe to you man.
27

75a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 28 of 76

Government’s Exhibit 53 at Tab L, Transcript of 1/14/12 Meeting at 61 (emphasis
added).19
In the afternoon of January 14, 2012, Mr. Bryant and Mr. McLendon arrived at
Agent Jackson’s office in Club Dolce. See Government’s Exhibit 13 at Clip 1 (Video
Clip). Agent Jackson placed a duffel bag on his desk and proceeded to fill the duffel
bag with ten “bricks” of sham cocaine in Mr. Bryant and Mr. McLendon’s presence. Mr.
McLendon counted the bricks and commented that he “appreciated the smaller [bag]
size” because it had “[b]etter maneuverability, less attention getter too.” Government’s
Exhibit 53 at Tab L, Transcript of 1/14/12 Meeting at 3. Agent Jackson handed the
duffel bag containing the sham cocaine to Mr. McLendon. Mr. Bryant and Mr.
McLendon confirmed their plans with Detective Tyson and Agent Jackson concerning
where to deliver the duffel bag. See Government’s Exhibit 13 at Clip 1 (Video Clip). Mr.
Bryant and Mr. McLendon then left Agent Jackson’s office. Id.
Surveillance photographs taken on January 14, 2012 show a marked police
vehicle with the number 1929A painted on it (Mr. Mack’s police vehicle) following Mr.
19

As previously noted, Agent Jackson was the only witness at trial who testified
that the word “t-shirts” was commonly understood to mean cocaine:
Q. And you also say, “This many, this many T-shirts coming through.”
What are you talking about there?
A. The cocaine. I was very specific with the term I used just because of
the previous event that happened with Henry Bryant, and I worked drugs
in Atlanta. That's what I do. I'm an agent on the drug squad. And T-shirts
is a very common drug term used in Atlanta for drugs. So that's the
terminology I knew to use.
Trial Transcript (DE# 145 at 93, 1/14/13) (emphasis added). During cross-examination,
Agent Jackson clarified that the code word “t-shirts” was used “[n]ot just Atlanta . . . but
everywhere.” Id. at 115.
28

76a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 29 of 76

Bryant and Mr. McLendon’s car. See Government’s Exhibit 39a-d. The duffel bag was
delivered to a parked car in a parking lot on January 14, 2012. See Government’s
Exhibit 20a-d. Mr. Bryant and Mr. McLendon then returned to Club Dolce to collect a
cash payment for the delivery of the sham cocaine. See Government’s Exhibit 13 at
Clips 2 and 3 (Video Clips).
C.

The DOJ-OIG’s Investigation of Agent Jackson
In April 2013, the Department of Justice Office of Inspector General (“DOJ-OIG”)

began its investigation of Agent Jackson.20 As part of its investigation, DOJ-OIG
obtained documents and interviewed witnesses. The focus of the DOJ-OIG
investigation was Agent Jackson’s improper relationship with former FBI registered
source Mani Chulpayev. The relevant time frame of the investigation was from January
2012 through April 2013.21
Mr. Chulpayev was a Russian mobster based in New York. In the late 1990s, he
was arrested for crimes he committed in New York. Mr. Chulpayev was convicted and
sentenced to a term of imprisonment. He cooperated with the government and, for a
time, was an FBI source.
In the mid-2000s, while serving as an FBI source, Mr. Chulpayev was involved
in vehicle-related crimes, including stolen vehicles, vehicle identification number (“VIN”)
fraud and subleasing. He was convicted and served a term of imprisonment.

20

The investigation was first assigned to Agent Phil Van Nimwegen, an agent in
Atlanta. In November 2013, Agent Susan Howell took over the investigation.
21

At the evidentiary hearing, Agent Howell explained that DOJ-OIG’s
investigation into Agent Jackson’s misconduct was limited to these dates because
Agent Jackson received items of value from Mr. Chulpayev in May 2012 and Mr.
Chulpayev was incarcerated in 2013.
29

77a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 30 of 76

In January 2010, Mr. Chulpayev became a registered source for the FBI in
Atlanta. He remained a registered source until February 3, 2011.22 During this time,
Agent Jackson became Mr. Chulpayev’s handler.
Mr. Chulpayev owned a luxury car rental business. Agent Jackson learned that,
from time to time, Mr. Chulpayev would get in trouble with the local police because
someone was either stopped in one of Mr. Chulpayev’s cars or there was an issue
related to the car’s registration or VIN number.
1.

Agent Jackson’s Investigation of Decensae White and Gary Bradford

In 2012, Agent Jackson was the case agent in an undercover narcotics
investigation targeting suspected drug traffickers Decensae White and Gary Bradford.
Mr. Chulpayev was assisting Agent Jackson with the undercover investigation. Mr.
White was an associate of Mr. Chulpayev and had invested approximately $150,000 to
$160,000 into Mr. Chulpayev’s business.
The narcotics investigation originated out of Atlanta, but a meeting with Mr.
White and Mr. Bradford was scheduled for Memorial Day weekend in Miami. Prior to
traveling to Miami, Agent Jackson had prepared a memorandum to the FBI field office
in Miami advising that he would be traveling to Miami. The memorandum stated that
there would be an undercover agent involved in the investigation. It also stated that
there was a source or a confidential source who would be making introductions. The
memorandum did not identify the source by name. By that time, Mr. Chulpayev had not
been a registered source for the FBI in over a year.

22

Mr. Chulpayev was terminated as a registered source because he left the
Atlanta area.
30

78a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 31 of 76

Detective KayTee Tyson was the undercover agent who participated in the
investigation. Detective Tyson was playing the undercover role of a drug dealer.
Detective Tyson flew to Miami to attend the Memorial Day weekend meeting. Mr.
Chulpayev introduced Detective Tyson to Mr. White and Mr. Bradford at the meeting.
Agent Jackson told Detective Tyson that Mr. Chulpayev was a source.
Agent Jackson provided Detective Tyson with a convertible BMW 6 Series23 to
use during his stay in Miami. Detective Tyson did not ask Agent Jackson where he got
the car. It was not unusual for the FBI to provide high-end cars for Detective Tyson to
use during an investigation. Detective Tyson later learned that this car had been
provided by Mr. Chulpayev. Mr. Chulpayev had also provided Agent Jackson with a
second convertible BMW 6 Series for Agent Jackson to use for that weekend. Agent
Jackson was the case agent and had no need for a luxury automobile to support his
role in the case. There is no evidence that Mr. Chulpayev was reimbursed by anyone
for the use of those vehicles.
In addition to use of a convertible BMW 6 Series, Agent Jackson provided
Detective Tyson with $1,500 in cash. Detective Tyson did not ask Agent Jackson where
he got this money. It is not unusual for the FBI to provide undercover agents with cash
to use during an investigation. During the DOJ-OIG investigation, Detective Tyson
learned that the money came from Mr. Chulpayev. At some point, Agent Jackson
sought reimbursement of the $1,500 from the FBI. Agent Jackson paid back that money
to Mr. Chulpayev.
Under FBI policy, it is improper for an FBI agent to obtain use of vehicles and
23

Agent Howell testified that the vehicle may have been a Mercedes.
31

79a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 32 of 76

money from a source. Detective Tyson was required to file an FBI-302 report in
connection with his trip to Miami. He did not file the FBI-302 report until November 7,
2012, approximately five months later.
2.

Agent Jackson’s Involvement in the Vernell Murder Investigation

In April 2012, Melvin Vernell, an Atlanta-based rapper, was arrested for driving a
stolen vehicle. Mr. Vernell had leased that vehicle from Mr. Chulpayev. Mr. Vernell
intended to fight the charge and raise the defense that the vehicle was not stolen, it was
leased from Mr. Chulpayev. Mr. Vernell’s attorney, who was also Mr. Chulpayev’s
attorney, tried to present a copy of the lease agreement in court. The prosecutor
wanted the attorney to produce the original lease agreement. Mr. Vernell’s attorney
called Mr. Chulpayev and Mr. Chulpayev was upset about being contacted by
telephone in open court.
In June 2012, Mr. Chulpayev hosted a party in Miami to celebrate his birthday.
He invited Decensae White. During the party, Mr. White confided in Mr. Chulpayev that
he believed Mr. Vernell had stolen marijuana from Mr. White. Mr. White was upset with
Mr. Vernell over the theft and wanted to know if Mr. Vernell was using one of Mr.
Chulpayev’s vehicles. Mr. White knew that Mr. Chulpayev’s vehicles were equipped
with GPS trackers. Mr. White wanted to locate Mr. Vernell. At some point, Mr.
Chulpayev gave Mr. White either the password to the GPS login or the GPS
coordinates for the vehicle driven by Mr. Vernell.24
24

The record is inconsistent concerning whether Mr. Chulpayev provided to Mr.
White the GPS password, the GPS coordinates to the hotel where Mr. Vernell was
staying or the GPS coordinates to the hospital or hospital parking garage where Mr.
Vernell was murdered. These factual discrepancies are not material for purposes of
ruling on the instant motions.
32

80a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 33 of 76

On June 7, 2012, Mr. Vernell was murdered in a hospital parking garage in
Sandy Springs, Georgia. Mr. Vernell was murdered in a vehicle leased from Mr.
Chulpayev. At the time of his murder, Mr. Vernell’s criminal case for driving a stolen
vehicle was still open.
Mr. Chulpayev and Agent Jackson spoke on the telephone and exchanged text
messages “a lot . . . before the murder [and] after the murder.” Transcript (DE# 257 at
306, 6/7/16). Mr. Chulpayev told Agent Jackson that the Sandy Springs police were
trying to interview him about Mr. Vernell’s murder.25 Mr. Chulpayev also told Agent
Jackson that Mr. Chulpayev believed Mr. White was involved in the murder.
On June 11, 2012, Agent Jackson contacted the Sandy Springs Police
Department and spoke with Detective J.T. Williams. Agent Jackson told Detective
Williams that Agent Jackson had a source with information about who was involved in
the murder. Agent Jackson also told Detective Williams that the source was Agent
Jackson’s source and that the source was more comfortable speaking with Agent
Jackson because the source had had issues with local law enforcement in the past.
Agent Jackson told Detective Williams that he was going to help the Sandy Springs
Police Department, but he was not going to provide them with direct access to this
source. Agent Jackson also told Detective Williams that there was a narcotics
component to Mr. Vernell’s murder and suggested that the murder investigation of Mr.
25

Agent Howell later testified that it was Mr. Chulpayev who was trying to contact
the Sandy Springs Police Department because Mr. Vernell was murdered in one of Mr.
Chulpayev’s vehicles. See Transcript (DE# 257 at 311, 6/7/16). The order on the
motion to suppress filed by Mr. Chulpayev in the state court proceeding states that Mr.
Chulpayev contacted the Sandy Springs Police Department shortly after learning of the
murder, identified himself and attempted to provide information pertinent to the vehicle
and the investigation. See Government’s Exhibit 63 at 2.
33

81a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 34 of 76

Vernell could possibly be turned into a federal investigation.
Agent Jackson notified his supervisors of Mr. Vernell’s murder and met with the
United States Attorney’s Office in Atlanta. Agent Jackson told them that he would be
investigating Mr. Vernell’s murder, meaning the FBI was going to try to tie Mr. Vernell’s
murder in with the narcotics investigation. As part of its investigation into Mr. Vernell’s
murder, the FBI interviewed a witness in Alabama, obtained pen registers and tried to
obtain a phone tap.
On July 30, 2012, Agent Jackson interviewed Mr. Chulpayev with an FBI task
force officer present.26 During the interview Mr. Chulpayev told Agent Jackson that he
did not provide the GPS coordinates to the hospital parking garage where Mr. Vernell
was murdered. Rather, Mr. Chulpayev provided the password for the GPS tracker and
the password was used to trace Mr. Vernell to the hotel where he was staying.
In October 2012, Agent Jackson met with detectives at the Sandy Springs Police
Department to discuss the murder investigation. Agent Jackson revealed to the Sandy
Springs detectives for the first time that he had interviewed Mr. Chulpayev in July 2012.
The detectives became upset with Agent Jackson for not disclosing this information.
During this meeting, Agent Jackson also revealed that Mr. Chulpayev had provided the
GPS coordinates to the hospital where Mr. Vernell was murdered. The Sandy Springs
police detectives responded that if that was what Mr. Chulpayev had done, then Mr.
Chulpayev was a co-conspirator to the murder. Agent Jackson then retracted his

26

Agent Howell later testified that a third person, an FBI agent, was present in
the room during Mr. Chulpayev’s interview. See Transcript (DE# 257 at 319, 6/7/16).
She also agreed with the government that all three officers – Agent Jackson, the task
for officer and the FBI agent – interviewed Mr. Chulpayev. Id.
34

82a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 35 of 76

statement and said that what he meant was that Mr. Chulpayev had provided the GPS
coordinates to the hotel where Mr. Vernell was staying.
On October 24, 2012, Agent Jackson allowed the Sandy Springs detectives to
interview Mr. Chulpayev. Agent Jackson did not participate in that interview, but
required the Sandy Springs Police Department to interview Mr. Chulpayev at the FBI
office in Atlanta.27
On January 25, 2013, Agent Jackson called Detective Williams of the Sandy
Springs Police Department and told Detective Williams he had to tell him something,
but he wanted to keep it between them. Agent Jackson then disclosed to Detective
Williams that Mr. Chulpayev was not an FBI source and had not been an FBI source for
some time. As soon as the call ended, Detective Williams reported this information to
his chain-of-command and it was ultimately reported to the FBI in Atlanta.
At some point, Mr. White, Mr. Bradford and two other individuals were arrested
for the murder of Mr. Vernell. Mr. Chulpayev was also arrested and charged with
various crimes arising from Mr. Vernell’s murder. Mr. Chulpayev sought to suppress
statements he provided to Agent Jackson and law enforcement officers. See
Government’s Exhibit 63. The court held a hearing on Mr. Chulpayev’s motion to
suppress. Id. at 5. Agent Jackson was called to testify at the suppression hearing. Id.
Agent Jackson invoked his Fifth Amendment rights and did not provide testimony. Id.
The court suppressed Mr. Chulpayev’s statements made during the July 2012 interview
with Agent Jackson and the October 2012 interview with the Sandy Springs detectives.
27

The order on the motion to suppress filed in Mr. Chulpayev’s criminal case
states that Agent Jackson entered the room towards the end of the interview. See
Government’s Exhibit 63 at 7 n.7.
35

83a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 36 of 76

Id. at 9-10. The court “conclud[ed] that Agent Jackson’s involvement in procuring . . .
[the] interview[s] significantly taint[ed] said interviews.” Id.
3.

Agent Jackson’s Interactions with Amanda Smith’s Attorney

Mr. Chulpayev had used Amanda Smith as a straw buyer to purchase vehicles
for his business. Ms. Smith would purchase luxury vehicles and allow Mr. Chulpayev to
sublease them. Under their agreement, Mr. Chulpayev would make the loan payments
on the vehicles. When Mr. Chulpayev stopped paying loans, Ms. Smith hired an
attorney.
In the summer of 2012, Agent Jackson called Ms. Smith’s attorney on behalf of
Mr. Chulpayev. Agent Jackson acted as an intermediary between the attorney and Mr.
Chulpayev. Ms. Smith’s attorney told Agent Jackson that Mr. Chulpayev’s fraud had to
be reported and that if Agent Jackson did not report the fraud, the attorney would report
it to internal affairs. Agent Jackson told the attorney that he could have the attorney
arrested for extorting a federal agent.
Under FBI policy, it is improper for an agent to contact someone on behalf of a
source. It is also improper to threaten someone with arrest for seeking to make a report
to internal affairs. Agent Howell testified that she believes Ms. Smith's attorney filed a
civil suit against the FBI based on what occurred in the summer of 2012.

36

84a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 37 of 76

4.

Items of Value Provided to Agent Jackson by Mr. Chulpayev28

For purposes of the instant motion, the government does not dispute that Mr.
Chulpayev provided Agent Jackson with the following items of value which were
unrelated to Agent Jackson’s undercover work: (1) tickets to Miami Heat games on four
occasions (May 28, 2012, June 17, 2012, December 1, 2012 and February 10, 2013);
(2) a room at the Fontainebleau Hilton Hotel in Miami Beach from February 16-18,
2013; (3) use of an Audi A8 from February 16-18, 2013 and (4) a $3,500 cash payment
made by Mr. Chulpayev on or about January 12, 2013 to the account for Agent
Jackson’s undercover credit card.29 See Government’s Exhibit 58a.
The government also does not dispute that Mr. Chulpayev provided Agent
Jackson with the following items of value which were related to Agent Jackson’s

28

The parties dispute the relevant time frame of Agent Jackson’s misconduct.
The government argues that “[t]he trial of this case concluded on October 10, 2012,
making relevant any misconduct by Jackson that was not disclosed prior to the end of
trial.” Government’s Supplemental Memorandum (DE# 281 at 3, 7/25/15). Mr. Mack
maintains that December 19, 2012 is the relevant cutoff date because that was the date
the trial court stated it was denying Mr. Mack’s renewed motion for severance. See
Mack’s Supplemental Memorandum (DE# 272 at 2 n.2, 6/30/15); Mack’s Supplemental
Reply (DE# 289 at 6 n.2, 9/6/16) (stating that “because the government has a
continuing Brady obligation, Mr. Mack maintains all those gifts and benefits improperly
accepted [by Agent Jackson] prior to the date of sentencing – when the district court
ruled on the last pending motion for new trial – are relevant to the instant motion.”). In
any event, the undersigned finds that Agent Jackson was engaged in misconduct while
the instant action was pending including through trial and the sentencing hearing of the
defendants on December 19, 2012. There is no record evidence that Agent Jackson
was engaged in misconduct during the investigation of the instant case which ended in
January 2012.
29

On December 31, 2012, Agent Jackson made a $4,256.18 purchase at
Bamboo Nightclub in Miami Beach using his undercover credit card. Mr. Chulpayev’s
$3,500 cash payment was made to offset that purchase.
37

85a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 38 of 76

undercover work:30 (1) tickets to Miami Heat game on December 15, 2012; (2) use of a
BMW from May 25-28, 2012 (Mr. Chulpayev also provided Detective Tyson with use of
a BMW during this time, see Memorial Day weekend 2012 discussion above); (3) use of
a Cadillac from July 13-15, 2012; (4) use of a Mercedes from August 2-5, 2012; (5) use
of a vehicle from August 23-27, 2012; (6) use of a BMW X6 from September 13-15,
2012 (Agent Jackson was in Miami for trial preparation in the instant case);31 (7) use of
a BMW X6 and M35 Infiniti from September 18-21, 2012 (Agent Jackson was in Miami
for trial preparation in the instant case); (8) use of a 6 Series BMW from September 30October 5, 2012 (Agent Jackson was in Miami for trial preparation and for the trial in the
instant case); (9) use of a vehicle from October 27-29, 2012; (10) use of a vehicle from
November 10-13, 2012; (11) use of a vehicle from November 30-December 2, 2012;
(12) use of a Lamborghini from December 12-17, 2012 (Mr. Chulpayev also provided
Detective Tyson with use of a Mercedes during this time period) and (13) use of a
vehicle from December 29-January 1, 2013. See Government’s Exhibit 58b.
Additionally, on November 5, 2012, Mr. Chulpayev purchased a $2,000 wedding
band on behalf of Agent Jackson. The band was purchased from a friend of Mr.
Chulpayev who was a jeweler and was obtained at close to fair market value. In
December 2012, Mr. Chulpayev purchased a designer watch on behalf of Agent

30

The defendants maintain that the purpose for which Mr. Chulpayev gave Mr.
Jackson gifts is immaterial “since the gifts were nonetheless improper.” Mack’s
Supplemental Memorandum (DE# 272 at 6, 6/30/15). The undersigned agrees with the
defendants that the purpose for which Mr. Chulpayev gave Mr. Jackson gifts does not
lessen the fact that Agent Jackson’s actions violated FBI policy.
31

Although Agent Jackson had other open cases in South Florida at the time,
Agent Howell found no evidence he was working on those cases when he came to
Miami for trial preparation in the instant case.
38

86a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 39 of 76

Jackson. The watch was purchased from a jeweler who was a friend of Mr. Chulpayev
at a “good customer discount.” On several occasions in 2012 or 2013, Mr. Chulpayev
purchased shoes on behalf of Agent Jackson at a discounted price. Agent Jackson
reimbursed Mr. Chulpayev for the wedding band, the watch and the shoes. Beginning in
the summer of 2012, Agent Jackson would eat meals at an Italian restaurant owned by
a friend of Mr. Chulpayev and would only pay for the tip. Mr. Chulpayev would also lend
Agent Jackson high-end watches to wear when Agent Jackson was in Miami.
At the end of 2012 or at the beginning of 2013, Agent Jackson’s supervisors told
him to stop having contact with Mr. Chulpayev. Agent Jackson continued to have
contact with Mr. Chulpayev.
Although he has not yet been terminated, Agent Jackson has been relieved of
his duties as an FBI agent. As of the date of completion of the parties’ briefs, the
DOJ-OIG’s investigation into Agent Jackson’s misconduct was ongoing and Agent
Jackson had not yet been charged with any misconduct. Detective Tyson is not under
investigation by the DOJ-OIG.
During the May 31, 2016 evidentiary hearing, Agent Howell testified that if Agent
Jackson were to be charged with obstruction of justice in connection with the murder of
Mr. Vernell, that misconduct by Agent Jackson would rank 10 out of 10. Case Agent
Fowler testified that he would not have used Agent Jackson in this investigation if he
had known that Agent Jackson had integrity issues. Transcript (DE# 257 at 128,
6/7/16).
ANALYSIS
The defendants argue that they are entitled to a new trial under Brady v.

39

87a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 40 of 76

Maryland, 373 U.S. 83 (1963) and Rule 33 of the Federal Rules of Criminal Procedure.
The undersigned will address the requirements of Brady and then proceed to address
Rule 33.
A.

Brady Violation
Under Brady,
the defendant must show that (1) the government possessed favorable
evidence to the defendant; (2) the defendant does not possess the
evidence and could not obtain the evidence with any reasonable
diligence; (3) the prosecution suppressed the favorable evidence; and (4)
had the evidence been disclosed to the defendant, there is a reasonable
probability that the outcome would have been different.

United States v. Vallejo, 297 F.3d 1154, 1164 (11th Cir. 2002) (citing United States v.
Meros, 866 F.2d 1304, 1308 (11th Cir. 1989)). The government does not dispute that
the second element of Brady – that the defendants did not possess and could not have
obtained the evidence of Agent Jackson's misconduct through reasonable diligence – is
met here. See Government's Omnibus Response (DE# 191 at 12, 11/2/15).
Accordingly, the undersigned will only address the three remaining elements of Brady:
(1) the government possessed evidence favorable to the defendant; (2) the prosecution
suppressed the favorable evidence and (3) had the evidence been disclosed to the
defendant, there is a reasonable probability that the outcome would have been
different.
1.

Whether the Government Possessed Favorable Evidence to the
Defendants

The first prong of Brady is whether the government “possessed” evidence
favorable to the defendants. This prong has two components: the withheld evidence
must be both favorable to the defendants and in the government’s possession. The

40

88a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 41 of 76

defendants easily meet the favorable evidence requirement because “[e]vidence
favorable to the accused includes impeachment evidence.” United States v. Newton, 44
F.3d 913, 918 (11th Cir. 1994) (citing United States v. Bagley, 473 U.S. 667, 682
(1985)). Here, evidence of Agent Jackson’s misconduct could have been used to
impeach Agent Jackson’s credibility at trial.
The second component of the first prong – the government’s possession of the
evidence – is contested by the parties. In the instant case, it is undisputed that the two
prosecutors and Case Agent Fowler were unaware of Agent Jackson’s misconduct at
the time of trial. Thus, the government’s “possession” of the favorable evidence turns
on whether Agent Jackson’s knowledge of his own misconduct can be imputed on the
prosecution.
The parties agree that the issue of whether Agent Jackson’s knowledge can be
imputed on the prosecution is governed by Arnold v. McNeil, 622 F. Supp. 2d 1294,
1297 (M.D. Fla. 2009), aff'd and adopted sub nom. Arnold v. Sec'y, Dep't of Corr., 595
F.3d 1324 (11th Cir. 2010). However, the parties disagree on whether the facts of
Arnold are analogous to the instant case. As such, a detailed discussion of Arnold is
merited.
In Arnold, the defendant was convicted of the sale or delivery of cocaine based,
in part, on the testimony of Detective Sinclair, the state’s “principal investigator and
witness.” 622 F. Supp. 2d at 1297-98. At trial, the jury heard testimony that on May 27,
1998, Detective Sinclair and another officer, Detective Thomas, had been working
undercover. Id. at 1316-17. On that day, Detective Thomas was posing as a drug
user/buyer. Id. at 1316. Detective Thomas testified that shortly after he had completed

41

89a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 42 of 76

a drug transaction, a man later identified as the defendant passed by on a bicycle and
briefly conversed with Detective Thomas. Id. Detective “Thomas asked the [man] to sell
cocaine” to Detective Sinclair who was waiting nearby in an undercover vehicle “so that
[Detective] Sinclair could also see [the seller].” Id. at 1317. Detective Thomas then
observed “the seller ride his bicycle to the passenger side of the undercover vehicle,
make eye contact with [Detective] Sinclair and then ‘hastily’ ride off on his bicycle in the
other direction, calling out to [Detective] Thomas in response to his shouts that he [the
seller] would return later.” Id. Both Detective Thomas and Detective Sinclair testified at
trial that the defendant had been the seller. Id. However, it was Detective Sinclair who
had provided Detective Thomas with the defendant’s name.32 There was also evidence
that on the day in question, Detective Thomas only saw part of the seller’s face. Id.
Thus, Detective Sinclair was “the only person to identify [the defendant] at the scene as
the seller of the cocaine.” Id. at 1310. At trial, Detective Sinclair testified that he “knew it
was [the defendant] who had made the sale that day because he had known [the
defendant] for at least twenty years.” Id. at 1318. In closing argument, “the prosecutor
suggested to the jury . . . that if the jury ‘still had any doubt’ based on [Detective]

32

Detective Sinclair told Detective Thomas about the defendant:

[Detective] Sinclair explained to [Detective] Thomas that [Detective]
Sinclair and the seller recognized each other and that the name of the
individual who sold [Detective] Thomas the crack cocaine was Darryl
Arnold. . . . Based on [Detective] Sinclair's supplying the name, on the
following day [Detective] Thomas was able to locate a prior photograph of
[the defendant]. . . . [Detective Thomas] testified that when he looked at
the photograph, he made a positive identification, with no doubt in his
mind at all.
Arnold, 622 F. Supp. 2d at 1317 (citations to the record omitted).
42

90a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 43 of 76

Thomas’ identification [of the defendant], they need do no more than rely on the
credible testimony of Detective Sinclair, who had known [the defendant] for twenty
years.” Id. The defendant was convicted of the drug charge.
Approximately three years after the defendant’s conviction, Detective Sinclair
pled guilty to “conspiracy to commit a civil rights violation leading to the murder of [a
bank customer], conspiracy to distribute cocaine and conspiracy to obstruct justice.”
Arnold, 622 F. Supp. 2d at 1302. Detective Sinclair had engaged in these criminal acts
at approximately the same time as the defendant’s arrest and trial. Id. at 1310. In light
of Detective Sinclair’s criminal acts, the defendant sought habeas relief based on a
Brady violation.
The court granted the defendant’s habeas petition finding that all four prongs of
Brady had been met. Arnold, 622 F. Supp. 2d at 1310-11, 1319. The court determined
that: (1) the evidence of Detective Sinclair’s criminality was favorable to the defendant
and was in “possession” of the government; (2) the defendant could not have
possessed the evidence or obtained it through reasonable diligence; (3) the
government “suppressed” the evidence and (4) the evidence was material under Brady.
Id.
In Arnold, as in the instant case, the prosecutor did not have actual, personal
knowledge of Detective Sinclair’s misconduct at the time of the defendant’s trial. 622 F.
Supp. 2d at 1312. Nonetheless, the court recognized that the prosecutor’s lack of
personal knowledge did not end the inquiry because “Brady applies to exculpatory and
impeachment information that is in the possession of the ‘prosecution team,’ which
includes investigators and the police.” Id. at 1312 (citing Kyles v. Whitley, 514 U.S. 419,

43

91a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 44 of 76

437 (1995)). The court determined that the government both “possessed” and
“suppressed” favorable evidence because Detective Sinclair was a member of the
prosecution team: “Sinclair's knowledge of his own criminal conduct, constituting
evidence that would be favorable to the defense, demonstrates that the prosecution
both ‘possessed’ favorable evidence, in satisfaction of Brady’s first prong, and
‘suppressed’ exculpatory or impeachment evidence, in satisfaction of Brady’s third
prong.” Id. at 1316 (footnote omitted).
The court in Arnold noted that “[t]he facts of [the defendant]’s prosecution [we]re
distinguishable from . . . other cases . . . in which no Brady violation occurred” because:
the nature of the information known to Sinclair about his own
contemporaneous illegal involvement with local drug dealing (i.e.,
threatening, shaking down, and otherwise co-opting local drug dealers)
was the same as the nature of the evidence the prosecutor needed
and secured from Sinclair to convict [the defendant] at trial for the
sale and delivery of cocaine. Moreover, . . . it was Sinclair's ability to
identify [the defendant] that was the key to the prosecution's case against
[the defendant].
622 F. Supp. 2d at 1315 (emphasis added). The court noted that in closing argument,
the prosecutor had used Detective Sinclair’s testimony to bolster Detective Thomas’
identification of the defendant as the person who purchased the narcotics. Id. (stating “if
there's still any doubt . . . whether or not Detective Thomas was able to make a positive
identification [of the defendant], which he told you he was positive, [if] you still have any
doubt that he made a positive identification, you have Detective Sinclair's identification
when he told you that there's no mistake, it was [the defendant], I've known him for 20
years.”). The court in Arnold reasoned that:
Given the necessity of [Detective] Sinclair's information to the prosecution
of [the defendant] and the similarity of [Detective] Sinclair's criminal
activities to the nature of the evidence used to convict [the defendant],
44

92a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 45 of 76

[the defendant] ha[d] adequately demonstrated that [Detective] Sinclair
was a member of the prosecution team and his information should be
imputed to the prosecutor.
Id. at 1316 n.23.
The defendants argue that Agent Jackson was a member of the prosecution
team33 in the same manner as Detective Sinclair was a member of the prosecution
team in Arnold.
The government maintains that the instant case is distinguishable from Arnold
because “[Agent] Jackson’s testimony was corroborated in all material respects due to
the cumulative nature of the overwhelming evidence in this case and the allegations
against [Agent] Jackson in no way relate to the evidence that was relied on by the
prosecution at trial.” Government’s Omnibus Response (DE# 191 at 17, 11/2/15). For
these reasons, the government argues that Arnold is inapplicable and that the
prosecution team consisted only of the two AUSAs and Case Agent Fowler.
The undersigned finds that Agent Jackson’s misconduct is sufficiently related to
the instant case to meet the first prong of Arnold. The instant case was a narcotics
investigation. Mr. Chulpayev often provided information to Agent Jackson about drug
dealers. He also provided money and the use of high-end vehicles to assist Agent
Jackson with these undercover narcotics investigations. Mr. Chulpayev even

33

In his supplemental memorandum, Mr. Mack also argued that the government
conceded that Agent Jackson was a member of the prosecution team based on a
statement made by the AUSA at a status hearing on January 11, 2016. See Mack’s
Supplemental Memorandum (DE# 272 at 9, 6/30/15) (citing Transcript 1-11-16 Status
Hearing (DE# 222 at 106, 2/26/16)). However, in its supplemental response, the
government did not concede the issue. See Government’s Supplemental Memorandum
(DE# 281 at 2, 7/25/15). Accordingly, the undersigned will address the merits of
whether Agent Jackson was a member of the prosecution team.
45

93a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 46 of 76

participated in the Memorial Day weekend investigation by introducing Detective Tyson
to the targets of the investigation, suspected drug traffickers Decensae White and Gary
Bradford. Additionally, Mr. Vernell’s murder was motivated by a belief that Mr. Vernell
had stolen drugs from Mr. White and Mr. White was already the target of Agent
Jackson’s narcotics investigation at the time of Mr. Vernell’s murder. Agent Jackson
proceeded to protect Mr. Chulpayev from the murder investigation by lying to Detective
Williams and withholding information from the Sandy Springs Police Department.
Additionally, at least with respect to Mr. Mack, the jury heard Mr. Mack being referred to
as a “dirty cop,” while at the same time, Agent Jackson was himself engaging in
misconduct.
Importantly, Agent Jackson’s misconduct was contemporaneous with the instant
prosecution. This is not a case where an agent’s bad acts took place years before an
investigation or trial. There was an overlap between Agent Jackson’s misconduct and
his testimony as a government witness in the trial in this matter. Here, the record
evidence shows that after the government had concluded its investigation of the
defendants, but before and during the trial of the defendants, Agent Jackson was
engaged in protecting Mr. Chulpayev from the murder investigation while at the same
time receiving things of value from Mr. Chulpayev. At the outset, Agent Jackson lied to
Detective Williams of the Sandy Springs Police Department leading Detective Williams
to believe that Mr. Chulpayev was a registered source for the FBI. Agent Jackson
sought to protect Mr. Chulpayev by initially withholding Mr. Chulpayev’s name from the
Sandy Springs Police Department and not providing Mr. Chulpayev to the Sandy Spring
Police Department for an interview. Instead, Agent Jackson interviewed Mr. Chulpayev

46

94a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 47 of 76

himself in July 2012 and did not disclose the occurrence of the interview (or information
provided Mr. Chulpayev during the interview) to the Sandy Springs Police Department
until October 2012, after the trial in this matter. Agent Jackson’s involvement in the
investigation of Mr. Vernell’s murder was ultimately damaging to the prosecution of Mr.
Chulpayev for crimes related to Mr. Vernell’s murder and resulted in the suppression of
two of Mr. Chulpayev’s statements.
Additionally as in Arnold, Agent Jackson’s undercover work in the instant case
was clearly important to the investigation and to the evidence presented at trial. In his
undercover capacity, Agent Jackson established a relationship with Mr. Bryant which
led Mr. Bryant to solicit the assistance of Mr. McLendon and Mr. Mack in transporting
sham cocaine from Club Dolce. Much of the audio-visual evidence used at trial was
recorded at Agent Jackson’s office in Club Dolce. Agent Jackson was an important
government witness at trial and was the only witness who testified that the word “tshirts” was commonly understood to be a code word for cocaine. For these reasons, the
undersigned concludes that under Arnold, Agent Jackson was a member of the
prosecution team. Agent Jackson’s knowledge of his own misconduct should therefore
be imputed on the government.
The defendants also cite Moon v. Head, noting that “[t]he Eleventh Circuit has
expressly defined the term ‘prosecution team’ to ‘includ[e] both investigative and
prosecutorial personnel.”’ Mack’s Supplemental Reply (DE# 289 at 2, 9/6/16) (quoting
Moon v. Head, 285 F.3d 1301, 1309 (11th Cir. 2002)). In Moon, the defendant failed to
show that an investigator for the Tennessee Bureau of Investigation (“TBI”) was a

47

95a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 48 of 76

member of the prosecution team in Georgia. The Eleventh Circuit explained that:
(1) there was “no evidence that Tennessee law enforcement officials and
Georgia prosecutors engaged in a joint investigation of the [murder of
Thomas] DeJose . . . .” (2) “the Georgia and Tennessee agencies shared
no resources or labor” and “they did not work together to investigate the
DeJose or Callahan murders. Nor is there evidence that anyone at the TBI
was acting as an agent of the Georgia prosecutor;” (3) [the TBI
Investigator] was not under the direction or supervision of the Georgia
officials, and, had he chosen to do so, could have refused to share any
information with the Georgia prosecutor” and (4) “[a]t most, the Georgia
prosecutor utilized [the TBI investigator] as a witness to provide
background information to the Georgia courts.”
Id. at 1310 (footnote omitted). The Eleventh Circuit concluded that these facts were
“insufficient to establish [the TBI Investigator w]as part of the Georgia ‘prosecution
team.’” Id.
By contrast, in the instant case, Agent Jackson played an important role in the
investigation of the defendants. As noted above, most of the recorded meetings took
place in Agent Jackson’s office at Club Dolce. Agent Jackson’s office was also the pick
up site for the sham cocaine on December 21, 2011 and January 14, 2012 and the
location where Mr. Bryant and Mr. McLendon were paid for their work. Additionally, it is
clear that while the investigation ended in January 2012 and two of the defendants (Mr.
Bryant and Mr. Mack) were arrested in April 2012,34 shortly thereafter in May 2012,
Agent Jackson began engaging in misconduct which continued through the trial in the
instant case.
Significantly, unlike the TBI investigator in Moon whose testimony served merely
to provide the court with background information, Agent Jackson was an important

34

Mr. McLendon was not arrested until June 21, 2012, after Agent Jackson was
already engaging in misconduct.
48

96a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 49 of 76

government witness. The government used Agent Jackson to provide substantive
testimony at trial. Thus, Agent Jackson falls within the definition of “prosecution team.”
For these reasons, the undersigned concludes that Agent Jackson was part of
the prosecution team and as such, Agent Jackson’s knowledge of his own misconduct
should be imputed on the government.
To meet the first prong of Brady, the defendants must show “that the
Government possessed evidence favorable to the defendant (including impeachment
evidence). The defendants have met this prong. The record is undisputed that the two
prosecutors and Case Agent Fowler had no personal knowledge of Agent Jackson’s
misconduct at the time of trial. Nonetheless, Agent Jackson was a member of the
prosecution team, and as such, Agent Jackson’s knowledge of his own misconduct
should be imputed on the government. Thus, the defendants have shown that the
government was in “possession” of evidence of Agent Jackson’s misconduct. Moreover,
evidence of Agent Jackson’s misconduct was favorable to the defendants for
impeachment purposes because it would have undermined Agent Jackson’s credibility
as a witness.
2.

Whether the Prosecution Suppressed Favorable Evidence

Having determined that Agent Jackson was a member of the prosecution team,
the undersigned further finds that the prosecution suppressed favorable evidence. It is
undisputed that the defendants were not provided with evidence of Agent Jackson’s
misconduct at any time before trial. Accordingly, this prong is met.
3.

Whether There Is a Reasonable Probability That the Outcome Would
Have Been Different

Lastly, the defendants must show that the withheld evidence was material. “The
49

97a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 50 of 76

prejudice or materiality requirement is satisfied if ‘there is a reasonable probability that,
had the evidence been disclosed to the defense, the result of the proceeding would
have been different.’” Allen v. Sec'y, Florida Dep't of Corr., 611 F.3d 740, 746 (11th Cir.
2010) (quoting United States v. Bagley, 473 U.S. 667, 682 (1985)). “Materiality is
determined by asking whether the government's evidentiary suppressions, viewed
cumulatively, undermine confidence in the guilty verdict.” Id. (citing Kyles v. Whitley,
514 U.S. 419, 436-37 & n.10 (1995)). “To prevail on his Brady claim, [a defendant] need
not show that he more likely than not would have been acquitted had the new evidence
been admitted,” rather “[h]e must show only that the new evidence is sufficient to
undermine confidence in the verdict.” Wearry v. Cain, 136 S.Ct. 1002, 1006 (2016)
(citation and internal quotation marks omitted).
Because there are differences in the evidence presented at trial against each
defendant, the undersigned will address each defendant individually.
a.

Mr. Bryant

Mr. Bryant argues that his “conviction is irreparably tainted because S/A Jackson
was pivotal to both the sting operation which resulted in [Mr.] Bryant’s criminal conduct,
and the prosecution which resulted in his conviction.” Bryant’s Supplemental
Memorandum (DE# 277 at 2, 7/2/16). According to Mr. Bryant, “Agent Jackson’s
integrity and credibility were . . . paramount to the government’s case. The evidence of
Agent Jackson’s improper behavior, in his official capacity as an FBI agent, at the time
of the trial, would have put the entire case in a different light.” Bryant’s Motion for New
Trial (DE# 181 at 16, 10/8/15).
Importantly, it was not Agent Jackson who changed the focus of the undercover

50

98a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 51 of 76

investigation from extortion to narcotics. At the evidentiary hearing, Case Agent
Fowler35 testified that the decision to change the focus of the investigation was made by
Case Agent Fowler and Miami agents. Additionally, Agent Jackson was not the only
undercover agent in the instant case. Detective Tyson was present during the two
meetings where Mr. Bryant and Mr. McLendon took possession of the sham cocaine.
Both meetings, as well as numerous other meetings and conversations were recorded
and played for the jury at trial. Thus, a significant amount of evidence that was
presented at trial against Mr. Bryant was not dependent on Agent Jackson’s credibility.
Mr. Bryant also raises the issue of entrapment and argues that:
There exists a real, credible and even likely chance that Bryant was
entrapped, given S/A Jackson’s untrustworthiness and history of
dishonesty, coupled with the fact that he orchestrated the sting that
ensnared Bryant, by engaging in unmonitored conversations for which no
one but S/A Jackson can account.
Bryant’s Supplemental Memorandum (DE# 277 at 3-4, 7/2/16).
Mr. Bryant’s entrapment defense is unsupported by the record evidence. “An
entrapment defense has two elements: (1) the government induced the crime and (2)
the defendant lacked predisposition to commit the crime before the inducement.” United
States v. Toussaint, 627 F. App'x 810, 814 (11th Cir. 2015). The “defendant bears the

35

Mr. Bryant suggests that there were unmonitored conversations between
Agent Jackson and Mr. Bryant because Case Agent Fowler testified that he relied on
Agent Jackson’s integrity and therefore did not closely monitor Agent Jackson the way
he would monitor a civilian source. See Bryant’s Supplemental Memorandum (DE# 277
at 2-3, 7/2/16). The only record evidence of an unrecorded conversation between Agent
Jackson and Mr. Bryant took place on December 2, 2011 due to an equipment failure.
Mr. Bryant has not presented any evidence refuting the substance of this conversation
or shown a deliberate failure by Agent Jackson to record this conversation. Mr. Bryant’s
remaining claims of unreported/unrecorded conversations between Agent Jackson and
Mr. Bryant are unsupported.
51

99a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 52 of 76

initial burden of production as to the element of governmental inducement.” Id. A
defendant may meet this initial burden:
by . . . producing evidence sufficient to create a jury issue “that the
government's conduct created a substantial risk that the offense would be
committed by a person other than one ready to commit it.” United States
v. Brown, 43 F.3d 618, 623 (11th Cir.1995) (quotation marks omitted). The
defendant meets this burden if he produces evidence that the
government's conduct included some form of persuasion or mild
coercion. Id. The defendant may show persuasion with evidence that
he “had not favorably received the government plan, and the
government had to ‘push it’ on him, or that several attempts at
setting up an illicit deal had failed and on at least one occasion he
had directly refused to participate.”
Id. at 814 (quoting United States v. Ryan, 289 F.3d 1339, 1344 (11th Cir. 2002)
(emphasis added)).
Here, there is no record evidence to support the element of inducement. At no
point in the recordings did Agent Jackson employ “persuasion or mild coercion.”
Additionally, and as previously noted, the only evidence of an unrecorded conversation
between Mr. Bryant and Agent Jackson was the December 2, 2011 meeting. That
conversation was not recorded due to an equipment failure. Mr. Bryant has presented
no evidence as to the content of that conversation which would support an entrapment
defense. Importantly, the audio-visual recordings which were presented to the jury show
that Mr. Bryant knowingly and willingly participated in Agent Jackson’s plan to transport
cocaine from Club Dolce on two separate occasions. At no point in the audio-visual
recordings did Mr. Bryant express reluctance to participating in this criminal activity.
Mr. Bryant’s Brady claim fails because he cannot show that the withheld
evidence of Agent Jackson’s misconduct was material. “[M]ateriality is not a sufficiency
of evidence test.” Dennis v. Crews, No. 13-21064-CIV-ZLOCH, 2015 WL 7777274, at

52

100a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 53 of 76

*10 (S.D. Fla. Dec. 3, 2015) (citing Kyles, 514 U.S. at 434). “To satisfy Brady’s
materiality standard, [a defendant] must demonstrate that, had the favorable evidence
been disclosed to the defense, there is a reasonable probability that the result of the
proceeding would have been different.” Arnold, 622 F. Supp. 2d at 1319. As to Mr.
Bryant, there is no reasonable probability that the result of the trial would have been
different. Even without Agent Jackson’s testimony, the trial evidence against Mr. Bryant
was overwhelming. Recorded conversations conclusively establish that Mr. Bryant
agreed to transport what he believed was cocaine on December 21, 2011 and on
January 14, 2012.
The audio-visual evidence presented to the jury reveals multiple instances where
Agent Jackson spoke openly to Mr. Bryant about transporting cocaine. For example,
during the December 9, 2011 meeting, Agent Jackson used the words “keys” and “kilos”
in Mr. Bryant’s presence to refer to the drugs that would be transported from Club
Dolce. See Government’s Exhibit 53 at Tab C, Transcript of 12/9/11 Meeting at 7-8, 20.
During that same meeting, Agent Jackson told Mr. Bryant that “the amount of money on
cocaine prices isn’t what it used to be as far as you know.” Id. at 21 (emphasis added).
Mr. Bryant even hung up on Agent Jackson when Agent Jackson used the word “dope”
in a conversation on December 10, 2011. See Government’s Exhibit 53 at Tab D,
Transcript of 12/10/11 Phone Call at 2. A few days later, Mr. Bryant explained to Agent
Jackson that the reason Mr. Bryant had hung up was because Agent Jackson had used
“the Coca Cola word.” Government’s Exhibit 53 at Tab E, Transcript of 12/15/11
Meeting at 4. Agent Jackson told Mr. Bryant during this conversation that he usually

53

101a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 54 of 76

used the code word “t-shirts.”36 Agent Jackson continued to use the word “t-shirts” in
other recorded conversations with Mr. Bryant. Over a month later, Mr. Bryant was still
concerned enough about the December 10, 2011 hang-up, that he relayed the incident
to Detective Tyson on January 14, 2012. See Government’s Exhibit 53 at Tab J,
Transcript of 1/14/12 Meeting at 9-10.
Importantly, Mr. Bryant was present when Agent Jackson placed “bricks” of sham
cocaine into a duffel bag on December 21, 2011 and January 14, 2012. During the
December 21, 2011 meeting, Detective Tyson expressly stated to Mr. Bryant and Mr.
McLendon: “No deviation, no taste, neither one of y’all get high right?”, Government’s
Exhibit 53 at Tab G, Transcript of 12/21/11 Meeting at 11, a statement that would be
consistent with the “bricks” being cocaine. At trial Detective Tyson testified based on his
experience in law enforcement that cocaine was packaged in the same manner as the
sham cocaine was packaged in the instant case. See Trial Transcript (DE# 145 at 201203, 1/14/13). He further explained that money would not be packaged in that manner
because “[w]hen you're delivering money to anyone, people want to make sure that
what they're getting there is money.” Id. at 202. Detective Tyson also testified that
based on his experience, you would not leave large sums of money in a parked car in a
parking lot in the drug business. Id. at 203-204.
In light of the aforementioned trial evidence, the undersigned concludes that Mr.
Bryant has failed to meet the materiality prong of Brady. Detective Tyson’s testimony
36

Even without Agent Jackson’s trial testimony that “t-shirts” was a commonly
understood code word for cocaine, the audio-visual evidence shows that Agent Jackson
directly communicated to Mr. Bryant that Agent Jackson customarily used the word “tshirt” to refer to cocaine. See Government’s Exhibit 53 at Tab E, Transcript of 12/15/11
Meeting at 4.
54

102a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 55 of 76

and the audio-visual evidence presented at trial clearly show – independent of Agent
Jackson’s testimony – that Mr. Bryant believed he was transporting cocaine for Agent
Jackson. As such, Mr. Bryant has not shown entitlement to a new trial under Brady.
b.

Mr. McLendon

Mr. McLendon also argues that evidence of Agent Jackson’s misconduct was
material in the instant case. Mr. McLendon argues that “[a]ny attempt by the
government to merely excise Jackson from the case would be fatal to the prosecution
of McLendon.” McLendon's Supplemental Memorandum (DE# 276 at 2, 7/1/16). Mr.
McLendon notes that “[a]bsent Agent Jackson, there was no evidence of any mention
of drugs in the presence of Mr. McLendon.” McLendon’s Reply (DE# 196 at 4,
11/16/15) (footnote omitted). Mr. McLendon further asserts that the audio/video
recordings of Mr. McLendon “counting packages and [Detective Tyson] questioning
[Mr.] McLendon insultingly about whether he gets high” are “fringe ambiguities” which
“mean virtually nothing absent discussions that Agent Jackson larded into his
conversations with codefendant Bryant.” Id. at n.2. Accordingly to Mr. McLendon,
“[a]bsent [Agent] Jackson[’s testimony], the jury could not have rationally understood
the full context of the dealings between [Agent] Jackson and [Mr.] Bryant and thus
could not have known what second-hand knowledge could credibly have trickled down
to [Mr.] McLendon.” McLendon’s Supplemental Memorandum (DE# 276 at 3, 7/1/16).
However and as indicated above, the recorded statements between Agent Jackson and
Mr. Bryant unmistakably show that Agent Jackson and Mr. Bryant spoke about
transporting drugs. During the December 9, 2011 conversation, Agent Jackson used
the words “kilos,” “keys” and “cocaine.” See Government’s Exhibit 53 at Tab C,
55

103a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 56 of 76

Transcript of 12/9/11 Meeting at 7-8, 20, 21-22. Additionally, when Agent Jackson used
the word “dope,” Mr. Bryant abruptly hung up the phone. See Government’s Exhibit 53,
Tab D at 2. Mr. Bryant later explained to Agent Jackson that the reason Mr. Bryant had
hung up the phone was because Agent Jackson had used the “Coca Cola word.”
Government’s Exhibit 53 at Tab E, Transcript of 12/15/11 Meeting at 4. Over a month
later, Mr. Bryant relayed the incident to Detective Tyson. See Government’s Exhibit 53
at Tab J, Transcript of 1/14/12 Meeting at 9-10. Moreover, Agent Jackson expressly told
Mr. Bryant that Agent Jackson usually used the word “t-shirts” when referring to drugs.
See Government’s Exhibit 53 at Tab E, Transcript of 12/15/11 Meeting at 4. Thus, there
is no merit to Mr. McLendon’s argument that without Agent Jackson’s trial testimony,
the jury would not have understood that in the recorded conversations Agent Jackson
and Mr. Bryant were discussing the transportation of drugs.
The government argues that Mr. McLendon is not entitled to a new trial
“[b]ecause Detective Tyson was the key witness [that] secured the evidence and gave
the testimony that incriminated McLendon.” Government’s Supplemental Memorandum
(DE# 281 at 21-22, 7/25/15).
At trial, the government presented audio-visual recordings of Mr. McLendon on
December 21, 2011 and January 14, 2012. On both occasions Agent Jackson filled the
duffel bag with “bricks” of sham cocaine in Mr. McLendon and Mr. Bryant’s presence.
Mr. McLendon and Mr. Bryant even moved closer to get a better look at the contents of
the duffel bag. As noted above, during the December 21, 2011 meeting, Detective
Tyson expressly stated to Mr. Bryant and Mr. McLendon: “No deviation, no taste,
neither one of y’all get high right?” Government’s Exhibit 53 at Tab G, Transcript of
56

104a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 57 of 76

12/21/11 Meeting at 11. This statement that would be consistent with the “bricks” being
cocaine.37 On both occasions Mr. Bryant and Mr. McLendon returned to Agent
Jackson’s office at Club Dolce to obtain payment after making the deliveries. The jury
also heard testimony from Detective Tyson, based on his experience as a law
enforcement office, that: (1) cocaine is packaged in the same way as the sham cocaine
was packaged in the instant case; (2) money would not be packaged this way and (3)
large sums of money would not be left in a parked car in a mall parking lot in the drug
business. See Trial Transcript (DE# 145 at 201-204, 1/14/13).38

37

Mr. McLendon argues that:

[Detective] Tyson’s ambiguous hints about people who get high or about
tampering with the packages was . . . insufficient – particularly absent the
context provided by Jackson, not merely as to the McLendon interactions,
but also the recordings of the Jackson-Bryant conversations. That Tyson
told the defendants that there could be no deviation, test, or taste was
remarkably ambiguous. Deviation has nothing to do with drugs and
speaks merely to doing the job as specified. Testing (in the sense of
chemical testing) was not an intelligible request as there was not a drug
sale in this case, such that there was no basis for chemical or other actual
testing. Testing in any slang sense could have meant no more than
checking or examining the contents—to see what was inside. And the
ambiguous term “taste” was clearly used in a slang manner—people
generally do not taste cocaine as that is an extremely unproductive way of
experiencing its effects; it is a drug that is usually inhaled directly or by
smoking, and is only rarely injected, but not tasted, by users. So “taste,”
as a slang term, simply meant ‘take some.’ Moreover, getting a ‘taste’ of
illicit proceeds is at least as well known a use of the term as getting an
actual taste of cocaine.
McLendon’s Supplemental Memorandum (DE# 276 at 9-10, 7/1/16) (footnote omitted).
At trial, Detective Tyson provided an explanation for why he asked Mr. Bryant and Mr.
McLendon if they “get high,” see Trial Transcript (DE# 145 at 196, 1/14/13), and the jury
was entitled to credit that explanation.
38

Mr. McLendon argues that:

[G]iven the government’s admission that the back story for using Club
57

105a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 58 of 76

As set forth above, there was ample evidence through audio-visual recordings
and Detective Tyson’s testimony to support the jury’s verdict against Mr. McLendon
even without Agent Jackson’s testimony. In light of the presentation of evidence (other
than Agent Jackson’s testimony) to the jury, Mr. McLendon has failed to show a
reasonable probability that the outcome of the trial would have been different. Based on
the foregoing, the undersigned concludes that Mr. McLendon has not shown
entitlement to a new trial under Brady.
c.

Mr. Mack

Mr. Mack argues that the government’s failure to disclose Agent Jackson’s
misconduct entitles Mr. Mack to a new trial. Specifically, Mr. Mack argues that
“[b]ecause ‘t-shirts’ . . . was the only purported reference to drugs ever made in front of
Mack, [Agent Jackson’s] testimony was critical to the government’s case, both in front
of the jury, and on appeal.” Mack’s Reply (DE# 194 at 4, 11/16/15).
The government maintains that Mr. Mack is not entitled to a new trial and notes
that “Detective Tyson conducted all of the incriminating discussions with Mack during
Dolce was that it was involved in a money laundering operation,
DE145:257, and given that a lounge on South Beach is an odd place to
store, or traffic in, large quantities of cocaine, but an excellent vehicle for
laundering cash, the mixed message of referring to the packages as
money meant the context and explanation offered by [Agent] Jackson was
essential to the government.
McLendon’s Supplemental Memorandum (DE# 276 at 5, 7/1/16). However, nothing
precluded Mr. McLendon from making the argument at trial that he believed he was
transporting money, not drugs. In fact, Mr. McLendon’s counsel told the jury in closing
argument that the government had failed to show Mr. McLendon knew he was
transporting drugs and cited to the “this is money” statement by Detective Tyson. See
Trial Transcript (DE# 147 at 111, 1/14/13). At trial, Detective Tyson provided an
explanation for his statement “this is money,” see Trial Transcript (DE# 145 at 194,
1/14/13), and the jury was entitled to believe Detective Tyson’s explanation.
58

106a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 59 of 76

[the January 14, 2012] breakfast [meeting] that corroborated . . . Bryant[’s] assurances
that Mack knew cocaine was involved.” Government's Supplemental Memorandum
(DE# 281 at 17, 7/25/15) (emphasis in original). The government further notes that
“Tyson testified that, based on all of his experience, nobody transporting cocaine on
behalf of someone else would invite a cop to a meeting with the people he’s
transporting cocaine for unless it was a ‘dirty cop.’” Id. (citing Trial Transcript (DE# 145
at 209, 1/14/13)). However, Mr. Mack would still be a “dirty cop” if he believed he was
transporting money in order to assist in the laundering of drug proceeds. It was only
Agent Jackson who testified that the word “t-shirts” is commonly understood to be a
code word for cocaine. See Trial Transcript (DE# 145 at 93, 1/14/13).
The government focuses on Mr. Mack’s knowledge of his participation in a
criminal act:
[Mr.] Mack, an armed 16-year police veteran in full uniform, had breakfast
with two complete strangers who flat out told Mack they were criminals,
reveling in the thought of police layoffs so they could come down to a
wide-open Miami and get rich, all because of conversation Tyson initiated
during Breakfast and explained at trial. Mack was not surprised, or even
upset, when they admitted they were criminals because Mack was aware
they were drug dealers long before the breakfast meeting. Mack knew
beforehand that Bryant was going to use the fake name “James” to
introduce him which is why he was not surprised and did not correct
Bryant and is also why he [was not wearing] his name tag. Mack fully
understood cocaine was involved because he calmly agreed with Tyson’s
street-talk admonishment that Tyson would be “f*cked” if Mack got “shaky”
and subsequently changed his mind and that Tyson would be concerned
about being “robbed” by Mack, so the drug deal would be cancelled and
“ain’t nobody making money.”
Government's Supplemental Memorandum (DE# 281 at 17-18, 7/25/15). The record
evidence is clear that Mr. Mack knew he was engaged in illegal activity. See supra. He
did not object to the use of a pseudonym and showed up to the January 14, 2012
59

107a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 60 of 76

breakfast meeting in full uniform, but no name tag, among other things. The issue here
is whether Mr. Mack knew he was conspiring to possess with intent to distribute cocaine
(Count 1); attempting to possess with intent to distribute cocaine (Count 3) and
possessing a firearm in furtherance of drug trafficking (Count 4) -- the crimes which the
jury found Mr. Mack guilty.
The government further argues that Mr. Mack would not have wanted to impeach
Agent Jackson regarding the meaning of the word “t-shirts:”
Most notably, Mack neglects to mention that Jackson repeatedly testified
at trial that he had no idea whether Mack knew, or even had a “clue,” that
t-shirts was a code word for cocaine (GX53:O:115, 126). This portion of
Jackson’s testimony is critical because it completely undercuts Mack’s
argument that newly discovered evidence would have successfully
impeached Jackson’s “t-shirt” testimony. Mack would not even want to
impeach Jackson’s testimony that he did not have a “clue” whether Mack
knew “t-shirts” was a code word for cocaine because Jackson’s testimony
in this regard was very favorable to Mack. Attempting to impeach
Jackson’s personal knowledge that “t-shirts” was a common code word for
cocaine would have been equally ineffective because Jackson told Bryant
he “usually” uses this code word during their recorded meeting on
December 15th (GX53:E:4). And, to be perfectly clear, Jackson
specifically testified that he was not imputing Bryant’s knowledge of
Jackson’s code word to Mack (GX53:O:115).
Government's Supplemental Memorandum (DE# 281 at 19, 7/25/15) (emphasis in
original). Mr. Mack responds that “[Agent] Jackson still provided the only evidence from
which the jury could find – and from which the government argued – that [Mr.] Mack
must have known that “T-shirts” meant drugs” and “the Eleventh Circuit cited this
testimony in sustaining . . . [Mr. Mack’s] conviction,” thereby proving that this testimony
was material. See Mack’s Supplemental Reply (DE# 289 at 12, 9/6/16) (citing Mack,
572 F. App'x at 920).
Mr. Mack further notes that “Agent Jackson was also the only witness who
60

108a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 61 of 76

testified that [Mr.] Mack conducted ‘counter-surveillance’ when he pointed out a car in
the restaurant parking lot – an allegation as subjective as it was incriminating.” Mack’s
Reply (DE# 194 at 4-5, 11/16/15). The government minimizes the importance of this
evidence, noting that Agent Jackson was only asked two questions on this subject and
“[t]he government’s closing argument made a very brief reference to this testimony.”
Government's Supplemental Memorandum (DE# 281 at 19-20, 7/25/15). The
government maintains that “[g]iven the conversation that occurred in the restaurant and
upon leaving the restaurant, the brief and insignificant nature of this evidence makes it
cumulative, if even that, and in no way supports Mack’s request for a new trial.” Id. at
20.
The undersigned agrees with the government that the “counter-surveillance”
evidence is insignificant and does not provide a basis for a new trial. Nonetheless,
based on Agent Jackson’s other testimony, the undersigned concludes that there is a
reasonable probability that had evidence of Agent Jackson’s misconduct been
disclosed, the outcome of the trial would have been different with respect to Mr. Mack.
Arnold, 117 F.3d at 1317-18. The only reference to “t-shirts” made in Mr. Mack’s
presence occurred during a conversation between Mr. Mack and Agent Jackson. See
Government’s Exhibit 53 at Tab L, Transcript of 1/14/12 Meeting at 61 (stating “So, you
know, we got this many, this many t-shirts coming through”). After a clip of this
conversation was played to the jury, Agent Jackson told the jury that he used the word
“t-shirts” in that conversation to refer to cocaine.39 Detective Tyson was not present
39

At trial, Agent Jackson testified as follows:

Q. And you also say, “This many, this many T-shirts coming through.”
61

109a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 62 of 76

during this conversation.
The government correctly notes that the jury could have considered Mr. Bryant’s
numerous recorded statements to Agent Jackson and Detective Tyson as evidence that
Mr. Mack knew Mr. Bryant and Mr. McLendon were transporting cocaine for Agent
Jackson on January 14, 2012. See, e.g., Government’s Exhibit 53 at Tab I, Transcript
of 1/14/12 Meeting at 5, 7-8; Government’s Exhibit 53 at Tab J, Transcript of 1/14/12
Meeting at 16-17. However, to satisfy the materiality prong of Brady, Mr. Mack is not
required to show that had the evidence of Agent Jackson’s misconduct been disclosed,
Mr. Mack would have been acquitted. “‘The question is not whether the defendant
would more likely than not have received a different verdict with the evidence, but
whether in its absence he received a fair trial, understood as a trial resulting in a verdict
worthy of confidence;’ thus, [a defendant] may demonstrate a Brady violation by
‘showing that the favorable evidence could reasonably be taken to put the whole case
in such a different light as to undermine confidence in the verdict.’” Arnold, at 1316
(quoting Kyles, 514 U.S. at 434). Given that Agent Jackson was the only witness who
testified that the word “t-shirts” was commonly understood as a code word for cocaine,

What are you talking about there?
A. The cocaine. I was very specific with the term I used just because of
the previous event that happened with Henry Bryant, and I worked drugs
in Atlanta. That's what I do. I'm an agent on the drug squad. And T-shirts
is a very common drug term used in Atlanta for drugs. So that's the
terminology I knew to use. So I referred to the cocaine as T-shirts to avoid
using cocaine or coke or one of those words that would cause an event.
Trial Transcript (DE# 145 at 92-93, 1/14/13). During cross-examination, Agent Jackson
clarified that the word “t-shirts” was used “[n]ot just Atlanta . . . but everywhere.” Id. at
115.
62

110a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 63 of 76

the undersigned is persuaded that confidence in Mr. Mack’s guilty verdict had been
undermined.
In sum, the undersigned concludes that Mr. Mack has met all of the Brady
prongs and is entitled to a new trial.40 Mr. Bryant and Mr. McLendon have failed to show
a reasonable probability that the outcome would have been different and are therefore
not entitled to a new trial under Brady.
d.

Miscellaneous Arguments

The defendants raise numerous additional arguments which are not persuasive.
The undersigned rejects the argument that Agent Jackson’s misconduct undermines
the quality of the investigation as a whole. See, e.g., Mack’s Supplemental
Memorandum (DE# 272 at 13-14, 6/30/15). Case Agent Fowler testified that the
decision to change the focus of the investigation from extortion to narcotics was made
40

In his supplemental memorandum, Mr. Mack argues that in addition to Brady,
the government also violated Giglio and Bagley. See Mack’s Supplemental
Memorandum (DE# 272 at 15, 6/30/15) (stating that “the government’s failure to
disclose the evidence violated Brady, Giglio, and Bagley, as well as the Due Process
Clause of the Fifth Amendment, and should result in a new trial.”). In this Report and
Recommendation the undersigned finds that Mr. Mack is entitled to a new trial under
Brady. Therefore it is unnecessary to address Mr. Mack’s arguments concerning other
violations. To the extent Mr. Bryant and Mr. McLendon are seeking to rely on Giglio,
Bagley and the Due Process Clause, the undersigned finds that Mr. Bryant and Mr.
McLendon are not entitled to relief. There is no Giglio violation here: while Agent
Jackson’s credibility is at issue, there is no record evidence that Agent Jackson
presented perjured testimony at trial. See Hammond v. Hall, 586 F.3d 1289, 1306-07
(11th Cir. 2009) (stating that “[a] Giglio claim involves an aggravated type of Brady
violation in which the suppression of evidence enabled the prosecutor to put before the
jury what he knew was false or misleading testimony . . . or allowed the prosecutor
himself to make a false statement to the jury.”) (citations omitted). Mr. Bryant and Mr.
McLendon are not entitled to relief under Bagley because they cannot show materiality
for the reasons discussed in this Report and Recommendation. See Kyles, 514 U.S. at
434-438 (discussing materiality under Bagley). Finally, the undersigned concludes Mr.
Bryant and Mr. McLendon have not shown a due process violation because they cannot
show materiality.
63

111a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 64 of 76

by the case agent and other Miami agents and was not made by Agent Jackson.
Additionally, the only evidence of a recording malfunction occurred on December 2,
2011 during a meeting between Agent Jackson and Mr. Bryant. As discussed in this
Report and Recommendation, Mr. Bryant’s own recorded statements show that Mr.
Bryant was well aware that the December 21, 2011 and January 14, 2012 deliveries
were of cocaine. Additionally, Mr. Mack and Mr. McLendon were not present at the
December 2, 2011 meeting. Thus, there is no record evidence to support the argument
that the December 2, 2011 audio/visual equipment failure would have been material as
to any of the defendants.
The defendants note that “Agent Jackson also vouched for the existence of the
sham cocaine, which had gone missing prior to trial.” Mack’s Supplemental
Memorandum (DE# 272 at 14, 6/30/15); see also McLendon's Supplemental
Memorandum (DE# 276 at 14, 7/1/16) (referring to “the important fact of the
unexplained loss of crucial evidence: the supposed sham cocaine packages from the
initial transportation and at least one recorded conversation between Jackson and
Bryant.”).41 However, as the government points out, another agent, Agent Wanda Mitial,
“testified she had collected this evidence and [gave] it to the case agent on the day the
operation was concluded.” Government’s Omnibus Response (DE# 191 at 15, 11/2/15)
(citing Trial Transcript (DE# 146 at 114-121, 1/14/13). The jury was shown audio-visual
evidence of Agent Jackson placing the sham cocaine into a duffel bag on December
21, 2011 and on January 14, 2012. See Government’s Exhibit 9 at Clip 2 (Video Clip);
41

Mr. McLendon also raises “[t]he unexplained failure to pursue charges against
another officer, Taurus Barron,” McLendon's Supplemental Memorandum (DE# 276 at
14, 7/1/16), but fails to link that decision to Agent Jackson.
64

112a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 65 of 76

Government Exhibit 13, Clip 1 (Video Clip). Additionally, the government introduced into
evidence photographs of the sham cocaine. See Government’s Exhibits 18a-d and 20ad. Thus, Agent Jackson’s testimony vouching for the existence of the sham cocaine
was not material.
The undersigned also rejects the argument that “evidence of Jackson’s improper
relationship with Chulpayev would have also raised questions about the character of
KayTee Tyson.” Mack’s Supplemental Memorandum (DE# 272 at 14, 6/30/15); Mack's
Supplemental Reply (DE# 289 at 2 n.1, 9/6/16) (asserting that “Tyson’s close friendship
with Jackson as well as his repeated partnership with both Jackson and Chulpayev
would have provided grounds for defense counsel to question Tyson’s integrity right
along with that of Jackson.”); McLendon's Supplemental Memorandum (DE# 276 at 14,
7/1/16) (arguing that “Tyson’s exaggerations of the evidence . . . in his testimony
at the evidentiary hearing and his suggestions of defense of Jackson, show that it was
consistent with his friendship with Jackson to cover for Jackson’s failure to clearly
eliminate the notion of a money laundering operation as the subject of the two trips to
Aventura.”). There is no record evidence of any wrongdoing by Detective Tyson.
Detective Tyson did not know and had no reason to know that Mr. Chulpayev was the
source of the money and cars provided to Detective Tyson by Agent Jackson. With
respect to Detective Tyson’s alleged “exaggerations” at the evidentiary hearing, the
defendants have failed to show that Detective Tyson exaggerated his testimony at trial
or had reason to testify at trial in a manner that favored Agent Jackson, particularly
since there is no record evidence that Detective Tyson knew of Agent Jackson’s
misconduct at the time of trial. Detective Tyson’s friendship with Agent Jackson does
65

113a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 66 of 76

not affect the undersigned’s determination that the jury was permitted to rely on
Detective Tyson’s testimony at trial.
In sum, Brady prohibits “the suppression by the prosecution of evidence
favorable to an accused . . . where the evidence is material either to guilt or to
punishment. . . .” Brady, 373 U.S. at 87. Mr. Mack has met all four prongs of Brady and
is entitled to a new trial. Because Mr. Bryant and Mr. McLendon have failed to show
that evidence of Agent Jackson’s misconduct was material in their case, they have not
shown a Brady violation.
B.

Rule 33
Alternatively, the defendants argue that they are entitled to a new trial under

Rule 33. To obtain a new trial based on newly discovered evidence under Rule 33, the
defendants must show:
(1) the evidence was discovered after trial, (2) the failure of the defendant
to discover the evidence was not due to a lack of due diligence, (3) the
evidence is not merely cumulative or impeaching, (4) the evidence is
material to issues before the court, and (5) the evidence is such that a
new trial would probably produce a different result.
United States v. Brinson, 628 F. App'x 1018, 1020-21 (11th Cir. 2015). “The failure to
satisfy any one of these elements is fatal to a motion for a new trial.” Id. (citation and
internal quotation marks omitted).
In the instant case, the government concedes two elements: (1) that the
evidence was newly discovered and had been unknown to the defendants at the time of
trial and (2) that the failure to learn of the evidence was not due to a lack of due
diligence on the part of the defendants. See Government’s Omnibus Response (DE#
191 at 22, 11/2/15). With respect to the remaining factors, the government relies on the
66

114a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 67 of 76

arguments raised in response to the asserted Brady violation. Id.
For the reasons stated below, the undersigned finds that all of the defendants
have failed to show that evidence of Agent Jackson’s misconduct was more than
merely impeachment evidence. Additionally, Mr. Bryant and Mr. McLendon have failed
to show that the withheld evidence was material to the issues before the Court and that
it was such that a new trial would probably produce a different result.
Because the defendants must satisfy all five elements of Rule 33 to obtain a new
trial, the Court should DENY the defendants’ motions on this ground.
1.

Whether Evidence was Not Merely Cumulative or Impeaching

The undersigned finds that evidence of Agent Jackson’s misconduct constitutes
impeachment evidence. Therefore, the defendants have failed to meet this element of
Rule 33.
The defendants argue that the evidence of Agent Jackson’s misconduct was
more than mere impeachment evidence because the government would not have called
Agent Jackson to testify at trial had the evidence of the misconduct been made public
at that time. See Mack’s Supplemental Memorandum (DE# 272 at 16-17, 6/30/16). The
defendants note that: (1) Case Agent Fowler testified that he would not have used
Agent Jackson if issues concerning Agent Jackson’s integrity had been known at that
time; (2) Special Agent Howell testified that Agent Jackson has not been used as a
witness in any FBI case since allegations of his misconduct became public and (3) it
has been established that Agent Jackson would have asserted his Fifth Amendment
rights if called to testify had the evidence of his misconduct been disclosed to the
defendants at the time of trial. Id. at 16-17.
67

115a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 68 of 76

The government maintains that “arguments that Jackson would have asserted
his rights under the Fifth Amendment had the criminal investigation commenced prior to
trial serve no purpose” because “[t]he criminal investigation had not started and no
evidence exists that one would have started given the facts that existed in October of
2012.” Government’s Supplemental Memorandum (DE# 281 at 26, 7/25/15).
The defendants rely on United States v. Jones, 84 F. Supp. 2d 124, 126-27
(D.D.C. 1999) for the proposition that evidence is more than mere impeachment where
it would have prevented a witness from testifying at trial. See Mack’s Supplemental
Memorandum (DE# 272 at 16-17, 6/30/16). The government argues that Jones is
distinguishable from the instant case because the evidence in Jones was not merely
impeaching, but also false. See Government’s Supplemental Memorandum (DE# 281
at 26, 7/25/15). The government notes that there is no evidence that Agent Jackson’s
testimony was false. Id.
In Jones, the defendant was convicted on a single count of possession with
intent to distribute heroin. Jones, 84 F. Supp. 2d at 124. During the trial, the
government called Detective Brown, a narcotics expert, to provide expert testimony. Id.
The defendant’s counsel stipulated to Detective Brown’s qualifications as an expert and
“Detective Brown did not testify at [the defendant’s] trial about his qualifications.” Id. In a
subsequent, unrelated proceeding, Detective Brown’s credentials were called into
question and it was discovered that Detective Brown had “in the past . . . held himself
out as having a degree in pharmacology” when he held no such degree. Id. at 124. In
light of this newly discovered evidence, the defendant moved for a new trial under Rule
33. Id. The court granted the defendant’s motion. It found that not only would this newly
68

116a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 69 of 76

discovered evidence have impeached Detective Brown’s credibility, it “would have kept
[Detective] Brown from taking the stand at all.” Id. at 126. The court further found that
Detective Brown’s testimony “filled in all of the gaps of the government’s case and was
clearly material to the jury’s determination.” Id. Notably, the defendant was not caught
with drugs on his person. Rather, the defendant had “offered something called ‘Party
with the stars’” to a plainclothes police officer. Id. at 125. The court noted that the
defendant’s “offering of ‘Party with the stars’ to [the plainclothes police officer was]
damning because [Detective] Brown identified ‘Party with the stars’ as a brand of
heroin.” Id. at 126. Additionally, the defendant was found with $25.00 in his possession
and Detective Brown provided “testimony that a small bag of heroin costs between $20
and $25” and Detective “Brown’s testimony alone allowed the jury to imply that [the
defendant] received $25 for the sale of a small bag of heroin.” Id. The court also noted
that “[h]ad that evidence been available at the time of [the defendant’s] trial, it is
inconceivable that [Detective] Brown would have been offered as a witness by the
government.” Id. at 126-27.
The undersigned does not agree with the reasoning in Jones and Jones is not
binding on this Court. In addition, Jones is distinguishable from the instant case
because it involved the testimony of an expert. Evidence of Detective Brown’s lack of a
pharmacology degree and his prior false statements about that degree would have
raised questions about Detective Brown’s qualifications as a narcotics expert.
Moreover, unlike in Jones, evidence of Agent Jackson’s misconduct is not “such that a
new trial would probably produce a different result” with respect to Mr. Bryant and Mr.
McLendon. This is because the other evidence presented at trial – audio-visual
69

117a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 70 of 76

recordings and Detective Tyson’s testimony – support Mr. Bryant and Mr. McLendon’s
convictions for the reasons already stated in this Report and Recommendation. There
is nothing in the Jones decision that relieves Mr. Bryant and Mr. McLendon from the
burden of establishing the probability of a different result. In Jones, the trial court noted
that not all convictions obtained in cases where Detective Brown’s testified as an expert
would be overturned. Id. at 127 (“The Court is mindful of the problem now facing the
government in the many cases where Detective Brown gave expert witness testimony
on the drug trade in this city. . . . This Court is permitted only to consider this case, on
the facts before it.”) (footnote omitted). The court noted that at least one judge had
denied a new trial in a case where Detective Brown had testified because “the
remaining evidence was overwhelming against the defendant.” Id. at 127 n.1. The same
is also true for Mr. Bryant and Mr. McLendon.
The defendants further argue that evidence of Agent Jackson’s misconduct is
more than mere impeachment evidence because the government itself has questioned
Agent Jackson’s integrity and is currently pursuing a criminal investigation into Agent
Jackson’s misconduct. See Mack’s Supplemental Memorandum (DE# 272 at 18,
6/30/15). Mr. Mack cites Espinosa-Hernandez, 918 F.3d 911 (11th Cir. 1990) and
Mesarosh v. United States, 352 U.S. 1 (1956) “for the proposition that when the
government itself has cause to question the credibility of a government agent (or the
equivalent thereof, in the Mesarosh case) newly discovered evidence may be more
than merely impeaching.” Id. at 19 (internal quotation marks omitted). The undersigned
is unpersuaded by this argument and in any event Mr. Bryant and Mr. McLendon have
failed to overcome the other elements of a Rule 33 motion for new trial.
70

118a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 71 of 76

The defendants also argue that it would have been unlikely that the government
would have been able to authenticate the audio-visual evidence without Agent
Jackson’s testimony. See Mack’s Supplemental Memorandum (DE# 272 at 16-17,
6/30/16); Bryant's Supplemental Memorandum (DE# 277 at 5, 7/2/16) (stating that
“[t]here are several recordings of conversations between S/A Jackson and Bryant that
the Government would . . . be unable to authenticate if S/A Jackson was unavailable to
testify.”).
The defendants’ authentication argument lacks merit. The December 21, 2011
and January 14, 2012 meetings where Mr. Bryant and Mr. McLendon took possession
of the sham cocaine and the January 14, 2012 breakfast meeting could have been
authenticated at trial by Detective Tyson because he was present at those events.
Although Detective Tyson was not present for the numerous recorded conversations
between Agent Jackson and Mr. Bryant which took place in December 2011, the
government could have still authenticated this evidence through Detective Tyson. In
United States v. Ligambi, 891 F. Supp. 2d 709 (E.D. Pa. 2012), an informant had
passed away and was therefore unavailable as a witness. The government was
nonetheless permitted to authenticate the voices on the tape recordings made by the
informant through “both direct and circumstantial evidence . . . including voice
identification, surveillance team identification, and self-identification by various
participants.” Id. at 718. Similarly here, the government could have used Detective
Tyson to authenticate the voices on the December 2011, recordings of Mr. Bryant and
Agent Jackson. Detective Tyson was clearly familiar with both Mr. Bryant and Agent
Jackson’s voices. Detective Tyson personally met and spoke with Mr. Bryant on
71

119a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 72 of 76

December 21, 2011 and January 14, 2012. Additionally, Detective Tyson was a long
time friend of Agent Jackson and was therefore competent to identify Agent Jackson’s
voice. Most of the December 2011 conversations between Agent Jackson and Mr.
Bryant were visually recorded (in addition to audio). Thus, Detective Tyson could have
also identified both men by sight. The defendants’ argument that the government would
not have been able to authenticate the audio-visual and recorded evidence without
Agent Jackson lacks merit.42
Finally, the defendants argue that the withheld evidence is more than mere
impeachment evidence because of the seriousness of Agent Jackson’s misconduct:
The evidence in this case meets this standard. It cannot be forgotten that
this was a public corruption case, where the government repeatedly
accused Mack of being a “dirty cop.” The fact that Agent Jackson, who
was the central figure in the undercover investigation, has since been
42

Additionally, the presentation of the audio-visual recordings of Agent Jackson
would not have violated the Confrontation Clause if Agent Jackson had not testified at
trial. In United States v. Price, 792 F.2d 994, 996 (11th Cir. 1986), the defendant
delivered hashish oil to a confidential informant. “[The informant] made consensual tape
recordings of telephone conversations and meetings with [the defendant].” The
informant died a few months later. Id. The government presented the recorded
conversations as evidence at trial and secured the defendant’s conviction. Id. On
appeal, the Eleventh Circuit rejected the defendant’s argument that his “Sixth
Amendment right of confrontation and to present a defense was violated when the court
allowed the introduction of these taped conversation between [the informant] and [the
defendant] into evidence.” Id. The Eleventh Circuit reasoned that:
Because [the informant]’s statements were not hearsay, but rather were
offered to put into context those statements of [the defendant], [the
informant was] not subject to impeachment under the first part of that rule.
Nor were [the informant]’s statements admitted against [the defendant]
and were not statements by an agent, a person authorized, or a
co-conspirator under FRE 801(d)(2), (C), (D), or (E). Therefore, FRE 806
does not apply to allow impeachment of [the informant].
Id. at 996-97. Here, Agent Jackson’s statements in the audio-visual recordings would
have also been introduced to provide context.
72

120a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 73 of 76

proven to be a ‘10 out of 10’ on the corruption scale, would have turned
the government’s case on its head, and goes well beyond “merely”
impeaching the testimony of a single witness.
Mack’s Supplemental Memorandum (DE# 272 at 20, 6/30/16) (emphasis in original).
The undersigned disagrees with the characterization of the instant case as a public
corruption case. None of the defendants were charged with public corruption in this
case. Moreover, it is clear that the public corruption component of the investigation had
ended by the time Mr. Mack and Mr. McLendon became targets of the investigation. By
that time, the case had become a narcotics investigation. In any event, Mr. Bryant and
Mr. McLendon cannot show that the evidence of Agent Jackson’s misconduct was such
that a new trial would probably produce a different result.
2.

Whether the Evidence is Material to the Issues Before the Court

The defendants argue that Agent Jackson’s testimony was highly material at
trial. According to the defendants, Agent Jackson’s trial testimony “filled in the gaps in
the government’s case” because Agent Jackson “was permitted to testify as to what he
understood the highly ambiguous audio visual evidence in the case to mean.” Mack’s
Supplemental Memorandum (DE# 272 at 17, 6/30/15). The government characterizes
Agent Jackson’s “comments about portions of the videos [as] self-explanatory.”
Government’s Supplemental Memorandum (DE# 281 at 26, 7/25/15). The undersigned
rejects the argument that Agent Jackson’s testimony was material to securing the
convictions of Mr. Bryant and Mr. McLendon for the reasons already stated in this
Report and Recommendation. Additionally, it is not necessary to reach the Rule 33
argument with respect to Mr. Mack because he is entitled to a new trial under Brady.

73

121a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 74 of 76

3.

Whether the Evidence Is Such That a New Trial Would Probably
Produce a Different Result

The last element under Rule 33 is “substantially similar” to the materiality inquiry
under Brady. United States v. Phillips, 177 F. App'x 942, 959 (11th Cir. 2006) (noting
that “the materiality inquiry under the Brady test is substantially similar to the final step
of the Rule 33 test.”). For the reasons already stated in the Brady analysis, Mr. Bryant
and Mr. McLendon have not shown that a new trial would probably produce a different
result. The undersigned has already determined that Mr. Mack is the only defendant
who has met the materiality requirement of Brady. For the reasons already stated, Mr.
Mack is also the only defendant who meets the final element of Rule 33.
In sum, none of the defendants have shown entitlement to a new trial under Rule
33 because they have failed to show that evidence of Agent Jackson’s misconduct was
more than mere impeachment evidence. Additionally, Mr. Bryant and Mr. McLendon
have failed to show that a new trial would probably produce a different result.
C.

Mr. Bryant and Mr. McLendon’s Convictions for Aiding and Abetting
The defendants also argue that “[i]f Mack’s conviction was improperly obtained,

[Mr. Bryant and] McLendon’s § 924(c) conviction was likewise improperly obtained.”
McLendon’s Supplemental Memorandum (DE# 276 at 16, 7/1/16) (citing United States
v. Martin, 747 F.2d 1404, 1408 (11th Cir. 1984)). The government did not address this
argument.
Mr. Bryant and Mr. McLendon have not shown that they would be entitled to a
new trial on the firearm charge (Count 4), if Mr. Mack is granted a new trial. Mr. Bryant
and Mr. McLendon have failed to show that confidence in their guilty verdicts for the

74

122a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 75 of 76

firearm charge (Count 4) would be undermined. If this Report and Recommendation is
adopted, Mr. Mack would not be acquitted, he would merely be receiving a new trial.
Moreover, confidence in Mr. Bryant and Mr. McLendon’s convictions does not hinge on
Mr. Mack’s conviction. See United States v. Raffone, 693 F.2d 1343, 1348 (11th Cir.
1982) (noting that “[i]n Standefer v. United States, 447 U.S. 10, 100 S.Ct. 1999, 64 L.
Ed. 2d 689 (1980), the Supreme Court ruled that the acquittal of a charged principal
does not foreclose the subsequent conviction of an aider and abettor.”). Accordingly,
the Court should deny Mr. Bryant and Mr. McLendon’s motion for new trial on this
ground.
RECOMMENDATION
In accordance with the foregoing, the undersigned respectfully RECOMMENDS
that the Defendant Henry Lee Bryant’s Rule 33 Motion for New Trial Based on Newly
Discovered Evidence with Incorporated Memorandum of Law, and Motions for Full
Discovery, for an Evidentiary Hearing, and to Adopt the Corresponding Motions Filed or
to be Filed by and on behalf of Codefendants Mack & McLendon (DE# 181, 10/8/15)
and Defendant McLendon’s Motion for New Trial and an Evidentiary Hearing and
Supporting Memorandum of Law (DE# 187, 10/13/15) be DENIED and that Defendant
Daniel Mack’s Motion for New Trial Pursuant to Fed. R. Crim. P. Rule 33 and Brady v.
Maryland, 373 U.S. 83 (1963), and Request for Hearing (DE# 182, 10/8/15) be
GRANTED.
The parties shall have fourteen (14) days from the date of being served with a
copy of this Report and Recommendation within which to file written objections, if any,
with the Honorable Federico A. Moreno, United States District Judge. Failure to file
75

123a

Case 1:12-cr-20276-FAM Document 291 Entered on FLSD Docket 10/27/2016 Page 76 of 76

objections timely shall bar the parties from a de novo determination by the District
Judge of an issue covered in the Report and shall bar the parties from attacking on
appeal unobjected-to factual and legal conclusions contained in this Report except
upon grounds of plain error if necessary in the interest of justice. See 28 U.S.C. §
636(b)(1); Thomas v. Arn, 474 U.S. 140, 149 (1985); Henley v. Johnson, 885 F.2d 790,
794 (1989); 11th Cir. R. 3-1 (2016).
RESPECTFULLY SUBMITTED in Chambers, at Miami, Florida, this 27th day of
October, 2016.

JOHN J. O’SULLIVAN
UNITED STATES MAGISTRATE JUDGE
Copies to:
United States District Judge Moreno
All counsel of record

76

124a

Case 1:12-cr-20276-FAM Document 123 Entered on FLSD Docket 12/21/2012 Page 1 of 6

125a

Case 1:12-cr-20276-FAM Document 123 Entered on FLSD Docket 12/21/2012 Page 2 of 6

126a

Case 1:12-cr-20276-FAM Document 123 Entered on FLSD Docket 12/21/2012 Page 3 of 6

127a

Case 1:12-cr-20276-FAM Document 123 Entered on FLSD Docket 12/21/2012 Page 4 of 6

128a

Case 1:12-cr-20276-FAM Document 123 Entered on FLSD Docket 12/21/2012 Page 5 of 6

129a

Case 1:12-cr-20276-FAM Document 123 Entered on FLSD Docket 12/21/2012 Page 6 of 6

130a

Case 1:12-cr-20276-FAM Document 121 Entered on FLSD Docket 12/21/2012 Page 1 of 6

131a

Case 1:12-cr-20276-FAM Document 121 Entered on FLSD Docket 12/21/2012 Page 2 of 6

132a

Case 1:12-cr-20276-FAM Document 121 Entered on FLSD Docket 12/21/2012 Page 3 of 6

133a

Case 1:12-cr-20276-FAM Document 121 Entered on FLSD Docket 12/21/2012 Page 4 of 6

134a

Case 1:12-cr-20276-FAM Document 121 Entered on FLSD Docket 12/21/2012 Page 5 of 6

135a

Case 1:12-cr-20276-FAM Document 121 Entered on FLSD Docket 12/21/2012 Page 6 of 6

136a

